<html>
<title> - A REVIEW OF THE INTERAGENCY TRANSITION ASSISTANCE PROGRAM AND THE NEED FOR ENHANCED OUTCOME MEASUREMENTS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



		A REVIEW OF THE INTERAGENCY TRANSITION 
		  ASSISTANCE PROGRAM AND THE NEED FOR 
		  ENHANCED OUTCOME MEASUREMENTS

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                      WEDNESDAY, NOVEMBER 8, 2017

                               __________

                           Serial No. 115-37

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
       
                [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                

        Available via the World Wide Web: http://www.govinfo.gov
        
        
                    U.S GOVERNMENT PUBLISHING OFFICE
                  
31-429			  WASHINGTON : 2019    





                     COMMITTEE ON VETERANS' AFFAIRS

                   DAVID P. ROE, Tennessee, Chairman

GUS M. BILIRAKIS, Florida, Vice-     TIM WALZ, Minnesota, Ranking 
    Chairman                             Member
MIKE COFFMAN, Colorado               MARK TAKANO, California
BRAD R. WENSTRUP, Ohio               JULIA BROWNLEY, California
AMATA COLEMAN RADEWAGEN, American    ANN M. KUSTER, New Hampshire
    Samoa                            BETO O'ROURKE, Texas
MIKE BOST, Illinois                  KATHLEEN RICE, New York
BRUCE POLIQUIN, Maine                J. LUIS CORREA, California
NEAL DUNN, Florida                   KILILI SABLAN, Northern Mariana 
JODEY ARRINGTON, Texas                   Islands
JOHN RUTHERFORD, Florida             ELIZABETH ESTY, Connecticut
CLAY HIGGINS, Louisiana              SCOTT PETERS, California
JACK BERGMAN, Michigan
JIM BANKS, Indiana
JENNIFFER GONZALEZ-COLON, Puerto 
    Rico
                       Jon Towers, Staff Director
                 Ray Kelley, Democratic Staff Director

                 
                 
                 SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                    JODEY ARRINGTON, Texas, Chairman

GUS BILIRAKIS, Florida               BETO O'ROURKE, Texas, Ranking 
BRAD WENSTRUP, Ohio                      Member
JOHN RUTHERFORD, Florida             MARK TAKANO, California
JIM BANKS, Indiana                   LUIS CORREA, California
                                     KATHLEEN RICE, New York

Pursuant to clause 2(e)(4) of rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.
                            
                            
                            C O N T E N T S

                              ----------                              

                      Wednesday, November 8, 2017

                                                                   Page

A Review Of The Interagency Transition Assistance Program And The 
  Need For Enhanced Outcome Measurements.........................     1

                           OPENING STATEMENTS

Honorable Jodey Arrington, Chairman..............................     1
Honorable Beto O'Rourke, Ranking Member..........................     3

                               WITNESSES

Ms. Cindy Brown Barnes, Director, Education, Workforce and Income 
  Security, U.S. Government Accountability Office................     4
    Prepared Statement...........................................    36
Ms. Margarita Devlin, Executive Director, Benefits Assistance 
  Service, Veterans Benefits Administration, U.S. Department Of 
  Veterans Affairs...............................................     6
    Prepared Statement...........................................    43
Mr. Ivan E. Denton, Director, Office of National Programs, 
  Veterans' Employment and Training Service, U.S. Department of 
  Labor..........................................................     7
    Prepared Statement...........................................    46
Mr. Judd H. Lyons, Director, Defense Personnel and Family Support 
  Center, Office of the Under Secretary of Defense for Personnel 
  and Readiness, U.S. Department of Defense......................     9
    Prepared Statement...........................................    52
Brigadier General Robert Bennett, Adjutant General, United States 
  Army...........................................................    22
    Prepared Statement...........................................    59
Rear Admiral Karl O. Thomas, Director, 21st Century Sailor 
  Office, Office of the Chief of Naval Operations, United States 
  Navy...........................................................    23
    Prepared Statement...........................................    62
Brigadier General Kathleen A. Cook, Director, Air Force Services, 
  Manpower, Personnel and Services, United States Air Force......    24
    Prepared Statement...........................................    67
Brigadier General Kurt W. Stein, Director, Marine and Family 
  Programs, United States Marine Corps...........................    26
    Prepared Statement...........................................    69

                       STATEMENTS FOR THE RECORD

Acceleron Learning...............................................    71
Veterans Education Success (VES).................................    72

                        QUESTIONS FOR THE RECORD

U.S. Department of Labor Veterans' Employment and Training 
  Service........................................................    73
Questions Full Committee Ranking Member Timothy J. Walz to U.S. 
  Department of Defense (DoD)....................................    75
Requestors - Full Committee Ranking Member Timothy J. Walz.......    77
GAO Response to Full Committee Ranking Member Timothy J. Walz....    91
Full Committee Ranking Member Timothy J. Walz to U.S. Department 
  of Veterans Affairs............................................    92
  
  

 
A REVIEW OF THE INTERAGENCY TRANSITION ASSISTANCE PROGRAM AND THE NEED 
                   FOR ENHANCED OUTCOME MEASUREMENTS

                              ----------                              


                      Wednesday, November 8, 2017

            Committee on Veterans' Affairs,
                    U. S. House of Representatives,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 2:03 p.m., in 
Room 334, Cannon House Office Building, Hon. Jodey Arrington 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Arrington, Wenstrup, Rutherford, 
Banks, O'Rourke, Takano, and Correa.

             STATEMENT OF JODEY ARRINGTON, CHAIRMAN

    Mr. Arrington. Good afternoon, everyone. I want to thank 
everybody for being here, joining us at the Subcommittee on 
Economic Opportunity's hearing today entitled ``A Review of the 
Interagency Transition Assistance Program and the Need for 
Enhanced Outcome Measurements.''
    As we approach Veterans Day this weekend, today's hearing 
is timely, as today, we will discuss the critical period in a 
servicemember's career where they go down the path from Active 
Duty to civilian. The goals of today's hearing are to discuss 
the administration of the Transition Assistance Program, also 
known as TAP, as well as transitioning servicemember's ability 
and flexibility to attend TAP in an appropriate time prior to 
their separation from the military.
    TAP is a critically important--rather, is critically 
important for today's servicemembers, because if we can get it 
right at the outset of a servicemember's transition from Active 
Duty, then I believe we can mitigate--I am sorry. I am having 
like an allergen reaction here and so I may be calling on 
somebody to help me. I will try to make it through this. I am 
really not just choked up. I do care a lot about the TAP 
program, but I am not getting carried away. We are prone to 
theatrics from time to time, but not that good. So bear with 
me. I apologize.
    TAP is critically important for today's servicemembers. We 
have got to get it right. If we do, we mitigate many issues 
that have plagued and continue to plague previous generations 
of American veterans.
    The information on financial management, job search skills, 
and veterans' benefits are much improved from what was being 
provided to servicemembers under previous versions of TAP, 
which many referred to as, quote, death by PowerPoint. And 
while TAP's structure and curriculum have been greatly improved 
over the years, we can and should do more to prioritize the 
successful transition of our servicemen and -women into their 
civilian lives.
    Before I turn this over to my Ranking Member, I want to 
briefly make a few points. The GAO report that is being 
released today provides great information on how the Department 
of Defense is tracking the participation rate of servicemembers 
attending the TAP program. DoD's publicly released data for 
fiscal year 2016 shows that 94 percent of National Guard and 
Reserve members completed pre-separation counseling and TAP.
    However, the real figures reported by GAO found that DoD 
was missing data for some of the TAP-eligible national 
guardsmen and reservists and that the actual percentage could 
be as low as 47 percent. And GAO also found that while DoD 
talked about a 97 percent attendance by Active duty members, 
that number did not account for all TAP-eligible servicemembers 
and, therefore, the percentage could be much lower.
    While DoD may say that that is just because forms were 
lost, that doesn't mean that servicemembers didn't actually 
attend the training. It is important to make sure we track 
every servicemember. And in the year of 2017, saying that we 
lost data is unacceptable. I want to thank GAO for uncovering 
this problem, and I do trust the DoD will work to ensure all 
servicemembers are being tracked, regardless of whether or not 
they are Active or Reserve component.
    I also want to echo the comments from the past three 
chairmen of this Subcommittee by saying that I believe DoD is 
missing the mark by not placing more emphasis on higher 
education and other 2-day tracks that are part of TAP. Several 
years ago, Congress made it mandatory for DoD to allow the 
participation in this training for those servicemembers who 
wish to do so. And I will be honest that in light of this 
requirement, I am more puzzled as to why DoD would reject a 
recommendation from GAO that they do a better job of tracking 
this participation. Why would the Department reject an effort 
to track the compliance with the law?
    These tracks are critically important because, under the 
right circumstances, the post-9/11 GI Bill can provide upwards 
of $300,000 in benefits to our veteran. And with the thousands 
of schools and training programs clamoring for student 
veterans, we must do everything we can to make sure that our 
servicemembers are provided with all the information and tools 
they need to make an informed choice on the right school and 
how to use their educational benefits.
    Another issue that I hope to hear more about today is how 
the Department of Veterans Affairs, Labor, and Defense are 
measuring and tracking performance and the long-term outcomes 
of TAP. That is, is it working? Do we know it is working? How 
do we know it is working? Where is the data? I have always been 
a proponent of the need to measure outcomes for any program. 
Without measurable outcomes, it is impossible to know for 
certain if the curriculum is working, if the servicemembers are 
receiving the adequate resources and training for transition of 
Active Duty.
    I wanted to take a moment to commend DoD, VA, and DOL for 
working together to transform TAP over the past 2 years. I know 
it is a challenge to get this right, and I think a lot of 
strides have been made. The report, the GAO report stated, 
while unemployment rates for veterans continue to remain low, 
over half of post-9/11 veterans will face a period of 
unemployment upon transition. It is our job to continue to work 
together to improve the process and facilitate a smooth 
transition to address the unemployment gap.
    I look forward to hearing from our panelists, and I 
appreciate all of you guys for being here today.
    I now yield to the Ranking Member, Mr. O'Rourke, for any 
opening remarks he may have.

           STATEMENT OF BETO O'ROURKE, RANKING MEMBER

    Mr. O'Rourke. Thank you, Mr. Chairman.
    I think we all on this Committee agree that it is 
critically important that we get this transition between life 
in service to country in our Armed Forces and life as a 
civilian as a veteran right and that we don't have it right 
today. When we look at access to health care, to housing, the 
ability to integrate in the workforce or in higher education, 
we are still falling far short of the mark.7
    Yesterday, we were able to celebrate passage of a bill that 
improves access to mental health care for veterans who have an 
other than honorable discharge, improving their likelihood of 
successfully transitioning and, frankly, of living, since they 
have twice as high a suicide rate as veterans who have a higher 
level of discharge.
    I want to make sure that we are paying close and careful 
attention to the TAP program, that we understand, as the 
Chairman has said, what it is that we are investing in it and 
how we can measure its performance, the outcomes, the help that 
it should be delivering to those servicemembers who are 
transitioning into civilian life.
    Perhaps the two most important powerful hearings that I 
have been in, one I know Dr. Wenstrup was in with us because I 
think it was our first term in Congress and on this Committee, 
was with family members who had lost a son or daughter to 
suicide. And they gave us incredibly powerful, helpful 
testimony in how we can improve the transition process from 
Active Duty into civilian life, where we had failed before, and 
how we could improve upon it.
    I especially think of the Somers family, Howard and Jean, 
parents of Daniel Somers, who took his life, who have, every 
single day since Daniel's passing, been working with me and my 
colleagues and the administration, whether it was President 
Obama or President Trump, to improve this period of transition, 
and have even offered a specific policy idea in a reverse boot 
camp that I think merits more study and discussion and perhaps 
moving forward on.
    The other was one that we had this year with a panel that 
was talking about some of the consequences of untreated post-
traumatic stress disorder. And I remember Sebastian Junger, who 
Dr. Wenstrup really turned me on to and gave me a copy of his 
book, talking about the crisis that transitioning 
servicemembers face as they try to integrate into civilian 
life, far too often unsuccessfully, unable to get to work, to 
transition into academic life, to transition into family life, 
and the very real mortal toll that is taking on our population 
of veterans in this country as long as we do not figure this 
out and have a more effective, seamless transition.
    So I am very interested in the answers to the questions 
that the Chairman raised and that I am sure other Members of 
this Committee are going to raise. I am very much looking 
forward to the testimony from GAO, my favorite agency in 
government, which keeps us all accountable, Department of 
Defense, Department of Labor, Veterans Affairs, and the 
different representatives of the service branches.
    So grateful to you, Mr. Chairman, for bringing this hearing 
together, very much looking forward to the answers we are going 
to get today.
    Mr. Arrington. Thank you, Ranking Member.
    And now let's welcome our first panel to the witness table. 
Joining us today, Ms. Cindy Brown Barnes, Director of 
Education, Workforce, and Income Security for the U.S. 
Government Accountability Office, GAO; Ms. Margarita Devlin, 
Executive Director of the Benefits Assistance Services at the 
U.S. Department of Veterans Affairs; General Ivan Denton, 
Director of the Office of National Programs for the Veterans' 
Employment and Training Service at the U.S. Department of 
Labor; and Mr. Judd Lyons, Director of the Defense Personnel 
and Family Support Center for the Office of Under Secretary of 
Defense for Personnel and Readiness at the U.S. Department of 
Defense.
    Thanks again for your time and insights.
    Ms. Brown Barnes, you are now recognized for 5 minutes.

                STATEMENT OF CINDY BROWN BARNES

    Ms. Brown Barnes. Chairman Arrington, Ranking Member 
O'Rourke, and Members of the Subcommittee, I am pleased to be 
here to discuss the report we are issuing today on the 
Transition Assistance Program, or TAP.
    Since 2015, hundreds of thousands of servicemembers have 
left the military and transitioned into civilian life, with 
many more to follow. To help them, the VOW to Hire Heroes Act 
of 2011 mandates that DoD require all eligible separating 
servicemembers participate in TAP to get the support they need 
in landing a job, going back to school, starting their own 
business, or retiring.
    Today, I will cover, one, how DoD publicly reports its TAP 
performance goals; two, how many servicemembers went through 
TAP; three, how many were deemed to be career-ready; and 
finally, four, how well DoD monitors key areas of program 
implementation.
    In summary, we found that DoD needs to improve performance 
reporting and monitoring of TAP requirements. The figure shown 
on the monitor is a comparison of DoD's public and internal 
reports. We found that DoD's public reporting may have 
misstated TAP performance, because DoD did not disclose the 
data we[C1][HL2]re missing for 48 percent of National Guard and 
Reserves and 12 percent of Active-duty servicemembers in fiscal 
year 2016. When DoD publicly reported that it had exceeded its 
performance goals, it excluded these individuals, even though 
they were eligible for TAP.
    However, DoD's internal reports tell a different story. The 
top two blue bars show that publicly, DoD reported that over 90 
percent of Guard and Reserves attended TAP's required courses 
were deemed career-ready or were referred to partner agencies. 
Had all eligible Guard and Reserves been included in the 
calculation, their percentage could have been as low as about 
46 percent instead of 94 percent--this is shown in the two 
beige or lighter color bars immediately below--in which case 
DoD would not have met its performance goals.
    Turning to the third and fourth blue bars, DoD's public 
reports show that a higher percentage of Active Duty 
servicemembers met the agency's performance goals. But the 
percentage is lower, according to DoD's internal reports, 
again, because the calculations were not based on the entire 
TAP-eligible population.
    We recommended that DoD's public reports either be based on 
all TAP-eligible servicemembers or else clarify the extent of 
the missing data. DoD agreed to include the disclosures for the 
missing data in all of its public reports for fiscal year 2018 
and beyond.
    With regard to participation, DoD met its goal. Eighty-five 
percent of Active-duty servicemembers took required TAP 
courses, while 3 percent did not. We do not know about the 
remaining 12 percent due to missing data.
    As far as the additional 2-day classes, we found that fewer 
than 15 percent of servicemembers participated and that 
assessing higher education was the most frequently taken class. 
DoD also met its 85 percent goal for the proportion of 
servicemembers who were deemed career-ready, and if they did 
not, they were referred to partner agencies for additional 
support services as required.
    In terms of when TAP should be taken, the law requires 
servicemembers to begin the process at least 90 days before 
they leave the military. While nearly three-quarters started 
TAP on time, TAP staff told us that those who did not may find 
it difficult to complete the program or take advantage of 
additional transition resources. Similarly, servicemembers are 
required to complete TAP no later than 90 days before leaving 
the military, but over 53 percent of them did not finish TAP on 
time.
    In terms of monitoring, we found that DoD does not 
currently monitor compliance with three requirements: 
Timeliness of TAP participation, whether servicemembers are 
able to take additional 2-day classes if they want, and whether 
they take the online version of TAP under appropriate 
circumstances. We recommended monitoring and reporting for all 
three areas and that the reports should be shared with unit 
commanders to ensure compliance.
    DoD generally agreed with our recommendations, except for 
tracking access to the 2-day classes. DoD said these classes 
are part of attaining career readiness standards, a measure 
which is already being tracked. We continue to believe that DoD 
needs to separately track access to the additional classes and 
not just attendance to ensure compliance with the relevant law.
    Thank you. I would be happy to respond to any questions you 
may have.

    [The prepared statement of Cindy Brown Barnes appears in 
the Appendix]

    Mr. Arrington. Thank you, Ms. Barnes.
    Ms. Devlin, you are now recognized for 5 minutes.

                 STATEMENT OF MARGARITA DEVLIN

    Ms. Devlin. Chairman Arrington, Ranking Member O'Rourke, 
thank you for the opportunity to discuss the Department of 
Veterans Affairs contribution to the Transition Assistance 
Program, or TAP.
    With Veterans Day rapidly approaching, this is an opportune 
time for this hearing to take stock of our efforts to help our 
transitioning servicemembers and their families and how VA can 
continue to improve these services.
    As a result of the VOW Act passed by Congress in 2011, TAP 
was redesigned as a cohesive, modular, outcomes-based program 
that standardized services to better prepare servicemembers to 
achieve their post-military career goals. The VOW Act also 
mandated participation in TAP, with a few limited exceptions.
    Outcomes from the increased focus and emphasis on education 
and career development by both VA and DOL content can be seen 
reflected in the dramatic reduction in veteran unemployment, 
which has steadily decreased to a low of 2.7 percent in October 
2017.
    VA's portion of TAP is delivered at over 300 military 
installations worldwide, through the support of approximately 
300 trained VA benefit advisors, and is also available online 
via DoD's Joint Knowledge Online portal.
    VA is collaborating with DoD to align TAP offerings within 
the military life-cycle framework, which embeds transition 
planning and preparation throughout the servicemember's 
military career. For example, as part of accession and 
onboarding, servicemembers are required to establish a self-
service logon and create an e-Benefits account, which gives 
them and their family member's self-service capabilities for VA 
and military benefits.
    VA benefit advisors deliver the mandatory Benefits I and II 
courses, which provide education on VA benefits, such as health 
care, education, vocational rehabilitation and employment, 
disability compensation, life insurance, home loans. They also 
assist with capstone events, provide military life-cycle 
briefings, and provide individual assistance to transitioning 
servicemembers upon their request.
    In fiscal year 2017, approximately 95 percent of our 
benefits advisors were either veterans themselves or were 
spouses of veterans or servicemembers. In fiscal year 2017, 
through August, VA provided more than 63,000 events to more 
than 500,000 transitioning servicemembers and their families.
    VA regularly updates the TAP curriculum to ensure that it 
aligns with current laws on eligibility, entitlement, and VA 
benefits and services. VA also designed a new curriculum 
designed specifically for members of the National Guard and 
Reserve, as they have unique needs due to their missions and 
mobilizations, and eligibility for VA programs is often more 
complex to adjudicate.
    VA consistently receives high evaluations from 
servicemembers who attend Benefits I and II briefings. We 
average satisfaction rates of 96 percent on information 
learned, 96 percent also on effectiveness of the facilitators, 
and 94 percent on confidence gained from the material.
    Despite high satisfaction rates, anecdotal information from 
stakeholders and veterans suggests that a more holistic view, 
including the psychosocial aspects of the transition to the 
civilian life, would give VA's TAP program more real-life 
relevance and would increase the quality of the overall 
experience. To address this, VA is currently redesigning our 
TAP curriculum into a more interactive course that addresses 
the overall transition journey.
    VA is leveraging instructional design, based on adult 
learning principles, to focus on transition decisions and 
actions that transitioning servicemembers need to consider with 
respect to their available VA services and benefits. VA also 
plans to include classroom time for facilitated enrollment and 
submission of applications for health care and other benefits. 
VA is scheduled to pilot the new curriculum in January of 
2018[C3], with worldwide deployment planned for later this 
spring of 2018.
    To further understand the needs of transitioning 
servicemembers, VA is working with interagency partners to 
collect feedback on post-separation outcomes. In 2017, VA 
awarded a contract to develop a post-separation survey 
protocol, which will be submitted to the Office of Management 
and Budget for review in 2018. VA is also collaborating with 
our VSO partners, veteran peer groups, and other thought 
leaders to obtain outside input based on the feedback they hear 
from transitioning servicemembers.
    VA is strongly committed to working with DoD and 
interagency partners to improve TAP by strengthening the 
curriculum, fully integrating TAP objectives into the military 
life cycle, and analyzing post-transition survey data. Through 
these efforts, VA is poised to have greater access to all those 
in uniform, both Active Duty and National Guard and Reserve, 
and dramatically reduce the stress of transition.
    Thank you for allowing me to address the Committee. Mr. 
Chairman, this concludes my statement, and I welcome any 
questions.

    [The prepared statement of Margarita Devlin appears in the 
Appendix]

    Mr. Arrington. Thank you, Ms. Devlin.
    General Denton, you are now recognized for 5 minutes.

                  STATEMENT OF IVAN E. DENTON

    Mr. Denton. Thank you.
    Good afternoon, Chairman Arrington, Ranking Member 
O'Rourke, and distinguished Members of the Subcommittee. Thank 
you for the opportunity to participate in today's hearing so 
that Department of Labor can discuss how we are working with 
both DoD and VA to improve TAP.
    As the director of the Office of National Programs in the 
Veterans' Employment Training Service, my office is responsible 
for managing the Employment Workshop and the Career Technical 
Training Track, which we now commonly refer to as CTTT.
    Prior to discussing TAP employment-related improvements, I 
would like to highlight three relevant points to this 
testimony. First, the American economy is improving. As of 
October, veteran unemployment rate is down 2.7. Additionally, 
unemployment compensation claims and participant numbers have 
dropped to a third of what they were 5 years ago. While there 
are still approximately 280,000 veterans without jobs that are 
unemployed, there are 6.1 million job openings. Transitioning 
servicemembers and veterans can help fill these jobs, and 
employers are eager to hire them.
    Second, the Department proudly served over 1 million 
veterans, guardsmen and reservists last year. DOL provides 
funds to the States to operate over 2,400 American Job Centers, 
which provided employment, training, and support services to 
over 13 million Americans last year. Over 850,000 of those 
Americans were veterans, guardsmen, or reservists. 
Additionally, the Department, of course, provided the 
employment workshop to over 180,000 last year, which includes, 
of course, the Guard and Reserve.
    Third, Secretary Acosta recently stated four employment 
goals to assist our veterans, which include: Creating clear 
career pathways; second, eliminating barriers to employment; 
third, enabling and promoting apprenticeship opportunities that 
lead to meaningful careers, as also emphasized in the 
President's executive order, which is titled ``Expanding 
Apprenticeships in America''; and then finally, increasing the 
portability of licenses and credentials for both those 
transitioning, to include spouses.
    As it relates to employment improvements that align with 
the TAP GAO report, I would like to highlight four goals: 
First, the Department is working with the interagency partners 
to improve TAP timeliness rates. We assess, in line with both 
the law and DoD's policy, a transitioning servicemember should 
begin TAP as early as possible. This allows the servicemember 
adequate time to participate in one or more of the transition 
tracks and to include a DoD Skill Bridge, which is growing in 
its popularity.
    Second, the Department continues to improve the Employment 
Workshop. While the Employment Workshop has consistently 
received high marks from the participants, we recognize the 
need for continuous improvement. This is why we have been 
collaborating over the last year with employers, HR 
professionals, Veteran Service Organizations, and others to 
refine their curriculum as part of a regular, deliberate TAP 
curriculum working group review process.
    Major revisions to the DOL EW include: Shifting from a job 
search approach to a career search approach; and second, 
highlighting the importance of the three supplemental career 
tracks and how each can positively impact long-term wage 
outcomes.
    Third, the Department will improve the training available 
to individuals interested in the apprenticeship and technical 
careers, and will work with our interagency partners to 
increase the CTTT participation rates.
    In April 2017, DOL assumed responsibility for what we call 
CTTT, the Career Technical Training Track, which is one of the 
three tracks. CTTT focuses on apprenticeships and industry 
recognized credentials. The Department is currently conducting 
a comprehensive review and will have a revised curriculum out 
in 2018.
    Fourth and finally, the Department will leverage the 
Veterans' Data Exchange Initiative to improve employment 
outcomes. In November 2016, the Department began a data 
transfer process from the Defense Manpower Data Center. This 
initiative allows us to gain a better understanding for 
characteristics of transitioning servicemembers and proactively 
reach out to them via email to connect them with employment 
training resources. We are also partnering with our Chief 
Evaluation Office within DOL to do this.
    In conclusion, our long-term TAP strategic goal is for the 
Nation as a whole to recognize military service as a path to a 
high-quality civilian career. The future of our country's all-
volunteer force depends upon this recognition, and the 
Department is proud to support this national effort and looks 
forward to working with the Subcommittee.
    Mr. Chairman, Ranking Member, thank you for allowing me to 
be here today, and look forward to questions.

    [The prepared statement of Ivan Denton appears in the 
Appendix]

    Mr. Arrington. Thank you, General Denton.
    Finally, Mr. Lyons, you are recognized also for 5 minutes.

                   STATEMENT OF JUDD H. LYONS

    Mr. Lyons. Chairman Arrington, Ranking Member O'Rourke, 
distinguished Members of the Subcommittee, thank you for the 
opportunity to appear before you this afternoon.
    As director of the Defense Personnel and Family Support 
Center, I am responsible for policy and program oversight of 
the Transition Assistance Program, or TAP. In that capacity, I 
work with a group of professionals who develop effective and 
clear policy for the Department to issue to the military 
services for their execution. We also believe that the TAP 
interagency collaboration is effective, responsive, and 
committed to advancing the ongoing implementation, assessment, 
and enhancement of TAP.
    Since 2015, we have improved several areas of TAP, and I 
would like to address a few. We have updated the TAP evaluation 
plan twice, with both enhancements approved by the Office of 
Management and Budget, and we have annually updated our 
curriculum.
    To improve accountability, we have charged the military 
departments to have their service inspectors general conduct 
inspections of TAP. Their first report is due in 2018.
    Last November, the Department deployed a new TAP IT 
Enterprise System and electronic form, which further 
streamlined our data collection processes. This system 
precludes commanders from signing partially completed forms, 
thus increasing the completeness of servicemember 
documentation.
    Finally, the Department has energized our private and 
public engagements. Our collaboration raises awareness of the 
value transitioning of servicemembers and veterans. Since 
August 2016, we have completed over 200 public and private 
engagements. In addition to these actions since 2015, we are 
committed to continuously improving the program to the benefit 
of the servicemember.
    The Department greatly appreciates the importance placed on 
TAP by Congress and the GAO. We view the recent GAO study on 
TAP as an opportunity to receive external feedback to further 
advance this important program.
    Generally, we concur with GAO's recommendations. We 
acknowledge that in 2016, our performance measures provided via 
public reporting did not provide a clear explanation of the 
extent of missing data. We have since made adjustments to 
address this, and will work even harder with the services to 
reduce the extent of missing data, particularly for our Reserve 
component servicemembers.
    The Department agrees with GAO's recommendation to monitor 
and report timeliness of TAP participation, and we will work 
with the services to identify and implement the best solutions 
to improve in this area. We appreciate GAO's recommendation 
that DoD monitor and report which servicemembers request 
attendance to supplementary 2-day tracks and are able to attend 
the training. We will continue to actively promote and 
encourage participation in these tracks and research potential 
barriers to servicemembers accessing them.
    The Department agrees with GAO's recommendation that DoD 
needs to monitor and report which servicemembers participated 
in TAP in a classroom setting or online. Based on availability 
of resources, we anticipate having the ability to accomplish 
this task, and we appreciate GAO's recommendation highlighting 
the need for commanders to access additional data on TAP. The 
services currently have procedures in place to make this new 
suggested information available to commanders. We will 
strengthen our efforts, working with the services, so the 
commanders will have access to this information.
    Finally, the Department supports GAO's recommendation to 
minimize subjectivity involved with some of the career 
readiness standards, such as the quality of a resume. We will 
work with the services and Department of Labor to identify ways 
to mitigate such subjectivity by the end of fiscal year 2018.
    Again, let me thank GAO for their comprehensive and 
insightful report and their recommendations to further advance 
TAP for the Nation. The Department recognizes that preparing 
servicemembers throughout their military life cycle to be 
career-ready upon transition is essential to the sustainment of 
the all-volunteer force. We cannot do this alone. We need the 
continued strong collaboration with our interagency partners, 
the support and hard work of our military services, especially 
at the installation level, and continued engagement with 
external stakeholders.
    In closing, Mr. Chairman, I thank you, the Ranking Member, 
and the Members of this Subcommittee, for your outstanding and 
continuing support of the men and women who proudly wear the 
uniform in defense of our great Nation. As we pause to 
celebrate Veterans Day this weekend, let us never forget to all 
honor Americans who served in the Armed Forces, both in times 
of war and peace, and I look forward to your questions.

    [The prepared statement of Judd Lyons appears in the 
Appendix]

    Mr. Arrington. Thank you, Mr. Lyons.
    I will now yield myself 5 minutes for questions.
    I don't imagine that there is anybody on the panel or here 
on the dais that would not think it would be a good idea to 
help our servicemembers transition from Active Duty to civilian 
life in the smoothest, most effective manner. Can I get a head 
nod that we all agree that is a good thing?
    So now what we have to do is make sure our actions line up 
with our agreement that this is a good endeavor, and then we 
have to have data to know whether or not what we have decided 
as a program to do that is actually working or not. Otherwise, 
it is just a bunch of words from here and from you.
    And so what are we doing to determine whether or not the 
programs that are offered are the right programs, that the 
folks that go through the programs, the tracks, are actually 
benefiting, and that long term, they are getting better and 
quicker employment rates, and engaging in education and 
training opportunities?
    And I would like everybody to answer that, but I will start 
with you, Ms. Devlin.
    Ms. Devlin. Thank you for the question. We do measure 
outcomes. We can't always attribute all of the outcomes 
directly to participation in the Transition Assistance Program. 
But I think the biggest effort that we are undertaking, which 
will give us I think what you are looking for, is that post-
transition survey. Because what I hear sometimes is, when you 
are going through the Transition Assistance Program, you don't 
know what you don't know yet until you actually become a 
civilian and start that actual transition on the other side.
    Getting the survey data from veterans who have recently 
transitioned at the 6-month, 12-month, and 18-month mark will 
give us data that is from their voices themselves about how the 
program influenced their ability to successfully transition and 
what they are going through in their life at those stages post-
transition.
    Mr. Arrington. So you said you have some outcome data. What 
is the outcome data that you have today that we can link back 
to these programs and whether or not they are successful?
    Ms. Devlin. Again, we can't always attribute these outcomes 
directly to participation in TAP, but, we through the senior 
steering group and executive committee, we track outcomes, such 
as graduation rates, unemployment rates.
    Mr. Arrington. That could have little, a lot, or nothing to 
do with these programs--
    Ms. Devlin. Correct.
    Mr. Arrington [correct].--that we spend, what is it, 
hundreds of millions of dollars. So that is frustrating to me 
because, all too often, we don't have this sort of data. It is 
just activity. You report activity. I heard a lot of activity. 
We are doing this, we are doing that. Then we have timeframes, 
and sometimes they are followed. And we have requirements for 
reporting. Sometimes it is followed. Sometimes people don't 
care to follow that, even though that is part of the law.
    But what we need more than anything is, are these programs 
working, so we can tell the taxpayers, your investment is 
actually supporting our veterans or not, and we can look the 
veterans in the eyes and say, this is a meaningful program for 
you.
    So you mentioned this post-transition survey. Is that in 
the works? Are we going to implement that? Is that something 
that you guys are planning on implementing, and when are you 
going to implement it?
    Ms. Devlin. Yes, we are. We are in the drafting process for 
the survey questions with our contractor. The interagency group 
is working on this together, although VA awarded the contract 
for the development. And we should be sending it to--we will 
definitely be implementing in 2018. And as soon as the draft is 
ready for submission to OMB, we will submit it for that review 
process so that we can start fielding the survey.
    Mr. Arrington. Sure. How long has this program been going--
in existence, I should say?
    Ms. Devlin. It is a brand-new effort.
    Mr. Arrington. No, I mean this program, the TAP program, as 
administered by the VA, your component of it.
    Ms. Devlin. The TAP program, in its current state, it was 
post-VOW Act. The VA started administering the program in its 
current state in 2013.
    Mr. Arrington. Okay. At least 4 years without knowing 
whether or not it is working.
    What about you, General Denton, where are your outcome 
measures, and how do you know your part of the program is 
working?
    Mr. Denton. First of all, that is a great question. Having 
just transitioned last year myself--I know you don't want to 
hear anecdotally--I think it works.
    Mr. Arrington. I think that is valuable.
    Mr. Denton. But I will tell you, actually, Judd and I went 
through TAP together last year and it was very helpful. And I 
will tell you, whether you are a sergeant or whether you are a 
general, that challenging question of ``what are you going to 
do for your second career'' is not an easy one. So I will tell 
you that my personal passion for this program has to do with--I 
left last December and was fortunate to get a job with Labor.
    But to answer your first question, we are blessed at the 
Department of Labor to have an office called the Chief 
Evaluation Office. And it is led by a brilliant doctor who is 
an expert on long-term impact studies, which when I was in DoD, 
I didn't even know what that word meant. But I will tell you 
that we are about to do a contract to do a 36-month study on 
the long-term impacts, and I can get you the exact language of 
that. But we think it is going to be pretty landmark in nature, 
and we are going to be able to prove to you and the taxpayers 
that it is in the interests of TSMs and the American taxpayer 
for this program to continue.
    Mr. Arrington. My time has expired. I will have more 
questions in follow-up to your comments. I appreciate that.
    And so, Mr. Ranking Member, I am going to turn it over to 
you for 5 minutes.
    Mr. O'Rourke. Mr. Lyons, what is the total cost of TAP, 
annually?
    Mr. Lyons. Congressman, for fiscal year 2016, the 
Department executed approximately $117 million for TAP. That 
includes our headquarters and the services across the spectrum. 
We are collating the fiscal year 2017 data from the 
comptroller, from OSD. So I would like to take that for the 
record and come back to you with that. That data is not 
available yet. But for fiscal year 2016, it was about $117 
million.
    Mr. O'Rourke. So for the last year, we have data. It is, 
you said, 2016, 117, all in?
    Mr. Lyons. That includes the elements of the program 
execution, along with the civilian pay associated with 
administering and executing the program.
    Mr. O'Rourke. And to the Chairman's line of questioning, 
can you give me a succinct answer on how we can get better 
measurable outcomes, not so much who attended class and when 
they attended it and whether they attended it online or in 
person, although those could be important measures, but what 
the value of that attendance was, but for participating in a 
TAP program they would not have achieved X, Y, or Z?
    Mr. Lyons. Thank you, Congressman. I would offer that our 
output measures for the Department of Defense center around VOW 
compliance, career readiness standard attainment, but we are 
constantly looking at data points that help us improve the 
program. So we have a series of assessments, participant 
assessments that a servicemember going through TAP takes, and 
that gives us some valuable feedback in terms of customer 
satisfaction and the impact that TAP had on the transitioning 
servicemember.
    So, for example, in fiscal year 2017, in quarter three, the 
last quarter we have data for, 91 percent of our participants 
that went through TAP said that they gained valuable 
information and skills to plan their transition. An additional 
91 percent said that the training they received in TAP enhanced 
their confidence in their transition planning, and 91 percent 
said that they would use what they know--
    Mr. O'Rourke. Sorry to interrupt you. Are those boxes you 
can check or are those things that people took the time to 
write out?
    Mr. Lyons. So it is a combination. The participant 
assessment is both, you know, selections to questions as well 
as free data input.
    Mr. O'Rourke. Got you. Here is what I am trying to get at. 
It is not clear to me how seriously we take TAP, you know, all 
of us included. We have the oversight responsibility. You all 
have responsibility for execution. You are supposed to complete 
that program before you reach the 90-day point, before you are 
90 days away from separation. Fifty-three percent of those 
participating are doing it with less than 90 days. We have 
reports in this GAO study that officers are asking that the 
members of their unit not have to go to class and be able to do 
this online. We hear anecdotally from separating servicemembers 
and veterans that it was just something they had to go through, 
get out of the way. They want to get on with their civilian 
life, whatever they are doing next.
    I don't know that we have a compelling articulation of the 
value of TAP, what we can tell that separating servicemember 
that they are going to find in this that is going to help them 
in their lives, beyond the fact that they have to do this or 
they are supposed to do this. Same for the officer. Same for 
the Member of Congress. Same for the taxpayer who fronts the 
$117 million annually.
    Without that measure, this is not going to get better, and 
I agree with the Chairman on this. The fact that you all 
couldn't report on a majority or near majority of Guard and 
Reserve servicemembers because it was recorded in paper and you 
didn't transition adequately to digital, I mean, that just to 
me sounds like it is not something that we take very seriously.
    So maybe I am able to identify some of the symptoms of the 
problems. I would really like to work together with you and 
with the Chairman on how we get some defined measurable 
outcomes that demonstrate the value of this, because I think 
all of us get the concept. We want it to work. It is not clear 
that it is or that we are getting a return for the investment 
or that this is valuable for the participating servicemember.
    And one question that I have perhaps for the next panel, 
and I would love either in this panel or offline with Dr. 
Wenstrup and Mr. Banks, I would love to know if there is some 
way to have the leaders of those units, the officers, have some 
level of accountability through separation and post separation.
    I know anecdotally, there are officers who come up to me 
and say, hey, a guy who was in my unit, veteran now, one of 
your constituents, Beto, can't get a mental health care 
appointment, and it really bothers me and I feel accountable 
and responsible for that, I want you to do something about it. 
Is there some way to give those commanders more control or 
power or accountability or responsibility to help these 
servicemembers see through this transition in a more effective 
way?
    Anyhow, more questions that I think are going to take a 
while to answer, but I appreciate it, Mr. Chairman.
    Mr. Arrington. Thank you, Ranking Member. A great line of 
questions.
    I now want to recognize our colleague Mr. Banks for 5 
minutes.
    Mr. Banks. Thank you, Mr. Chairman.
    Ms. Brown Barnes, during GAO's assessment of TAP, did it 
seem as if the servicemembers were being encouraged and allowed 
to attend the additional optional tracks if they wanted to?
    Ms. Brown Barnes. They were, from the people that we talked 
to, they were allowed to. In terms of being encouraged, 
sometimes the timing didn't allow for them to do it, but 
usually they had some opportunities to do that.
    Mr. Banks. So anecdotally, you believe that they were--
    Ms. Brown Barnes. Yes.
    Mr. Banks [continued].--encouraged to if there was time to 
do so?
    Ms. Brown Barnes. If there was time to do so. I mean, we 
had also heard different things about sometimes they weren't or 
mission type activities took priority, so we did hear some of 
that as well.
    Mr. Banks. Okay. Thank you.
    Mr. Lyons and General Denton, how are the Departments 
tracking whether a servicemember who doesn't meet the career 
readiness standards for employment, how do we know that they 
are receiving that, quote, warm handover? And is this warm 
handover effective and truly what the servicemember needs to be 
career-ready? Mr. Lyons?
    Mr. Lyons. Congressman, thank you. So in 2016, the 
Department issued two memorandums, one that specifically 
focused in on an at-risk population of veterans for 
homelessness. And we issued guidance to the services to ensure 
that commanders understand their responsibility to ensure that 
warm handover happens to the appropriate agency. It could be 
Veterans Affairs, it could be Department of Labor. It could be 
both, in the case of homelessness.
    We did the same thing for those that separate for an Other 
Than Honorable Discharge, recognizing that that population 
could also be at risk, and the need to have a warm handover.
    So we continue to engage with our interagency partners to 
provide input. With the deployment of our electronic form this 
last year, we are actually getting servicemember-level data on 
when they opt in to receive follow-on services from a partner 
agency. And we provide that data then to Department of Labor or 
Veterans Affairs so that we can more accurately track and 
deliver those services. So I defer to my colleagues for further 
on that.
    Mr. Banks. Colonel?
    Mr. Denton. That is a great question. Thanks, Judd.
    The employment warm handoff process is working. We have a 
process in place. We don't nationally track it and monitor it. 
In the last 6 months, the Army has asked us to do that with 
them. So we think with BDI and the e-Form, we eventually may be 
able to look at that macro number on employment and be able to 
see if we are making a mark.
    So we are definitely looking forward to working with DoD on 
that, especially since the Army has reached out and said, we 
would like your help on this.
    Mr. Banks. I am not sure why I called you a colonel, but I 
apologize, General, for that.
    With that, I yield back.
    Mr. Arrington. Thank you, Mr. Banks.
    And I now want to recognize Mr. Takano for 5 minutes.
    Mr. Takano. Ms. Brown--thank you, Mr. Chairman--you know, I 
was a high school teacher for over two decades and a community 
college trustee for about the same amount of time, and I saw 
many students struggle with their transition into postsecondary 
education because they needed remedial education, developmental 
education. And while I know this wasn't the focus of this 
report, I am curious to know if we have any data on 
servicemembers' educational background before they entered 
military service.
    Ms. Brown Barnes. Yeah. That was outside of what we did for 
this review. We could submit that for the record, but I don't 
have any--
    Mr. Takano. I don't know if you collect that data. I mean, 
I have always wondered whether or not we knew about our 
servicemembers' educational background, because that has a lot 
to do with whether or not they are going to be able to utilize 
their post-9/11 GI Bill benefits, right? I mean, we recruit 
them on the basis of these benefits. And I believe the 
military, because we do recruit them on that basis, has some 
responsibility to making sure that these benefits are not 
hollow. And they are hollow if we don't do anything to help 
these servicemembers attain the ability to attend the higher 
education during their time in the military.
    So I would be curious to see that data, but you really 
can't tell me much about that data now.
    Ms. Brown `. No.
    Mr. Takano. I will have more questions once you do submit 
it.
    Ms. Brown Barnes. Okay.
    Mr. Takano. Mr. Secretary, the GAO study found very low 
rates of attendance for the supplemental TAP courses on 
accessing higher education, career and technical training, and 
entrepreneurship. While, obviously, not every one of these 
supplemental classes will be applicable to servicemembers, 
chances are one of them will be relevant to whatever post-
service path a servicemember has planned. And as these classes 
have a direct impact on how veterans use their benefits, such 
as the GI Bill, and have the potential to help servicemembers 
take their core TAP program and turn it into actual job 
opportunities after separation, the low participation rate 
seems to indicate, to me, missed opportunities to help 
servicemembers successfully transition.
    So how has OSD thought about--well, I want to know, has OSD 
thought about mandating that servicemembers attend at least one 
of these currently supplemental programs?
    Mr. Lyons. Thank you, Congressman. We have approached, with 
our revamped TAP enterprise, an adoption of career readiness 
standards. How career-ready is the transitioning servicemember 
to transition to a civilian career? And we have adopted, as 
part of that, an engagement earlier in their military life 
cycle on topics such as this, higher education being one.
    So we deployed a higher education prep module that is a 
virtual module that actually explores a transitioning 
servicemember earlier in their career. What are their goals; 
what are the education requirements to help them achieve those 
goals; and what resources are available to them, such as 
tuition assistance. So we are interested in the aspirations of 
the servicemember and providing resources to them.
    With respect to the additional tracks, one of the reasons 
we developed those additional 2-day tracks and designed them to 
be delivered both in a brick-and-mortar classroom environment 
and online was to make them available to whatever servicemember 
has that particular career goal in mind. And we think we have 
been successful in that. We found that servicemembers that 
attend a brick-and-mortar classroom may revisit a particular 
topic online, such as the higher education prep module.
    Mr. Takano. Okay. But are you looking at mandating that 
they take one of those supplemental courses?
    Mr. Lyons. I think, Congressman that adopting a one-size-
fits-all approach of mandating attendance at the 2-day track 
may not apply to a servicemember that doesn't have that 
particular goal in mind. So we are going to continue. If they 
espouse that desire for higher education, we are going to 
actively and constantly promote attendance at those 2-day--
    Mr. Takano. I am glad that you all are taking an interest 
in the educational and career goals of the servicemember. That 
is really good to hear. But are they assessed? Is there any 
point--when do you assess them, if they are assessed, for, you 
know, their educational goals? I mean, how appropriately?
    Mr. Lyons. So, again, back to the military life cycle, we 
engage with them earlier in their career, beginning at their 
first duty station and at certain touch points throughout their 
career--promotions, reenlistments--and revisit their individual 
development plan that they have put together.
    Mr. Takano. But are they assessed?
    Mr. Lyons. When it comes time to transition, during pre-
separation counseling, they will sit down with a TAP counselor, 
who will review their individual development plan and change it 
into an individual transition plan. At that point, as they sit 
down and have that conversation, the counselor will encourage 
and promote the attendance at the appropriate 2-day track with 
the servicemember.
    Mr. Takano. My point is that the military does not assess 
the servicemember earlier, at the point of, you know, induction 
or any earlier point. There is no way for you to help guide and 
hold accountable that servicemember for the goals they set 
without that assessment as a baseline.
    Mr. Lyons. Yeah. I think that in a servicemember's life 
cycle, you know, things change over the course of their life 
cycle. So, again, our objective is to, in their capstone event, 
prior to actually separating, assess whether they are career-
ready to transition.
    Mr. Takano. You assess them at the end of when they are 
ready to leave, but not toward the beginning. And there is no 
way for you to intervene if that servicemember is really 
unprepared to pursue a certain educational path or career path.
    Anyway, my time is up. I am sorry.
    Mr. Arrington. Mr. Wenstrup.
    Mr. Wenstrup. Thank you.
    Thank you all for being here. I appreciate the 
conversation, and I think we are headed in the right direction, 
but I think there is a lot more we can do.
    And so let me just start with you, Mr. Lyons. Per troop, 
what is mission complete for the DoD when it comes to the 
Transition Assistance Program? When do you say like we have 
done our job? What does that look like?
    Mr. Lyons. I think, Congressman, you know, first and 
foremost, I don't think we are ever mission complete. I don't 
think we can ever rest on, you know, 100 percent of completion 
in terms of transition assistance. I think it is an evolving 
program. The nature of--
    Mr. Wenstrup. I am talking about--excuse me, I am sorry to 
interrupt. But I am talking about like per troop. Is it mission 
complete when you say, look, this troop knows where he is 
going? He/she is going to school. They know what they want to 
major in. They have got it mapped out. That to me, before they 
take their uniform off, if they know what they are doing, they 
are enrolled in school, to me that would be mission complete. 
That is a success. We have done our job, you know.
    Because I think in the big picture, you know, the big 
aerial picture of what it means to join the military, we are 
going to do a whole lot better if the military is seen as a 
place where any young American can enter and it is a path to 
success.
    And so I agree with Mr. Takano's comment like, when do we 
start engaging that troop? You know, from day one do you say, 
is military your career, is that what you have in mind, do you 
want to do something afterwards? Because let's face it, you 
start at 18, you got plenty of time for another career after 
that, right? So get them thinking in that way. Are we asking 
those questions early on?
    Because to me, for VA--and it is good that you are all 
here, because you all have a role to play in this. And to me, 
success means that before you take that uniform off, you know 
where you are going. You think of the college graduate that 
gets their diploma, and they already know where they are going 
to be working in 2 weeks. That is a whole lot better day than 
one who walks up, gets that degree, and has no idea what lies 
ahead. And I think we will recruit better and the military will 
be transformed in so many ways. You say like, that is the path 
to success in America, if you choose that, you serve your 
country, and they are going to make sure that you are on a path 
to success.
    So to me, we have to engage early. Because for the VA, for 
example, the VA then is strapped with being reactive too often. 
Because if you think about some of the problems that we face 
with suicide and depression and stress, listen, when you come 
out and you don't feel necessary when you have felt necessary 
for a long time being in uniform, that is when it spirals 
downward.
    So I am going to propose, and I think you probably all 
would agree, and I know that my friends here that are both on 
Armed Services and on this Committee, we need to come together 
on this. I don't think this should just be VA committee-driven. 
I think we need to reach back and go back a little bit further, 
and I think we can do a whole lot better. But let's define what 
success really looks like and in this program. And to me, it 
would be when you leave here, you know exactly where you are 
going. And that our success in what we do should be based on 
how many people actually know where they are going and what 
they are doing and have a plan and leave with confidence.
    So anyone can engage in that conversation with me, but I 
hope that is where we are headed, and I think we are at the 
beginnings of that.
    Mr. Lyons. Congressman, thank you. And just real quickly 
here. I would offer that, again, we are engaging with 
servicemembers earlier in the process to talk about those 
issues that you have described. So I talked about that 
individual development plan that begins at their first duty 
station, where, again, we have a discussion about their goals. 
What is the training and education requirements? We talk about 
apprenticeship information, resume prep information, financial 
preparedness information. This is early on. So that, again, our 
culture changes across the Department so that the first time 
they are thinking about transition is not their last action 
leaving the service.
    And so we think that military life-cycle culture that we 
are undergoing through early engagement and at critical points 
in a servicemember's career will help us to get there, but I 
acknowledge your comments.
    Mr. Wenstrup. I appreciate it. We can keep talking about 
that. If anyone else cares to--
    Mr. Denton. Sir, we have looked at that hard at Labor. 
Having gone through the Employment Workshop last year, I will 
tell you that we have kind of taken a look at what is our end 
state. We think it should be meaningful career. That is in line 
with earlier documents of why TAP was started. We think for a 
TSM to get that meaningful career, our Secretary has talked 
about the pathways. We really think that higher Ed, career 
technical training, and entrepreneur provides for those three 
paths. So that is why we are really looking forward to working 
with our interagency partners toward helping those TSMs get 
into that path, which now we call track. Whether we call it a 
track or a path that is really what we are talking about. Thank 
you.
    Mr. Banks. [Presiding.] Mr. Correa?
    Mr. Correa. Thank you, Mr. Chair.
    I just wanted to follow up with what Dr. Wenstrup said and 
Mr. Takano. I am looking at this data and this information and, 
again, issues with the supplemental TAP, 15 percent 
participation; those that left the military with less than an 
honorable discharge, 5 percent participation. And to me, it 
kind of signals in my mind that maybe the value given by our 
men and women in uniform is not that high. If you come back and 
your participation is 15 percent, it tells me that there is a 
disconnect between what they really are looking for and what 
they are really getting.
    And I think we can mandate these men and women in uniform 
to do these supplemental--this TAP program, but yet when they 
come back and use it at such a low rate, it is telling me 
something about the value. And I guess if I went back and 
talked to those folks that are leaving the military and asked 
them, what do you want to do before you leave, and probably 
most of them would say, I just want to get home. And so you try 
to force feed some of these folks this information. I am not 
sure what the value is.
    I think this is good information, but I am trying to figure 
out if this is more of an issue you try to catch up with these 
folks, not only before they leave, but after they leave. I 
mean, one of the issues we have been looking at is deported 
veterans, veterans that are residents that should have become 
citizens before they left the military. Those are some of the 
things that I think would really add value, if you, you know, 
you said, you know, you guys got to become U.S. citizens before 
you leave.
    The other area, of course, is, you know, I hate to bring it 
up, but, you know, this tragedy in Texas. You have an 
individual that had serious mental issues. There were 
indicators there and there was no follow-up. There was no--
somewhere it didn't--all the dots were not aligned, were not 
connected.
    And, you know, again, you have an evolving program. You 
have investments, aspirations of service officers. I am trying 
to figure out in my mind where we go with this program that 
could be a tremendous value. But to me, in my mind, I have got 
to figure let's go back and ask these men and women in uniform, 
where is it that we can help you the most? Maybe we come back 
and talk to them 6 months after, a year to the discharge, and 
see how they are doing. How you doing? Are we having issues at 
home? Did you get the jobs you were looking for? Were you able 
to connect with that apprentice program that is paying $60,000 
a year to start, or are you not there yet?
    I have a lot of questions. Open it up for statements or 
comments from the panel.
    Mr. Lyons. Congressman, thank you. You know, I think that 
in terms of pulsing the needs of our members, both Active 
component and Reserve component, again I harken back to our 
participant assessments where they can give us direct feedback 
on these issues, and--
    Mr. Correa. Let me interrupt you. I don't have much time. I 
have a minute and a half. But that was the other point I had, 
which is having somebody fill out a questionnaire or a form 
saying was this good or bad versus coming back to them in a 
year and saying was this good or bad I think will give you a 
different outcome. You know, it is like when I get asked did I 
do a good service or not, I usually give people the five, the 
best, but, you know, it is just a number.
    So, again, I think we have got to come back and look at 
that data, kick it around to try to figure out another way to 
look at the data.
    And finally, in terms of the--you know, we are looking at 
academics here, other things that will make you successful in 
life. I would say we have to come back and look at the veterans 
as a holistic, you know, psychological, family, career, 
everything to make sure that we get these men and women that 
gave so much for our country, that they are actually on the 
right path to be successful citizens.
    I would say I got 30 seconds, if you would like to comment.
    Mr. Lyons. I think that assessing effectiveness after the 
servicemember has already left the service is a challenge. We 
do have existing surveys and research studies that we use. We 
annually survey, through a status of forces survey, both Active 
and Reserve component members about their perceptions of TAP, 
their needs within TAP. We also have recently commissioned a 
RAND study on the needs assessment of Reserve component member 
transitions. We are looking forward to the results of that to 
help us inform our program to deliver in the most efficient and 
effective manner these services to them.
    So I think assessments, surveys, research studies are 
helpful to us. Getting to servicemembers after they have 
transitioned to get that feedback is perhaps a challenge.
    Mr. Correa. Mr. Chair, before I give up my time here, I 
just want to say it is good you are doing the RAND studies. I 
would rather you invest that money, not only in the RAND 
studies, but going out to ask the veterans directly what is it 
that they need.
    Mr. Chair, I yield.
    Mr. Banks. [Presiding.] Mr. Rutherford.
    Mr. Rutherford. Thank you, Mr. Chairman, and thank you, 
panel.
    Mr. Lyons, if you could, one of the most common complaints 
the Subcommittee receives from servicemembers about TAP is 
their local commanders and senior noncommissioned officers are 
somewhat less enthusiastic than they would hope in allowing 
them in working toward them attending the classes. If that is 
true, what portion of that do you think might be related to the 
fact that these senior members don't believe TAPs is providing 
what they really should provide and it is not, quote, ``worth 
the time''?
    Mr. Lyons. Thank you, Congressman. You know, I would offer 
that, in terms of servicemembers and their commander support 
for them to attend TAP, you know, I acknowledge the discussions 
that GAO had at the various post camps and stations that they 
visited where that was relayed, and we are taking that onboard. 
We want to explore and remove, if there are barriers to a 
servicemember attending TAP, we want to remove those barriers. 
We have very clear and effective policy to the services on 
implementing TAP and the importance of TAP and continuing to 
reinforce, as commanders go through their life cycle of 
professional military education, of reinforcing that message 
with them about the importance of TAP.
    It is interesting to note, in our last participant 
assessment, that 88 percent of our servicemembers that 
participated in TAP reported that their leaders, their most 
immediate leaders were supportive of their transition to 
civilian life, and that 88 percent of them reported that the 
leaders provided them time to attend and participate in TAP.
    Mr. Rutherford. Exactly, which is why they were there.
    Mr. Lyons. Correct.
    Mr. Rutherford. And why they were counted in your numbers.
    Mr. Lyons. Right.
    Mr. Rutherford. But it makes me then beg the question, why 
do you believe that missing data shouldn't be taken into 
account when assessing TAP performance? Because those folks 
aren't there for some reason, and don't you think we should get 
to the bottom of that?
    Mr. Lyons. Congressman, we do feel that it is important, as 
we assess data, that it is based on known and complete data. So 
we view that in the old legacy system that we had as a 
completed paper form for completion of TAP, and we can assess 
then whether that servicemember has met the requirements and is 
career-ready. With the deployment of our electronic form and 
our TAP IT Enterprise, we think that we have significantly 
improved our capability to collect that data and assess those 
data points.
    We are going to continue to pursue removal of any barriers 
to attendance at TAP and increase the perception of the value 
of TAP, and we are going work with our service partners to do 
that.
    Mr. Rutherford. And, Ms. Devlin, isn't there an effort 
under way now to go back and talk to some of those individuals 
that did not attend and find out why?
    Ms. Devlin. We are actually in the process of creating a 
post-transition survey that will go out to servicemembers who 
became veterans at the 6-month, 12-month, and 18-month point 
post discharge. That will give us an opportunity to ask them, 
did you attend TAP? If so, now that you are actually a civilian 
and you are a veteran, do you feel now that you know what you 
didn't know back then, that it met your needs? And if not, how 
could we improve it?
    Mr. Rutherford. Okay. Thank you, Mr. Chairman. I yield 
back.
    Mr. Banks. Thank you, Mr. Rutherford.
    At this point, we would like to thank each of you for being 
here today and answering our questions. You are now excused.
    Mr. Banks. Our second and final panel will include General 
Robert Bennett, the Adjutant General of the United States Army; 
Admiral Karl Thomas, director of the 21st Century Sailor Office 
of the Office of the Chief of Naval Operations for the United 
States Navy; General Kathleen Cook, director of Air Force 
Services, Manpower, Personnel, and Services for the United 
States Air Force; and General Kurt Stein, director of Marine 
and Family Programs for the United States Marine Corps.
    Thank you to each of you for being here today. We will give 
you a moment to get seated before we will start.
    With that, General Bennett, you are now recognized for 5 
minutes.

         STATEMENT OF BRIGADIER GENERAL ROBERT BENNETT

    General Bennett. Thank you.
    Chairman Arrington, Representative O'Rourke, Members of the 
Committee, I would like to thank and express my appreciation 
for the opportunity to appear before you to discuss the Army's 
Soldier for Life-Transition Assistance Program, or SFL-TAP.
    SFL-TAP is, first and foremost, a commander's program. SFL-
TAP mandates several courses based on the VOW Act, and also 
includes other required courses or career readiness standards, 
or CRS, that helps prepare soldiers for their transition from 
Active Duty.
    In fall of 2017, the Government Accountability Office, or 
GAO, provided a draft review of the transitioning veterans: DoD 
needs to improve performance reporting and monitoring for the 
Transition Assistance Program. Army concurs with all six 
recommendations found in the draft report.
    While the Army is proud of being a part of the myriad of 
major enhancements to TAP since the passing of the VOW Act, 
along with our DoD sister service and interagency partners, the 
Army believes that there is one important area in which TAP 
could and should continue to evolve. The Army would appreciate 
the ability to receive key post-transition outcome data from 
our interagency partners, which is vital to the future 
improvements.
    The Army strongly feels that receiving feedback from our 
interagency partners on both the type of assistance provided as 
well as the outcome and results of such assistance is critical 
to our ability to accurately gauge and assess the overall long-
term efficiency of our efforts. The Army will closely 
collaborate with our partners on developing a strategy to 
enable us to receive this key data in the future.
    In addition to DoD TAP's reporting system, the Army uses a 
TAP-XXI, which is the key Army system of record, in order to 
provide commanders at the lowest level information and reports 
to fulfill their responsibilities under SFL-TAP policy and law. 
TAP-XXI reporting consolidates key transition data from several 
Army HR systems of record, which allows company commanders to 
correctly identify soldiers required to complete the TAP 
curriculum. These reports help ensure the soldier is career-
ready and prepared for the civilian transition. The Army closed 
out fiscal year 2016 with the lowest amount of unemployment 
compensation for ex-servicemembers in 13 years, $172.8 million, 
according to the Department of Labor.
    Soldier for Life-TAP has several initiatives to further 
support soldiers in their transition, including a transition 
pilot program to evaluate tailored transition assistance for 
the soldiers, the career skills program, which offers soldiers 
the opportunity to participate in the employment skills 
training, and the virtual center, which is the only virtual 
online platform to complete transition services.
    To conclude, I thank you for your continued support. 
Chairman and Members of the Subcommittee, I thank you again for 
the opportunity to appear before you, and I look forward to 
your questions. Thank you.

    [The prepared statement of General Robert Bennett appears 
in the Appendix]

    Mr. Banks. Thank you.
    Admiral Thomas.

            STATEMENT OF REAR ADMIRAL KARL O. THOMAS

    Admiral Thomas. Good afternoon, Mr. Chairman, Ranking 
Member O'Rourke, and distinguished Members of the Subcommittee. 
Thank you for the opportunity to appear today to update you on 
the Navy's Transition Assistance Program.
    As the director of the Navy's 21st Century Sailor Office, I 
am responsible for sailor and family support and resilience 
programs. The Navy concurs with the recommendations of the 
General Accountability Office report on transitioning veterans. 
The Navy testified in 2015 that we were developing a transition 
information system to give commanders better visibility into 
compliance. We now have that system in place and have seen 
significant improvement in our metrics.
    We have put many other process improvements in place, to 
include unit level compliance reports linking transition 
compliance to our prestigious Golden Anchor retention award, 
adding transition compliance to our Navy Inspector General's 
checklist, and our Chief of Naval Operations Tone of the Force 
Report. Our network of Navy career counselors continue to 
stress that transition should be planned throughout a sailor's 
career to ensure sailors document skills, certifications, and 
qualifications, and thus, commence preparation early for their 
eventual transition.
    We remain committed to providing in-person instructor-led 
training as the primary means of delivery, and are working to 
drive earlier completion of transition requirements. We also 
have an ongoing Naval audit service study to assist us in our 
compliance efforts.
    Beyond preparing our sailors for employment and advising 
them on the veteran benefits that they have earned, we 
recognize the importance of returning sailors to society so 
they continue to serve our country as solid productive citizens 
who are examples and recruiters for our all-volunteer force.
    We recognize there is more to be done, and look forward to 
participating in further refining the transition process and 
cooperation with Congress and this Committee in particular, as 
well as our DoD and interagency partners. Our sailors deserve 
our steadfast commitment to provide them the most effective 
tools to position them for long-term success as they transition 
to serve our Nation as honored and distinguished veterans. It 
is vital to the all-volunteer force that our successful 
veterans encourage the youth use of our Nation to serve in our 
Nation's Armed Forces.
    On behalf of the Chief of Naval Operations, I thank you for 
your unwavering support for the men and the women of the United 
States Navy, and I look forward to your questions.

    [The prepared statement of General Karl Thomas appears in 
the Appendix]

    Mr. Banks. Thank you, Admiral.
    General Cook, you are recognized for 5 minutes.

        STATEMENT OF BRIGADIER GENERAL KATHLEEN A. COOK

    General Cook. Chairman Arrington, Ranking Member O'Rourke, 
distinguished Members of this Subcommittee, thank you for the 
opportunity to testify before you today regarding the 
transition assistance our Air Force provides to our total force 
airmen and their families.
    Before I begin, let me state up front, I fully acknowledge 
our VOW compliance is not 100 percent, and there is more work 
to be done refining our processes to ensure not only by-law 
compliance, but a strong continuum of care, especially within 
our Guard and Reserve components.
    We recognize how critically important being prepared to 
successfully transition out of the military is to the welfare 
of our airmen and their families. From senior Air Force 
leadership to our installation commanders, supervisors, and 
transition experts, we remain resolute in executing 
requirements of the VOW Act.
    What I would like you to take away from my testimony today 
is twofold. First, we value our collaborative partnerships with 
the Departments of Defense, our sister services, Veterans 
Affairs, Labor and Education, and the Small Business 
Administration, recognizing that successfully transitioning 
servicemembers requires the support and information of the 
collective.
    Second, my goal is to leave you with confidence in our 
commitment to generate a cultural shift to viewing transition 
preparation as a military life-cycle experience. It is 
important to note unique service characteristics that influence 
the development of our airmen and affect transition readiness. 
Based on our mission requirements, our airmen have more 
technical skills. Fifty-two percent of our NCOs and 92 percent 
of our senior NCO's have at least an associate's degree. We are 
the only service with a technical associate degree program, our 
Community College of the Air Force, which translates education, 
training, and experience into accredited college credits.
    Since 1972, nearly 500,000 degrees have been awarded. In 
fiscal year 2017 alone, the Community College of the Air Force 
awarded over 2 million semester hours of collegiate credit to 
over 268,000 students. The Air Force Military Tuition 
Assistance program totaled $154 million, and our Air Force 
certification program provided 397 unique and transferable 
certifications for career fields such as cyber systems 
operations and civil engineering.
    I reference this to illustrate that our airmen, generally 
speaking, have the opportunity to get a jump-start on 
transition. That said, deliberately embracing a culture of 
transition readiness throughout the military life cycle is 
consistent with and would strengthen our wingman culture.
    As we work to implement 2017 GAO recommendations, we are 
currently performing comprehensive upgrades to our TAP 
processes based on our challenges with VOW compliance. From 
providing exception to policies so our Guard and Reserve 
members complete pre-separation counseling only once every 5 
years or attend VA briefings once every 3 years, if activated 
under the same authority, to annual training sessions for all 
readiness NCOs, to working with DMDC to validate eligibility, 
data, and data-based accuracy, and seeking IT solutions to add 
a flag notification to the system, all the way to changing out 
processing checklists, messaging our Active Duty and Guard 
Reserve force support squadrons, briefing commanders for 
sergeants and chiefs at our professional military education 
leadership courses, and mandating airmen and family readiness 
center directors brief incoming commanders on VOW compliance 
within 30 days, or even adding text to airmen monthly leave and 
earning pay statements, to highlight TAP requirements.
    Our total force commanders are inspected for compliance, 
and we have updated our Air Force instruction to stress 
commander responsibility and accountability. And specifically 
to the Reserve component, should all this still result in 
someone missing the opportunity to complete TAP, Air Force 
Reserve Command is tracking every member and will bring them 
back on active status to complete the process. Across the 
board, we are focused on attaining 100 percent compliance.
    I just highlighted what we are doing today to fine tune the 
current process, but I am even more optimistic about the 
future. Given the synergy available to us when we proactively 
align our TAP military life cycle touch points with our blended 
retirement financial literacy training touch points, much like 
an individual development plan, financial planning requires 
continual evaluation. Merging the two programs touch point 
requirements over the course of one's career, however long or 
short, allows the member to take full advantage of the 
capabilities provided.
    General Goldfein, our Chief of Staff, is keenly focused on 
revitalizing squadrons. He believes squadrons are the heartbeat 
of the Air Force, and we succeed or fail in our mission based 
on that squadron experience. Translated, the well-being, 
resiliency, and readiness of our airmen and their families is 
directly tied to the squadron and its leadership. Successfully 
transitioning our airmen also depends on the informed and 
engaged leadership.
    In my opinion, there are two overarching components to 
improving VOW compliance. First, ensuring all airmen are fully 
educated on the requirement for TAP, and second, ensuring 
commanders understand their critical role, and that they are 
held accountable for their airmen being transition-ready.
    Mr. Chairman, I thank you for the opportunity to testify 
today, and I look forward to answering your questions.

    [The prepared statement of General Kathleen Cook appears in 
the Appendix]

    Mr. Banks. Thank you.
    And finally, General Stein, you are recognized for 5 
minutes.

          STATEMENT OF BRIGADIER GENERAL KURT W. STEIN

    General Stein. Mr. Chairman, Ranking Member O'Rourke, and 
distinguished Members of the Subcommittee, it is my privilege 
to appear before you today to discuss the transition readiness 
of your Marines.
    Marines are the foundation of our Corps. They are the 
Corps' most critical resource, and they always will be. Most of 
your Marines, by design, are young fighters who plan to 
separate after one or two tours. Everything we do in the Marine 
Corps must contribute to their readiness, including their 
transition readiness.
    To this end, our transition readiness program begins very 
early in a Marine's career. Our framework, the Marine for Life 
Cycle, includes several major action points beginning right 
after boot camp and completing within months before separation 
with the capstone event. In this way, our Marines are learning 
and thinking early and often about their eventual transition to 
civilian life.
    Our transition readiness program has evolved significantly 
over time, and we continuously seek ways to improve it. We 
recently implemented the DoD TAP e-Form Enterprise database, 
and believe that it will help us better capture and manage our 
transition data and increase compliance. We are also 
incorporating transition readiness into our inspector general 
evaluation programs, which we believe will help increase 
timeliness.
    The draft GAO report identified some gaps in our current 
program, especially in regard to VOW compliance and timeliness, 
and particularly within the Reserves. We appreciate their 
findings and recommendations and believe they will help us 
further improve our programs.
    An overarching theme for the Marine Corps as an institution 
has always been that we make Marines, we win battles, and we 
return those Marines back to civilian capacity as better 
citizens.
    I look forward to answering your questions. Thank you.

    [The prepared statement of General Kurt Stein appears in 
the Appendix]

    Mr. Banks. Thank you to each of you.
    With that, I will reserve the 5 minutes of time, if I can, 
for the Chairman when he returns, and will yield to my friend 
and Ranking Member O'Rourke for his 5 minutes.
    Mr. O'Rourke. Thank you.
    I will start with General Bennett. I am trying to figure 
out the best way to phrase this question, but I am trying to 
get from fulfilling a PE credit before you graduate or checking 
a box, or I have heard the phrase ``compliance'' come up very 
often, to getting to the spirit of the VOW Act and what we want 
to do for those transitioning servicemembers. And I wonder if 
the onus is not on us in Congress to improve that legislation 
to explicitly define success measurements that we have been 
looking for on this Committee.
    If you are fulfilling the requirement to get that soldier 
in the seat and, hopefully, to do a better job of having that 
happen before they hit the 90-day mark, and perhaps encouraging 
more of them to take the 2-day supplemental course so that they 
are better prepared for that transition, you may have fulfilled 
the requirements of the VOW Act and you are in compliance.
    I don't know if this is for me to ask you and for you to 
answer, but can you suggest ways that we can improve the 
legislation to get at what, hopefully, we have been able to 
articulate in terms of measurable outcomes that show us whether 
or not this is a value beyond the compliance?
    General Bennett. Yes, sir. We invest the Army vast amounts 
of resources, $80 million a year, to take care of our soldiers. 
And my personal goal is I do not want to have a battle of warm 
handover to a Department of Labor-VA. I want to take care of 
the Army family here within the Army. And I agree in the 
discussion earlier. We discussed about outputs as it relates to 
career readiness standards. We are doing pretty good in outputs 
and measuring did they get the job done. Yes, we need to work 
on timeliness, and that is the next stage of getting after 
ensuring the soldiers are properly taken care of at the 
appropriate time.
    But the outcomes, did they get a job, that is where we do 
need some help, because I see them from the time they receive a 
214, but I don't know what happens after that soldier departs 
my organization. And I need to know, the Army needs to know, so 
that then I can, if need be, with that feedback, I can adjust 
my program so that it is a better program for the soldiers that 
are following those after their departure so we can get it 
right.
    So where I could use some help from the Army is a warm 
handover follow-up from the Department of Labor and VA, data 
from the Department of Labor and VA on success of transitioning 
soldiers after they leave Soldier for Life-TAP, and then the 
flexibility to tailor Soldier for Life-TAP to the needs of the 
individual soldier; i.e., a 20-year soldier who is getting 
ready to retire, probably you want to tailor the program 
differently from someone who is in the service for 4 years and 
getting ready to depart. It is usually an 18- to 24-year old. 
Some of them are probably high risk when it means to 
unemployment. From the Army's perspective, that was where I 
would ask for your help.
    Mr. O'Rourke. Yes. And I really liked the way General 
Denton on the previous panel put it in terms of one of the 
goals being to see military service as the best possible path 
to a high-quality career afterwards.
    If that is the goal, which I can't argue with, we need to 
measure that. So how much are you earning? How fulfilled are 
you in the work or career that you have following military 
service? Got to be way to do that, but again, maybe that is on 
us to legislate that, require that, not on you to add more 
compliance measures that Congress hasn't mandated.
    Mr. Chairman, I see some of our friends in the audience who 
have been here for conversations about the post-9/11 GI Bill, 
and I feel like we have had a very similar conversation where 
we are measuring seats in chairs and attendance and graduation, 
but not the success that those veterans have in their careers 
or, you know, in their life. And that really has to be, I 
think, the measure that we are able to describe and define, and 
then I think everyone is going to see more value in the 
program.
    Those commanders right now who are grudgingly allowing 
their servicemembers to attend the classes are trying to get 
them out of it by asking for an online course. We are going to 
see more servicemembers availing themselves of the 2-day 
supplemental course. We are going to be better stewards of the 
taxpayer dollar. I wonder if this Committee can't work on--just 
a thought--what some of those additional measures are, and 
maybe amend the legislation to include those going forward and 
give these service branches something to perform to.
    So that is just a suggestion to work on going forward, and 
I will yield back to you.
    Thank you for your answers, General Bennett.
    Mr. Arrington. [Presiding.] Thank you, Mr. Ranking Member, 
and I agree with you, I think--if I may yield myself 5 minutes, 
and I apologize for having to step out. And I won't take all 5 
minutes, Mr. Rutherford. I will option the ball to you here.
    But to me, that is the heart of my concerns and the crux of 
the matter on programs like this and any other program that, 
you know, philosophically and in theory is an excellent 
objective. But in practice, we don't know if it is working, and 
we don't know how to make the changes to make it better, until 
we are constantly measuring not just the input or output, the 
outcomes. So, you know, really that is about the sum of my 
thoughts and comments, and I agree with the Ranking Member.
    I heard a couple of the panelists prior to you guys talk 
about doing a survey or trying to come up with some instrument 
to do what we are talking about. I think--I think we need to 
get a group together, and it should be driven by the 
stakeholders. You guys ought to know what your customers need, 
want, and what are the right questions to get at whether this 
is working. And we ought to have you guys present that to us. 
We can be involved in some way. We ought to do it in short 
order, because I understood a couple of the folks--I can't 
remember who it was--were already working on this.
    The other thing that concerns me, is when you have too many 
agencies, too many hands involved, I worry that it gets 
convoluted and more complicated. And if too many people are 
responsible, nobody is responsible sort of thing.
    So--and I recognize you have different agency jurisdiction 
and all that, but, you know, if there was a way to consolidate 
the contract, for example, or--I don't know the answer, but I 
would like your feedback on having too many cooks in the 
kitchen on this and that making things more complicated.
    And then the other piece is just making sure it is a 
priority at DoD, because it does not sound like it is a 
priority when they are not measuring. This was a point the 
Ranking Member made in the last panel. If you are not measuring 
outcomes and if you are not actually making sure that everybody 
is complying with that 90-day prior to the 90-day law, then 
that just tells me that something is broken at DoD in terms of 
ensuring it is being done.
    And is this a priority in the Department of Defense? Do you 
think it is? I know you guys are responsible within the 
bureaucracy of the Pentagon. Tell me, do you think it is a 
priority? Do you think the DoD believes it is a priority?
    I will just go down the line. I mean, do you really think 
it is a priority for them?
    General Bennett. Sir, absolutely. I wholeheartedly agree in 
that we teach this, we preach this at the first sergeant 
course, the commander's course, at the pre-command course for 
our battalion and brigade commanders. It is a requirement. And 
it is funny that you mention about consolidating contracts. We 
are looking at that in the Army right now. I have seven 
different contracts within my TAP. I am trying to have one 
bellybutton, that is what we are working on right now, and we 
are trying to get there, and we are actually on our third 
meeting right now.
    But, sir, totally agree with you. And I know dealing with 
the governors committee, they are onboard as well, but this 
will help in getting one step further where we need to be.
    Mr. Arrington. Thank you.
    Other comments?
    Admiral Thomas. Mr. Chairman, I would also agree that is a 
priority in the Navy. We have really taken onboard the military 
life-cycle concept where we bring in the concept of 
transitioning early on in the career development boards. We 
train up our career counselors so that they can start talking 
and preparing our sailors early. And we really have taken 
onboard the idea of getting credentialing and trying to give 
sailors items that will translate to the civil sector.
    I like Representative Rutherford's comments that the 
measure of, you know, having that letter that says you are 
accepted to a college, that is fairly easy, and I have seen it 
myself when I have been in command. The job one is a little bit 
more challenging in ensuring that person has that job offer 
before they leave. But if we can get to that point, that is a 
great measure of success.
    Mr. Arrington. Let me just assume everybody thinks it is a 
good deal. Let's demonstrate that you believe that to the 
taxpayers are paying $500 million for these programs because 
they love their men and women in service, and our veterans as 
you do, as well, and I know you do. Let's demonstrate it by 
coming back with a plan to consolidate things for 
accountability and clarity in terms of roles, and make it less 
complicated and convoluted. And let's come back with a plan on 
how to measure the outcomes. And let's apply that across the 
board, and let's find out if it is working and how we need to 
improve it. Because everybody fundamentally knows this is a 
good thing. And so let's put our money where our mouth is and 
let's go invest the time and resources to get this thing done.
    You guys can tell us--and I don't want to pass a law if we 
don't have to pass a law. Sometimes, you know--my last--my 
first bill made it through the House floor, and I was honored 
to do this legislative reform with my colleague from Texas and 
friend, but I have to say, you know, moving this disabled 
home--I mean, home adaptation for disabled veterans from one 
part of the VA bureaucracy to another where they actually have 
the core competency, where this group didn't--I mean, it is 
actually called specially adapted housing over here. Over here 
it is about vocational rehab. And, I mean, I am having to tell 
my newspaper, look, I am just going to be honest with you. This 
should be done without Congress having to act.
    Will it help the veteran? Yes. Will it help the disabled 
community? Yes. Will it save taxpayer money? I believe it will. 
But my goodness, please help us help our veterans and come up 
with these ideas and make presentations. And then if you need 
the law to change, I guarantee you, you will have the support 
of this Committee.
    I have gone way over my time.
    Mr. Takano, I yield the balance of my 10 minutes that I 
took. I recognize you for 5 minutes.
    Mr. Takano. Now you are overstating things here. Thank you, 
Mr. Chairman.
    Let me say that I was very pleased to hear from the Office 
of the Under Secretary, the director, Mr. Lyons, indicate that 
the military was interested in engaging with the servicemember 
much earlier in the servicemember's life cycle. But my sense 
was, was that even though the military is engaging the 
servicemembers in establishing career and educational goals 
early, and counseling, that there really wasn't assessment 
happening and determining whether that servicemember had all 
the skills and knowledge, or whether there was any need to 
remediate their skills so that servicemembers are ready before 
they leave.
    So let me just state what I believe simply ought to be 
happening. What ought to be happening is that on day one of 
their induction in the military, there should be an assessment 
of the servicemember and a determination, initially, of what 
their goals are career-wise and education-wise, knowing that 
that 18-year-old is not necessarily going to exactly know who 
they are at that moment, and we can expect those goals to 
change. But we should at least know whether or not that 
servicemember needs to be doing some work to improve their math 
skills, their communication skills, their English skills. And I 
believe the military should be holding them accountable for 
that, because they were recruited on the basis of GI Bill 
benefits. And the taxpayer has an interest in making sure that 
those benefits aren't wasted, that they are not squandered, 
that they are not put into debt after they spend down those 
benefits and so forth and so on.
    I would like to see also, is there a sense--given that 
context I have laid out to you, I believe it is in the best 
interest of our country that we see a strategic use of tuition 
assistance while they are in the military for those young 
people to be acquiring whatever remediation they need and/or 
gaining course credit so that they can transfer into a degree 
program rather seamlessly.
    Can you give me some background idea of how well you think 
tuition assistance is being used in each branch, each of the 
branches of the military, how well your--you know, how well 
spent is that tuition assistance money, and how well do you 
help our servicemembers use that opportunity?
    General Bennett. Tuition assistance is one of the many 
areas that I do own, and it is quite popular with the senior 
leaders of the Army, and we are finding many different ways of 
getting after ensuring from a strategic message that--
    Mr. Takano. You said the senior leaders, the senior leaders 
of the--
    General Bennett. Of the Army, sir.
    Mr. Takano. Yes.
    General Bennett. Yes, sir. I mean, this has special 
attention of the Sergeant Major of the Army, who is getting 
after tuition assistance and getting after credentialing with 
the soldiers, the career skills program. All this is 
encompassing under, maybe not the tuition assistance pot of 
money, but we are getting after ensuring that, you are correct, 
sir, way before the transitioning process starts from the 
active Army, that they are educated and they are prepared for 
the civilian sector.
    So it is quite popular, and I am actually going for the POM 
cycle requesting for additional money for next year, and it is 
getting bigger and better and growing steam as it relates to 
the soldiers acquiring tuition assistance.
    Mr. Takano. Thank you. Thank you.
    Anyone else care to comment?
    Admiral Thomas. Yes, sir. We had 46,000 sailors in 2016 use 
the tuition assistance program and take over 131,000 classes, 
and we bring instructors out to our ships so they can take them 
even when they are deployed. So it is a very popular program 
and utilized by many of our sailors.
    Mr. Takano. And is it used by not just the senior officers?
    Admiral Thomas. It actually tends to be used more by the 
junior people.
    Mr. Takano. More by junior. Yes, great. Thanks.
    General Cook. Sir, thank you. I would like to also mention 
that as I mentioned in my opening remarks, tuition assistance 
for the Air Force is extremely important. In fiscal year 2017, 
we expended $154 million in tuition assistance leading to the 
percentages of 52 percent of our NCOs and 92 percent of our 
senior NCOs obtaining at least a 2-year degree. So we begin to 
discuss this path forward with our young enlisted at about the 
4- to 6- to 8-year mark after they have finished their 
technical skill training. So from day one, we are having a 
conversation with them.
    And if I could, I would also like to address your earlier 
question about assessing individuals.
    Mr. Takano. Oh, thank you.
    General Cook. Yes, sir. So for the Air Force specifically, 
and I know for the other services there is an entry exam that 
indicates where they are successful, efficient, and then 
deficient as well. So the initial exam, we take a look at and 
then it is followed through with our basic training. We have 
constant assessment through basic training, followed through 
our technical skills, and all along the way, if there is 
remedial work required, we will ensure that they reach that. 
And then after all of the technical training, once they get to 
their first base location in our, what we call First-Term 
Airmen's program, we also have conversations about the 
financial, educational programs available to them. So we get 
them from the very beginning and consistently through.
    And in my opening remarks, as I mentioned, with the 
military life cycle of combining the touch points for our 
financial literacy, as well as our TAP programs, this creates 
touch points consistently throughout in the high points of an 
airmen's career. Career change, promotion, family, childbirth, 
et cetera. So we absolutely believe that education is 
important, and we are hitting it from beginning to end.
    Mr. Takano. Might I continue with the question, Mr. 
Chairman?
    Mr. Arrington. Sure.
    Mr. Takano. So you are talking about from the lowest rank 
of airmen all the way up, this is a--what you apply the 
assessments.
    General Cook. Yes, sir. So for our enlisted, they will come 
in and they get their test at the beginning and they go to 
technical school, and then we push them toward our Community 
College of the Air Force beginning about their 4-year mark. For 
our officers, obviously, they come in with a degree in order to 
become an officer, so they are already assessed at a certain 
level.
    And then what I would also like to offer is, even in our 
feedbacks, which happen when you report to a unit that first 
feedback, the initial, we discuss the financial and educational 
assessments. Then 6 months later, it is in our feedback. And in 
our annual assessment, we also have those conversations for 
both enlisted and officers.
    Mr. Takano. Mr. Chairman, could the Marines answer the same 
question?
    Mr. Arrington. Yes.
    General Stein. Yes, Congressman, we have the same model 
that the Air Force has, specifically as far as assessing the 
individual Marine prior to assessing the tuition assistance 
program. Our TA program is really focused and geared towards 
the junior enlisted Marines with a high school diploma 
basically. And when they--prior to being given the tuition 
assistance dollars, they take an assessment, a test, to 
identify any deficiencies academically in any certain vertical 
of academia, whether it is mathematics or whatever, and then 
they are given remedial education in that space prior to going 
on and spending taxpayer dollars, Marine Corps dollars for 
tuition assistance for undergraduate credits under a 
credentialed institution.
    Mr. Takano. Well, I certainly learned something new, and I 
want to know more about what you are doing.
    Mr. Chairman, I yield back.
    Mr. Arrington. Thank you, Mr. Takano.
    Mr. Rutherford, I recognize you for 5 minutes.
    Mr. Rutherford. Thank you, Mr. Chairman. And thank you, 
panel, for your lengthy testimony and for your service to our 
country.
    You know, there is an old adage, don't beat a dead horse, 
but after we say that, we always beat a dead horse, so that is 
what I want to do very briefly. So I will keep this short.
    There was something very interesting that General Stein and 
General Bennett mentioned.
    General Bennett, you talked about TAP-XXI and how in that 
follow-up, one of the matrices that you actually looked at was 
low unemployment payouts. I thought that is incredible. It 
makes me beg the question, what other matrixes do you have that 
you are looking at? And then General Stein mentioned that they 
have similar assessments with the Air Force, and makes me 
wonder, do you also have similar outcome matrices for all four 
services? General?
    General Bennett. So, yes. As I alluded to earlier, we do 
measure, and I know unemployment compensation will change every 
year, but that is one of our biggest measurement that we use 
right now. And again, we are below the $200 million mark first 
time in 13 years, 172.8, and that you will see--
    Mr. Rutherford. That is excellent. Yes.
    General Bennett. Yes, sir. And you will see that, this 
year, once the report comes out, I think we do even better. At 
the end of third quarter, fiscal year 2017, we are at $101 
million. So I think we are on the mark.
    What I am finding out within the Reserve component, if we 
want to delineate between the components, Reserve--when I say 
Reserve, that is National Guard and the Army Reserve that is 12 
percent. Twelve percent is the unemployment compensation rate. 
And for regular Army Active Duty, 34 percent. So we are on the 
road to improvement, but again, where I could use the help, as 
you alluded to, sir, on measurements, that is, once a soldier 
departs the Active Duty, the outcome piece, did they get a job? 
That is what I need to know to better piece is my program doing 
what it is supposed to do?
    Mr. Rutherford. Right. And so the other--the other 
branches, can you comment? Do you have such a matrices as that 
or no?
    Admiral Thomas. Sir, the Navy does have unemployment 
numbers as well, and we are down at the lowest that we have 
been since 2011. We are at 67 million. So the right trajectory.
    Mr. Rutherford. Very good.
    General Cook. So I am certain the Air Force does have the 
numbers, but I don't have them with me, so I would be happy to 
get those back to you.
    Mr. Rutherford. General?
    General Stein. Yes, sir. We know that our trend line is 
decreasing in the unemployment numbers. I don't have the 
specific data, though, before me, but I can get back to you on 
that.
    Mr. Rutherford. What other matrices do you have on the 
outcomes, besides unemployment? Is there actually a list? Does 
anybody share outcomes or--
    General Stein. Admiral Thomas and I, you know, being with 
the Department of the Navy, there is a lot of programs that he 
and I work together on, suicide prevention, sexual assault, 
behavioral health issues, things like that. So the being able 
to track them and, you know, finding metrics is kind of 
difficult.
    So in this scenario, a measurement of performance would be 
how many people do we get into the classroom for the transition 
readiness seminar and complete the capstone event with a 
counselor? But the measurement of effectiveness is the second 
part of the story that, once they separate from the service, we 
really don't have situational awareness on them. Even their 
willingness to sign up with the VA during separation is 
optional. So it is a tough--it is a tough landscape to be able 
to actually get measurements of effectiveness on, well, how did 
that translate into how well you did academically, how well you 
did as a young entrepreneur in that space, the Boots to 
Business program, for example.
    We do know there are certain programs that we have, like 
the Skill Bridge program, which is a great new story for all of 
the services, where there is one partner that we work with that 
has a 94 percent placement after they are done with the 
program, and they still do that while they are on Active-duty. 
And that is a command--the commanders allow them to participate 
in that program without it negatively affecting the operational 
readiness of the unit.
    Mr. Rutherford. Right. We have a community-based program in 
northeast Florida, Operation New Uniform, which we are now 
going to try to replicate across the country, which has a 
tremendous placement rate after graduation from their program. 
And so I thank all of you.
    And I think, Mr. Chairman that may be an area that we can 
actually assist through some of the interagency relationships 
to try to get some of that information available for you for 
those evaluations of effectiveness, which we currently lack.
    Thank you. And I yield back, Mr. Chair.
    Mr. Arrington. Thank you, Mr. Rutherford.
    And we will just conclude with one question for each 
service represented on the panel.
    Sir, what would the one thing you would do, if you were 
king of this program and in control of the program from start 
to finish, what is the one thing you would do to make it work 
better for our veterans?
    General Bennett. We alluded to this many times, sir, Mr. 
Rutherford, you just talked about it, the outcome piece, once 
they depart.
    Mr. Arrington. Okay. Sir?
    Admiral Thomas. I would agree, and I think that we are 
doing a great job of bringing folks, hiring fairs, bringing 
those outreach. There is a sea of goodwill out there that 
people want to help us, and getting them to the bases to have 
those fairs be fruitful and getting the word out. I think the 
American public wants to hire veterans, which is a good thing. 
The landscape is rich. We just have to take advantage of it.
    Mr. Arrington. And I think the question is--I agree, I 
think people want to hire veterans. The question is, how does 
this program help them achieve that? Because you have got the 
demand side, and as we supply the material of folks 
transitioning from active to civilian, are we better preparing 
them to make that a higher achievement, a higher rate of 
achievement?
    I will just keep going. One thing, one thing.
    General Cook. I believe continued partnership with the 
inter-agencies as we try to more accurately define, for 
example, certifications. And Department of Labor is doing some 
excellent work in defining for us what are the key 
certifications that a member would need to get a job in cyber 
or get a job in civil engineering, because there are so many 
certifications out there. So we find great value in the 
partnerships with our inter-agencies.
    Mr. Arrington. Sir?
    General Stein. Yes. Mr. Chairman, I concur with my fellow 
panel Members here. I think it is connecting the dots and 
having a conduit with the audience. The demand signal is there. 
They want to hire veterans. A lot of times they don't know what 
door to open up. They don't know how to access in the process 
and the line of effort, if you will, to make that happen and 
make it a more mature program, if you will, as connecting the 
dots with the interagency, with the VSOs, with all the 
partnerships and, for example, the Marine Corps League in my 
case, the VFW, the Chamber of Commerce, all those entities that 
are out there. The demand signal is high. They want to help. It 
is just a matter of us cracking the code on how to allow those 
conduits to open up.
    Mr. Arrington. Thank you guys for your time. Thank you for 
your service to our country and for your help in this process 
to improve this important program.
    What I would like to do, Mr. Rutherford, is ask, in 
relatively short order, Ms. Devlin, are you still here?
    I would like Ms. Devlin from the VA, and I know there are 
lots of components to this, but to get the stakeholders 
together from that interagency working group, that mean 
somebody from VA, somebody from Labor, somebody from DoD, and I 
want these folks here on the panel that are front line with 
this program and the customers of the program to be a part of 
that. And I would like for you guys to come back by the end of 
the year and define what success is. That is, what are the 
desired outcomes. Real clear. What are the success metrics? How 
do we measure that we are achieving those desired outcomes? And 
then lastly, any other recommendations for operational 
efficiency like Mr. Bennett said about taking--consolidating 
seven contracts into one. Other ways recommendations to make 
this program run more effectively, efficiently, and with 
greater accountability.
    That is for the next close to 60 days the charge that I 
give you on behalf of this Committee, because I think you guys 
have the answers. And then if we can help through law writing, 
we will do that. If we don't need that, then let's just fix the 
problem and do right by our veterans and our taxpayers. God 
bless you guys.
    I now ask unanimous consent that all Members have 5 
legislative days to revise and extend their remarks and include 
extraneous material. Without objection, so ordered.
    We are adjourned.

    [Whereupon, at 3:54 p.m., the Subcommittee was adjourned.]



 
                            A P P E N D I X

                              ----------                              

              Prepared Statement of Cindy S. Brown Barnes
                         TRANSITIONING VETERANS
 Improvements Needed in DOD's Performance Reporting and Monitoring of 
                   the Transition Assistance Program
    Chairman Arrington, Ranking Member O'Rourke, and Members of the 
Subcommittee:

    I am pleased to be here to discuss the report we are issuing today 
on the Transition Assistance Program (TAP). Over the past several 
years, hundreds of thousands of servicemembers have left the military 
with nearly as many more soon to follow. Some of these new veterans may 
face significant challenges as they transition to civilian life, such 
as finding and maintaining employment. To help them, the VOW to Hire 
Heroes Act of 2011 (VOW Act) mandates the Department of Defense (DOD) 
to require that all eligible separating servicemembers participate in 
TAP to receive counseling, employment assistance, and information on 
federal veteran benefits, among other supports. \1\ Concurrently with 
implementing the VOW Act, an interagency task force led a redesign of 
TAP which, among other things, (1) developed a new, standardized TAP 
curriculum, (2) established an interagency governance structure, and 
(3) established Career Readiness Standards (CRS) and associated tasks 
to demonstrate servicemembers' readiness for civilian life.
---------------------------------------------------------------------------
    \1\ VOW to Hire Heroes Act of 2011, Pub. L. No. 112-56, Title II, 
125 Stat. 711, 713-733.
---------------------------------------------------------------------------
    My statement summarizes the findings from the report we issued 
today, which addresses: (1) the extent to which DOD is transparent in 
its public performance reporting, (2) how many servicemembers 
participated in TAP and what factors affected participation, (3) how 
many servicemembers met CRS or received referrals to partner agencies 
for additional services, and (4) the extent to which DOD monitors key 
areas of TAP implementation and how well TAP's performance measures 
inform these monitoring efforts. \2\ In summary, we found:
---------------------------------------------------------------------------
    \2\ GAO, Transitioning Veterans: DOD Needs to Improve Performance 
Reporting and Monitoring for the Transition Assistance Program.GAO 18 
23 (Washington, D.C.: Nov. 8, 2017).With respect to DOD's public 
reporting on TAP performance, DOD is required by federal law to prepare 
(1) strategic plans with long-term, outcome-oriented agency priority 
goals and objectives, (2) annual performance plans with goals linked to 
achieving the long-term priority goals in the strategic plan and 
indicators to measure performance against the goals, and (3) annual 
reports on the results achieved toward the goals in the performance 
plan. In fiscal year 2014, DOD named one of its six agency priority 
goals the Transition to Veterans. Since that time, DOD has monitored 
TAP performance indicators and reported them in each of its annual 
performance plans. These requirements stem from the Government 
Performance and Results Act of 1993 (GPRA) which was significantly 
enhanced by the GPRA Modernization Act of 2010 (GPRAMA).

    <bullet>  DOD lacked data on nearly half of National Guard and 
Reserve Members and its public reporting may have misstated TAP 
performance;
    <bullet>  At least 85 percent of servicemembers participated in 
required courses but not always on time, and several factors were 
reported to affect participation;
    <bullet>  While most servicemembers were deemed career ready or 
referred for additional services, just over half may not have completed 
this process on time; and
    <bullet>  While DOD monitors many areas of TAP implementation, it 
does not monitor several important requirements.

    We made six recommendations. DOD agreed with three of our 
recommendations, partially agreed to two others, and did not agree with 
our recommendation on access to additional 2-day classes. GAO believes 
this recommendation is still valid as discussed in the report.
    For our report, we surveyed 181 DOD installations that conduct TAP 
full time and achieved a 100 percent response rate; analyzed DOD 
participation data for fiscal year 2016; reviewed TAP data reports and 
performance measures; interviewed officials from DOD and its partner 
agencies; and reviewed relevant federal laws, regulations, and 
policies. We also visited 7 installations (2 each for the Army, Navy, 
Air Force, and 1 for the Marine Corps) from July through December, 
2016. We found DOD data on TAP participation and CRS attainment to be 
reliable for regular active duty servicemembers, but not for National 
Guard and Reserve members due to the high percentage of missing data. 
\3\ A more detailed explanation of our methodology is available in our 
November 2017 report. The work upon which this statement is based was 
conducted in accordance with generally accepted government auditing 
standards.
---------------------------------------------------------------------------
    \3\ In GAO 18 23 and the referenced analysis, we included the 
number and percentage of National Guard and Reserve members DOD 
reported to have participated in TAP to illustrate the extent to which 
DOD is missing data for this population, but we excluded these 
populations from our participant-level analyses. Consequently, the 
scope of this testimony is generally relevant to active-duty 
servicemembers who are not members of the National Guard and Reserve, 
unless otherwise noted.

DOD Lacked Data on Nearly Half of National Guard and Reserve Members 
    and Its Public Reporting May Have Misstated TAP Performance, 
---------------------------------------------------------------------------
    Particularly for the National Guard and Reserve

    DOD lacked TAP data for 48 percent of eligible National Guard and 
Reserve members and 12 percent of servicemembers who were not members 
of the National Guard and Reserve, based upon our analysis of DOD data 
for fiscal year 2016. According to DOD officials, DOD launched the TAP-
IT Enterprise System in November 2016 to standardize data collection 
across the Services and improve data completeness and accuracy. DOD 
officials anticipate the system's reporting capabilities will be fully 
operational by October 2018.
    In fiscal year 2016, DOD's public reporting on the four performance 
measures under its Transition to Veterans agency priority goal may have 
misstated the extent to which underlying TAP requirements were met for 
National Guard and Reserve members and all other TAP- eligible 
servicemembers. \4\ According to federal internal control standards, 
management should use quality information to achieve the entity's 
objectives and to communicate quality information to external parties. 
\5\ However, DOD's public reporting of TAP's performance did not 
disclose that the method it used to calculate the measures excluded the 
percent of TAP-eligible servicemembers for whom it was missing data. 
For example, DOD publicly reported that 94 percent of National Guard 
and Reserve members attended pre-separation counseling and the three 
required courses of TAP's core curriculum (mandatory elements). Had the 
reported measure included all TAP-eligible members of the National 
Guard and Reserve for whom data were missing, the percentage might have 
been substantially lower-possibly as low as 47 percent-and DOD might 
not have met its performance goal of 85 percent. \6\ Similarly, DOD 
publicly reported that nearly 97 percent of active duty servicemembers 
attended the mandatory elements of TAP. However, had that measure 
included all TAP-eligible active duty servicemembers, the percentage 
may have been as low as about 87 percent. \7\ In contrast, DOD's 
internal reports to monitor TAP performance are more complete and 
transparent than its public reports since the internal reports include 
data for the entire TAP-eligible population and also quantify the 
extent of missing data (see fig. 1).
---------------------------------------------------------------------------
    \4\ Though federal law mandates that DOD require eligible 
servicemembers to participate in TAP, with some exceptions, DOD set 
performance goals below 100 percent participation among the population 
of servicemembers required to participate. 10 U.S.C. <l-arrow> 1144(c). 
DOD officials told us they assess performance goals each year and 
establish attainable but challenging performance goals.
    \5\ GAO, Standards for Internal Control in the Federal Government, 
GAO 14 704G (Washington, D.C.: Sept. 2014).
    \6\ The exact participation rate cannot be determined due to 
missing data. If none of the members of the National Guard and Reserve 
for whom data were missing completed TAP, the participation rate would 
be 47 percent. If the participation of members of the National Guard 
and Reserve with missing data mirrored the rate for members with 
available data, the rate would be 94 percent. If every member of the 
National Guard and Reserve with missing data completed TAP, the actual 
rate would be even higher-97 percent.
    \7\ The exact rate cannot be determined due to missing data.
    
    
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    (a) Attended (a) pre-separation counseling, (b) a Department of 
Labor Employment Workshop, and (c) Veterans Affairs Benefits Briefings 
prior to separation. In its internal reports, DOD refers to this as 
    ``VOW Compliance.''(b) DOD's definition notes that the calculation 
is in accordance with statutory requirements that allowed exemptions 
determined by the Secretary of Defense in consultation with Department 
of Homeland Security, Department of Veterans' Affairs, and Department 
of Labor.
    (c) DOD's internal reports present rates of VOW compliance and CRS 
attainment separately for members of the National Guard and Reserve. To 
make it easier to compare DOD's two methods for calculating performance 
outcomes, GAO used DOD's reported numbers and methodology to calculate 
a combined measure that includes members of both the National Guard and 
Reserve.
    (d) Actual participation rates may have differed from what 
available records show because DOD lacked participation data for 12 
percent of eligible servicemembers and 48 percent of eligible members 
of the National Guard and Reserve. If the proportion of servicemembers 
or members of the National Guard or Reserve for whom data were missing 
completed TAP at the same rate as those for whom data were available, 
the percentage reported internally would likely parallel the percentage 
publicly reported. DOD officials said it is not accurate to calculate 
participation rates for servicemembers for whom data were missing 
because it is unknown whether those servicemembers met the performance 
criteria. However, we report this number to illustrate the discrepancy 
between what is known about performance for the entire TAP-eligible 
population and what DOD publicly reported.
    (e) This rate differs slightly from the rate GAO calculated using 
the participant level data provided by DOD, as shown in figure 1. DOD 
officials explained that GAO's calculation differs from the published 
rates because additional data were entered after the official 
performance measure calculation was completed.

    We recommended that the Secretary of Defense publicly report DOD's 
performance regarding participation and CRS attainment for all TAP-
eligible servicemembers and members of the National Guard and Reserve 
rather than exclude those for whom data are missing, or DOD should 
clarify the extent of missing data. DOD partially concurred with this 
recommendation, saying that compliance should be computed based only on 
known data, but said that in fiscal year 2018 all reports will describe 
the extent of missing data and DOD will continue working to reduce the 
extent of missing data.

At Least 85 Percent of Servicemembers Participated in Required Courses 
    but Not Always on Time, and Several Factors Were Reported to Affect 
    Participation

    At least 85 percent of servicemembers participated in TAP's 
required courses-the Employment Workshop and VA Benefits I and II-
according to our analysis of DOD data for fiscal year 2016 (see fig. 
2).


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Note: The participation rate is a measure of all servicemembers who 
met the following requirements: 1) either completed the employment 
workshop or were exempt from the requirement to participate in that 
course, and 2) completed VA Benefits I and II courses. Thus, our 
participation rate differs slightly from DOD's VOW compliance rate, 
which also included mandatory pre-separation counseling. Because GAO 
determined participation data were reliable for servicemembers but not 
for National Guard and Reserve members, this figure does not include 
the latter. Actual participation rates may have differed from what 
available records show because DOD lacked participation data for 12 
percent of eligible servicemembers. Percentages are rounded to the 
nearest whole number.

    Therefore, DOD achieved its 85 percent performance goal for 
servicemember participation in mandatory portions of TAP. \8\ However, 
fewer than 15 percent of servicemembers participated in one or more of 
TAP's additional 2-day classes, which DOD does not consider mandatory 
unless the servicemember needs to attend to meet CRS. Those who 
participated in these additional 2-day classes primarily participated 
in the one on Accessing Higher Education.
---------------------------------------------------------------------------
    \8\ More specifically, this performance goal's underlying 
performance indicator measures all servicemembers who met all three of 
the following requirements: 1) participated in pre-separation 
counseling, 2) either completed the employment workshop or were exempt 
from the requirement to participate in that course, and 3) completed VA 
Benefits I and II courses. Our analysis of DOD data also showed that 85 
percent of eligible servicemembers met all three of these requirements. 
Actual participation rates may have differed from what available 
records showed because DOD lacked participation data for 12 percent of 
eligible servicemembers. Federal law requires the Secretary of Defense 
and the Secretary of Homeland Security to require participation in TAP 
for members eligible for assistance, with some exceptions. 10 U.S.C. 
<l-arrow> 1144. DOD's GPRAMA priority goal performance goal for fiscal 
years 2016 and 2017 is set at 85 percent. The goal includes both 
servicemembers and members of the National Guard and Reserve. This 
performance goal is not a statutory requirement.
---------------------------------------------------------------------------
    Our analysis found that most servicemembers started TAP on time-90 
days or more before their date of separation (see fig. 3). \9\ 
Specifically, we found that in fiscal year 2016, 74 percent of 
servicemembers started TAP on time. However, according to TAP staff at 
five of the seven installations we visited, servicemembers who start 
TAP less than 90 days before separating may face challenges completing 
TAP requirements or accessing additional transition resources.
---------------------------------------------------------------------------
    \9\ See 10 U.S.C. <l-arrow> 1142(a)(3). In cases of unanticipated 
separations or retirements when there are 90 days or fewer before 
discharge or release from active duty, servicemembers are required to 
begin as soon as possible within the remaining period of service.


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Notes: Because GAO determined timeliness data were reliable for 
servicemembers but not National Guard and Reserve members, this figure 
does not include members of the National Guard or Reserve. Actual 
timeliness rates may have differed from what available records show 
because DOD lacked data on the timeliness of beginning TAP for 10.1 
percent of eligible servicemembers. Percentages do not add to 100 due 
to the missing data. The 90-day statutory timeliness threshold does not 
apply when servicemembers undergo unanticipated, rapid separations. 
Therefore, in some cases timeliness standards may have been met 
although the servicemember started TAP less than 90 days before 
separating.
    Several factors affected servicemember participation in TAP, 
according to our survey. The two most frequently cited factors were 
servicemembers going through rapid separations or starting the 
transition process too late to attend TAP. Other often-cited factors 
were servicemembers believing they could not leave their duties to 
attend training, or not being released from duties due to mission 
critical skills. To a lesser degree, lack of support from direct 
supervisors and unit commanders was a factor that reportedly affected 
participation.
    Despite such challenges, we generally heard positive feedback. TAP 
staff at all of the installations we visited said the redesigned 
program offered critical information and guidance and mandating 
participation had improved the program, such as by expanding awareness 
about the importance of transition preparation. Servicemembers also 
praised course facilitators and TAP staff, noting they were 
knowledgeable, dedicated, and supportive. Nonetheless, many 
servicemembers said attending TAP was like ``trying to drink from a 
firehose'' because of the volume of information presented in a short 
period of time. \10\
---------------------------------------------------------------------------
    \10\ DOD officials noted that an ongoing DOD initiative to 
incorporate transition preparation throughout servicemembers careers-
called the Military Lifecycle Transition Model-should help address this 
concern.

While Most Servicemembers Were Deemed Career Ready or Referred for 
    Additional Services, Just over Half May Not Have Completed This 
---------------------------------------------------------------------------
    Process on Time

    DOD met its career readiness performance goal in fiscal year 2016 
by ensuring at least 85 percent of servicemembers met their Career 
Readiness Standards (CRS) or were referred for services to an 
appropriate interagency partner or another appropriate resource-a 
process known as the ``warm handover.'' \11\ In particular, about 81 
percent of all active duty servicemembers met their CRS according to 
our analysis of DOD data. DOD ensured that another 4 percent of 
servicemembers received a warm handover because their CRS had not been 
met. Relatively few servicemembers-another 3 percent-did not meet CRS 
or receive a warm handover as required by regulations. Due to missing 
data, it is unknown whether DOD ensured the remaining 12 percent of 
servicemembers met CRS (see fig. 4).
---------------------------------------------------------------------------
    \11\ For fiscal years 2016 and 2017, DOD set an 85 percent target 
for this agency priority goal.


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Note: Commanders or their designees are required to ensure that 
servicemembers who do not meet one or more Career Readiness Standards 
or who need further assistance are referred to an appropriate 
interagency partner or another appropriate resource-a process known as 
a ``warm handover.'' Because GAO determined participation data were 
reliable for servicemembers but not for National Guard and Reserve 
members, this figure does not include members of the National Guard or 
Reserves. Actual participation rates may have differed from what 
available records show because DOD lacked participation data for 12 
percent of eligible servicemembers. Percentages are rounded to the 
---------------------------------------------------------------------------
nearest whole number.

    However, our analysis of DOD data showed more than 53 percent of 
servicemembers completed Capstone-the event that finalizes TAP 
completion by verifying attainment of CRS providing a referral-fewer 
than 90 days before their scheduled separation date. DOD regulations 
state that, preceding an anticipated separation, servicemembers must 
complete Capstone no later than 90 days before their date of 
anticipated separation, with some exceptions (see fig. 5). \12\
---------------------------------------------------------------------------
    \12\ The 90-day regulatory timeliness threshold does not apply when 
servicemembers undergo unanticipated, rapid separations. Therefore, in 
some cases timeliness standards may have been met although the 
servicemember completed TAP less than 90 days before separating.


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Note: Because GAO determined career readiness standard data were 
reliable for servicemembers but not National Guard and Reserve members, 
this figure does not include members of the National Guard or Reserve. 
Actual Career Readiness Standards attainment rates may have differed 
from what available records show because DOD lacked career readiness 
data for 16 percent of eligible servicemembers. Percentages do not add 
to 100 due to the missing data. The 90- day timeliness threshold does 
not apply when servicemembers undergo unanticipated, rapid separations. 
Therefore, in some cases timeliness standards may have been met 
although the servicemember started TAP less than 90 days before 
---------------------------------------------------------------------------
separating.

While DOD Monitors Many Areas of TAP Implementation, It Does Not 
    Monitor Several Important Requirements

    DOD does not currently monitor the timeliness of TAP participation, 
although DOD regulations establish a time frame for completing TAP 
requirements. We recommended that the Secretary of Defense monitor and 
report on the extent to which servicemembers participate in TAP within 
prescribed time frames. DOD concurred with this recommendation and said 
it will begin implementing it once DOD establishes system requirements 
and identifies associated costs of data collection; DOD anticipates 
starting data collection in fiscal year 2019 at the earliest.
    DOD also does not monitor and report on the extent to which 
servicemembers wanted to attend one of the additional 2-day classes, 
but were not able to participate, although federal law requires that 
DOD ensure that servicemembers who elect to participate in these 
classes are able to receive the training. We recommended that the 
Secretary of Defense monitor and report on the extent to which 
servicemembers who elect to take additional 2-day classes are able to 
do so. DOD disagreed with our recommendation saying that it ensures 
access by offering 2-day classes both in classrooms and online. 
Moreover, it stated that the purpose of 2-day classes is to help 
servicemembers achieve Career Readiness standards. However, GAO does 
not believe this is sufficient for DOD to know whether it is ensuring 
compliance with this particular law. We continue to believe that DOD 
needs to track whether those who elect to take these classes are able 
to receive the training.
    In addition, agency officials told us that DOD does not 
systematically monitor and report on the prevalence of online TAP 
participation, although DOD regulations state that DOD and the military 
services must generally ensure servicemembers participate in TAP in a 
classroom setting, with some exceptions. \13\ We recommended that the 
Secretary of Defense monitor and report on the extent to which 
servicemembers attend TAP in a classroom setting unless allowed by 
regulation to participate online. DOD agreed to address this 
recommendation once it has identified system requirements and 
associated costs for collecting the data. DOD anticipates the earliest 
it will be able to monitor and report such data will be fiscal year 
2019.
---------------------------------------------------------------------------
    \13\ According to DOD regulations, those eligible servicemembers 
who can use the virtual curricula include (1) those whose duty 
locations are in remote or isolated geographic areas, and (2) those 
undergoing short-notice separation who cannot access brick-and-mortar 
curricula in a timely manner. 32 C.F.R. pt. 88 app. G. Isolated 
geographic areas are defined as being 50 or more miles away from the 
installation to which the servicemember is assigned.
---------------------------------------------------------------------------
    Moreover, DOD currently lacks a mechanism to generate performance 
data at the installation and unit command level related to the 
timeliness of TAP participation, access to additional 2-day classes, 
and method of course delivery. We recommended that once DOD monitors 
and reports data in these three areas, the Secretary of Defense should 
enable unit and higher-level commanders to access this information to 
help ensure their specific units are TAP compliant. DOD partially 
concurred with our recommendation in that it agreed to make data 
available to commanders with regard to timeliness and online 
participation-but not access to the 2-day classes-once it had the data 
collection and reporting capability.
    Finally, we found that DOD's performance measures related to CRS 
attainment lack objectivity. \14\ GAO criteria state that subjective 
considerations or judgments should not greatly affect a measure's 
outcome. However, we found that assessing some of the CRS-the 
individual transition plan and resume portion of the job application 
package-requires professional judgment in determining whether a 
servicemember has met the particular standard, and DOD has not 
developed guidance or quality standards that could minimize the 
subjectivity of such \15\decisions \16\. We recommended that the 
Secretary of Defense seek ways to minimize the subjectivity involved in 
making career readiness determinations. DOD concurred with this 
recommendation and said that by the end of fiscal year 2018, it will 
collaborate with the military departments and the Department Labor 
(DOL) to examine and implement ways, as appropriate, to minimize the 
subjectivity in assessing individual CRS. DOD noted that installations 
have personnel trained in resume writing and career planning, who can 
assist servicemembers, and that installations can also call upon their 
local DOL partners for further support.
---------------------------------------------------------------------------
    \14\ Previous GAO reports provide established criteria for 
assessing performance measurement systems. (For example, see GAO, Tax 
Administration: IRS Needs to Further Refine its Tax Filing Season 
Performance Measures, GAO 03 143, (Washington D.C. November 2002.) 
Specifically, for that report, GAO has identified nine key attributes 
of successful performance measures: measurable target, linkage, 
clarity, objectivity, reliability, limited overlap, balance, 
government-wide priorities, and core program activities. For more 
information, see GAO 18 23.
    \15\ Other Career Readiness Standards-such as whether 
servicemembers documented requirements and eligibility for licensure, 
certification, and apprenticeship-do not require subjective judgments.
    \16\ To meet Career Readiness Standards, servicemembers must 
demonstrate they have a viable individual transition plan and have 
completed a job application package, which include a resume.
---------------------------------------------------------------------------
    Chairman Arrington, Ranking Member O'Rourke, and Members of the 
Subcommittee, this concludes my prepared statement. I would be happy to 
answer any questions you may have.

GAO Contact and Staff Acknowledgments

    If you or your staff have any questions about this testimony, 
please contact me at (202) 512-7215 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="187a6a776f767a796a767d6b7b587f7977367f776e36">[email&#160;protected]</a> Contact 
points for our Offices of Congressional Relations and Public Affairs 
may be found on the last page of this statement. GAO staff who made key 
contributions to this testimony include Meeta Engle, Amy MacDonald, and 
David Forgosh. Additional assistance was provided by James Bennett, 
Holly Dye, Ted Leslie, Shelia McCoy, Jean McSween, Benjamin Sinoff and 
Almeta Spencer.

    This is a work of the U.S. government and is not subject to 
copyright protection in the United States. The published product may be 
reproduced and distributed in its entirety without further permission 
from GAO. However, because this work may contain copyrighted images or 
other material, permission from the copyright holder may be necessary 
if you wish to reproduce this material separately.

                                 <F-dash>
                 Prepared Statement of Margarita Devlin
Introduction

    Chairman Arrington, Ranking Member O'Rourke, and other members of 
this Subcommittee - thank you for the opportunity to discuss the 
Department of Veterans Affairs' (VA) contribution to the Transition 
Assistance Program (TAP). With Veterans Day rapidly approaching, this 
hearing is a timely opportunity to take stock of our efforts to support 
transitioning Servicemembers, Veterans, and their families and 
caregivers, as well as explore how VA can continue to improve and 
evolve transition services.
    VA is proud of the successes we have achieved in collaboration with 
our Federal agency partners. We are excited to tell you about our 
ongoing efforts to make TAP more holistic, relevant, and beneficial.

Background

    In 2011, faced with increasing Veteran unemployment rates and a 
nationwide need for more skilled workers and entrepreneurs, the 
President signed the Veterans Opportunity to Work (VOW) to Hire Heroes 
Act of 2011 (VOW Act), which mandated that the Department of Labor 
(DOL) assess the skills that Servicemembers acquire in the military and 
improve the translation of those skills into civilian-sector 
certifications. The act also authorized VA to extend eligibility for 
the Montgomery GI Bill and Vocational Rehabilitation and Employment 
benefits for one year, and expand the Special Incentive Program to 
encourage employers to hire and provide on-the-job training to eligible 
Veterans. By the same token, in November 2011, Congress passed, and the 
President signed, the VOW Act, which included steps to improve TAP for 
Servicemembers. Representing a major shift from prior TAP execution, 
the VOW Act mandated participation in TAP by all transitioning 
Servicemembers, with a few limited exceptions, and focused training on 
employment and education. As a result of the VOW Act, TAP was 
redesigned as a cohesive, modular, outcomes-based program that 
standardized transition opportunities, services, and training to better 
prepare our Servicemembers to achieve their post-military career goals.
    Achieving a successful transition from military to civilian life is 
a collaborative effort between Federal entities and external 
stakeholders. Under the auspices of a memorandum of understanding (MOU) 
executed in 2014, and updated in 2016, the Department of Defense (DoD), 
DOL, VA, Department of Education, Department of Homeland Security, 
Office of Personnel Management, and the Small Business Administration 
are coordinating the execution of the redesigned TAP to provide 
comprehensive transition benefits and services counseling, help 
strengthen and expand information, and facilitate support for 
transitioning Servicemembers. The MOU stipulates each agency's roles 
and responsibilities, puts forth the criteria for a comprehensive 
Transition Assistance Program to be implemented throughout the Military 
Life Cycle (MLC), and outlines collaboration expectations, including 
governance and continuous improvement of the program.

Overview of VA's Portion of TAP

    VA strongly believes that Congress and the responsible executive 
branch agencies, through the passage of the VOW Act and TAP execution, 
have dramatically improved Servicemembers' preparation for their 
military to civilian transition. We continue to see improvements in 
employment opportunities for Veterans. The Veteran unemployment rate, 
which reached a high of 9.9 percent in 2011, has been reduced to 3.0 
percent as of September 2017. That said, we recognize that there is 
much more to be done to facilitate transitioning Servicemembers' access 
to available VA benefits and health care.
    VA's portion of TAP is delivered at over 300 military installations 
(including United States Coast Guard) worldwide through the support of 
approximately 300 trained VA Benefits Advisors (BA). Approximately 75 
percent are in the contiguous United States (CONUS). TAP courses are 
also available online via Joint Knowledge Online, an online portal 
maintained by DoD. BA responsibilities include delivering the mandatory 
VA Benefits Briefings, Capstone and MLC events and briefings, and 
providing individual assistance to transitioning Servicemembers upon 
request. The VA Benefits I and II briefings educate transitioning 
Servicemembers on the wide array of VA benefits including (but not 
limited to) health care, education, Vocational Rehabilitation & 
Employment, compensation, life insurance, home loans, as well as an 
orientation to online benefits portals such as eBenefits and 
MyHealtheVet. In Fiscal year 2017, BAs also conducted over 50,000 
military installation engagements in support of Servicemembers and 
their families. In fiscal year (FY) 2017, approximately 95 percent of 
BAs were either Veterans themselves or Veteran/Servicemember spouses.
    To continue improving the support VA offers to transitioning 
Servicemembers throughout their transition journey, we have regularly 
updated the TAP curriculum to ensure it aligns with current laws on VA 
eligibility, entitlement, and available benefits and services. The 
curriculum also takes evolving preferences for delivery of information 
into account. We are collaborating with DoD to align TAP offerings with 
the current MLC framework, which embeds transition planning and 
preparation for meeting career-readiness standards throughout a 
Servicemember's military career. For example, as part of accession and 
onboarding, Servicemembers are required to establish a DoD self-service 
(DS) logon and create an eBenefits account. The joint VA/DoD eBenefits 
web portal provides resources and self-service capabilities to 
Servicemembers, Veterans, their families, and caregivers to apply, 
research, access, and manage their VA and military benefits. This 
provides an early connection to VA at a key MLC touchpoint.

Success to Date Since VOW Act

    VA BAs began conducting VA Benefits I and II Briefings, VA's core 
component of TAP, in FY 2013. In FY 2014, VA TAP modules became fully 
operational at all installations, alongside implementation of the 
Career Technical Training Track (CTTT), Capstone events, and one-on-one 
assistance.
    From FY 2013 to FY 2016, VA conducted more than 172,000 events 
(including Benefits Briefings I and II, CTTT, one-on-one assistance, 
and Capstone sessions), serving more than 1.8 million Servicemembers 
and family members as part of TAP. Outcomes from the increased focus on 
education and career development by both VA and DOL TAP content can be 
seen reflected in the dramatic reductions in Veteran unemployment, 
which has steadily decreased to a low of 3.0 percent in September 2017.
    During FY 2016, VA also designed a new curriculum specific to 
members of the National Guard and Reserve. The National Guard and 
Reserve components have unique needs due to their missions and 
mobilizations, and eligibility for VA programs is often more complex to 
adjudicate. The new curriculum module contains information and 
resources tailored to the specific needs and special circumstances of 
National Guard and Reserve members.
    In FY 2017 (through August 2017), VA provided more than 63,000 
events (including Benefits Briefings I and II, CTTT, Individual 
Assistance, and Capstone sessions) to more than 500,000 transitioning 
Servicemembers and family members as a part of TAP. VA conducted over 
400 CTTT sessions in FY 2017 before moving the execution responsibility 
to DOL in March 2017.
    DoD collects feedback from transitioning Servicemembers through the 
interagency Transition Goals, Plans, Success (GPS) participant 
assessment and shares this data with VA quarterly. This assessment 
collects demographic data and includes questions to assess the quality 
of the course curriculum, course materials, facilitators, and 
facilities. Participants also answer questions for VA to gauge their 
intent to use the information learned, confidence derived from the 
modules/tracks, and self-assessed knowledge gain. As of third quarter 
of FY 2017, VA received 95,000 responses to the Transition GPS 
assessment for Benefits Briefings I and II. VA consistently receives 
high evaluations from Servicemembers who attend Benefits Briefings I 
and II, averaging 96-percent satisfaction on information learned, 96 
percent on effectiveness of the facilitators, and 94 percent on 
confidence gained from the material.

VA Curriculum Redesign - Goals and Schedule

    VA's curriculum seeks to frame transition information that reflects 
the overarching nature of the transition experience. Interagency TAP 
partners collaborate on a 2-year continuous review cycle, which 
includes a content deep dive followed by technical reviews.
    As VA approached the scheduled FY 2017deep dive (an extensive 
analysis of the existing curriculum), VA made a strategic decision to 
do a complete redesign of our curriculum, exceeding the standard review 
requirement. Despite the high satisfaction ratings received by 
Servicemembers who participated in Benefits Briefings I and II, 
anecdotal information received from stakeholders and Veterans suggested 
that a more holistic view, including the psychosocial aspects of the 
transition to civilian life, would enable the VA's TAP program to have 
more real-life relevance and increase the quality of the overall 
experience. For example, instead of simply providing information on the 
suite of benefits and services offered for eligible veterans, VA is 
considering ways to facilitate a more interactive course that addresses 
the overall transition journey. VA is leveraging instructional design 
based on adult learning principles to focus the curriculum on 
transition decisions and actions that transitioning Servicemembers need 
to consider with respect to available VA services and benefits, such as 
health care, housing, education, and career preparation. Additionally, 
VA plans to include classroom time for Servicemembers to complete 
applications for health care and other benefits.
    To successfully execute this innovative change in approach, 
Benefits Assistance Service (BAS) - the executive agent for TAP within 
VA - conducted a comprehensive review with business lines throughout 
the Department to ensure the VA TAP Benefits I and II curriculum was 
inclusive of all relevant programs and services. Program-level subject 
matter experts from across VA were integrated into planning and 
development efforts to ensure optimal curriculum content and key 
messages would be delivered to TAP participants. In addition, VA 
engaged Veteran Service Organizations (VSO) and other Veteran-facing 
organizations to incorporate their input into the curriculum redesign.
    Through this process, VA identified targeted areas of focus that 
have a particular importance to the transitioning Servicemember 
population, including (but not limited to) whole health, gender-
specific health, mental health, suicide prevention, trauma/crisis 
support, career preparation, education, vocational rehabilitation, 
housing, homeless support, and disability benefits.
    By understanding the scope of services most important to 
transitioning Servicemembers and their families, VA can build a more 
holistic and targeted approach to curriculum offerings. In consultation 
with the interagency partners, the revised VA curriculum will be 
piloted in January 2018, with planned deployment in late spring 2018 
across installations worldwide. Subsequent to brick and mortar 
deployment, VA will develop an online module that aligns with the 
revised curriculum.
    VA continues to integrate VA TAP content into the MLC. A module 
explaining how to access education benefits is in development, and we 
plan to deploy in FY 2018. VA continues to work with the interagency 
partners on the development of additional modules to incorporate into 
the MLC.
    VA is excited to see how integration into the existing MLC model 
will serve as a positive introduction to VA benefits and services to 
strengthen the connection between VA and transitioning Servicemembers.

Vision for Future TAP Involvement

    VA has a clear vision for our future involvement in the military to 
civilian transition, which begins upon accession and continues 
throughout a Servicemember's military career. We are currently 
transitioning to a new contract vehicle, which will build on earlier 
successes and support development of a more robust, data-driven TAP 
with a holistic approach to meeting current and future needs of 
transitioning Servicemembers.
    During the initial phase of piloting the redesigned curriculum in 
January 2018, VA will deliver the revised curriculum to groups of 
transitioning Servicemembers at multiple military installations to 
gather specific participant feedback. VA, in collaboration with our 
interagency partners, will collect necessary feedback from this pilot 
to make any additional enhancements to improve the curriculum. More 
broadly, VA will continue to look for opportunities to further 
strengthen TAP for transitioning Servicemembers, their families, and 
caregivers to ensure VA is adequately meeting their needs.
    VA will continue to strengthen the connection with transitioning 
Servicemembers through our integration into the MLC model. VA will 
inform, equip, and provide support at critical touchpoints throughout 
their careers, from first duty assignment, during major life events 
throughout transition (retirement/separation), and post-transition as 
transitioning Servicemembers integrate into their communities as 
civilians. The TAP-MLC integration will serve as a positive 
introduction to VA benefits and services.
    To further understand the needs of transitioning Servicemembers and 
to strengthen TAP, VA and our interagency partners will implement a 
post-separation assessment in order to collect reliable and valid 
feedback on post-separation outcomes. In FY 2017, VA awarded a contract 
to design, develop, and test the post-separation assessment protocol. 
Final submission of the survey to the Office of Management and Budget 
is expected to occur in FY 2018. Additionally, VA will continue work 
with our TAP interagency partners to identify and develop data 
collection approaches for long-term outcome measures that build on 
current indicators. The goal is to be able to share data that provides 
evidence of the effectiveness of TAP and help with evaluating the 
overall long-term impact of interagency transition services.
    VA is working closely with DoD to enhance our joint efforts to 
prevent suicide among Servicemembers. Each instance of suicide is a 
tragedy, and VA is hopeful that this increased collaboration will help 
us identify new policy solutions that may give added relief to those 
who are struggling.
    VA knows that we cannot solve every problem and that solutions 
should be inclusive of both Federal resources and the immense network 
of support available in local communities across our country. VA is 
eager to collaborate, and we are vested in connecting with community 
organizations that can effectively support the transition experience. 
To ensure VA has a full picture of the experiences and goals of those 
in transition, VA is working with our VSO partners, Veterans peer 
groups, and other thought leaders to obtain outside input based on the 
feedback they hear from transitioning Servicemembers.

Government Accountability Office (GAO) Report

    GAO recently assessed TAP data and surveyed DoD installations and 
has developed a final report summarizing their findings. VA is strongly 
committed to working with DoD and other Federal agencies to improve TAP 
by strengthening the curriculum, fully integrating TAP objectives into 
the MLC, and analyzing post-transition survey data.

Conclusion

    VA is pleased to work alongside the Federal agency TAP partners to 
support transitioning Servicemembers, Veterans, their families, and 
caregivers throughout their transition journey. The partners are proud 
of the progress made in recent years and are excited to continue 
improving TAP in the years ahead.
    Through our curriculum redesign and the expansion of our reach to 
transitioning Servicemembers through MLC, VA is poised to have greater 
access to all those in uniform - both Active Duty and National Guard/
Reserve - and dramatically reduce the stress of transition and being 
overwhelmed with information about benefits and services that many 
transitioning Servicemembers have experienced. VA is focused on working 
more closely with VSOs and other stakeholders to improve the 
transitioning Servicemember experience throughout their transition 
journey. The concept is to build a more tailored experience that 
results in greater awareness of and ability to support the unique needs 
of those in transition and improve the health, employment, and 
education outcomes for our Servicemembers returning to civilian life.
    Thank you for allowing me to address the Committee today. Mr. 
Chairman, this concludes my statement. I would be pleased to answer any 
questions you or other Members of the Committee may have.

                                 <F-dash>
                   Prepared Statement of Ivan Denton
                              Introduction
    Good Afternoon Chairman Arrington, Ranking Member O'Rourke, and 
distinguished Members of the Subcommittee, thank you for the 
opportunity to participate in today's hearing. Although the Department 
of Labor (DOL or Department) was not a focus of the most recent 
Government Accountability Office engagement on transitioning service 
members and the Transition Assistance Program (TAP), we appreciate the 
opportunity to discuss the Department's work with the Departments of 
Defense (DoD), Veterans Affairs (VA), and other agency partners, to 
administer and improve TAP. As the Director of the Office of National 
Programs in the Veterans' Employment and Training Service (VETS) at 
DOL, my office is responsible for managing DOL's Employment Workshop 
(EW or Workshop) and Career Technical Training Track courses. As a 
recently retired (December 2016) soldier with a 35 year military 
career, I personally understand the importance of the transition 
process and TAP. Career transition is an important and stressful time 
for the transitioning service member, as well as the entire family. 
More broadly speaking, successful career transition is important to 
attracting an All-Volunteer Force, and to building the American 
economy. I appreciate the opportunity to discuss DOL's efforts to work 
with DoD and VA to administer TAP to transitioning service members and 
improvements that can be made to assist service members with their 
employment preparation as they transition to civilian life.
    Secretary Acosta stands firmly behind our country's service members 
and veterans. He has set several clear goals that will assist our 
veterans in finding and retaining good jobs: (1) creating clear career 
pathways; (2) eliminating barriers to employment; (3) enabling and 
promoting apprenticeship opportunities that lead to meaningful careers; 
and (4) increasing the portability of licensing and credentials for 
military service members and their spouses.
    Before the passage of the VOW to Hire Heroes Act in 2011, the 
veteran unemployment rate reached a high of 9.9 percent in January 
2011, and Unemployment Compensation for Ex-service members (UCX) 
payments for the year totaled over $728 million to nearly 90,000 
individuals; with an average duration of UCX benefits payments of over 
21 weeks. So far in 2017, veteran unemployment has averaged 3.7 
percent, including a low of 3.0 percent in September 2017. 
Additionally, UCX payments and participants for the 12 months ending in 
August 2017 have dropped to approximately one-third of what they were 
in 2011, and the average number of weeks that transitioning service 
members receive UCX benefits has also decreased to 18.9 weeks for the 
29,000 recipients who received benefits from September through August. 
That is good news for all transitioning service members.
    While there are still approximately 300,000 veterans who are 
unemployed, there are 6.1 million job openings. Transitioning service 
members and veterans can help to fill these jobs, and employers are 
eager to hire them. DOL will soon publish final regulations to 
implement the HIRE Vets Medallion program. This program will recognize 
companies that are successful in hiring and retaining our nation's 
veterans.
    DOL helps employers build effective hiring and apprenticeship 
programs by overseeing a workforce system that connects transitioning 
service members and veterans to job opportunities and training, and we 
assist by providing the DOL Workshops to approximately 200,000 
transitioning service members each year. The Workshops provide 
attendees with the information, knowledge, and tools needed to bridge 
the divide between a military and a civilian career.
           Transition Assistance Program Employment Workshops
    TAP, as codified under 10 U.S.C. 1144, is a collaborative effort of 
the Departments of Labor, Veterans Affairs, Defense, Education, and 
Homeland Security (DHS), the Office of Personnel Management, and the 
Small Business Administration. TAP provides separating service members 
and their spouses with the training and support they need to transition 
successfully to the civilian workforce. Through TAP, DOL uses its 
extensive expertise in employment services to provide a comprehensive 
three-day Workshop at U.S. military installations around the world.
    Since the Department began providing the Workshop over 25 years 
ago, the number of workshops, participants, and locations has grown 
considerably. In 2003, TAP was expanded to overseas military 
installations, and, in 2005, courses were offered to returning members 
of the Reserve and National Guard via the 30, 60, and 90-day Yellow 
Ribbon Reintegration programs. In 2011, the VOW Act was passed, which 
among other things, made participation in the DOL EW mandatory for most 
transitioning service members, including those demobilizing from the 
National Guard and Reserve Components.
    Last year, DOL conducted more than 6,400 Workshops for over 180,000 
participants at 187 sites worldwide. Of the over 180,000 participants, 
more than 7,000 were National Guard and Reserve. The 3-day DOL EW is 
standardized so that all attending service members and their spouses 
receive the same high level of instruction. The course consists of 
three days of classroom instruction that is tightly focused on four 
core competencies:

    <bullet>  Developing and executing a job search plan that's career 
focused;
    <bullet>  Planning for success in the civilian work environment;
    <bullet>  Creating resumes, cover letters, and other self-marketing 
materials; and
    <bullet>  Engaging in successful interviews and networking 
conversations.

    In compliance with the VOW Act, the Department initiated a 
significant redesign of the DOL EW to make it more engaging and 
relevant in light of the unique challenges facing transitioning service 
members. This was an extensive process that involved numerous pilots, 
evaluations, and feedback from reviewers and agency partners. In 
addition, the VOW Act required that DOL use contract facilitators to 
ensure a standardized, high-quality professional cadre of facilitators. 
DOL monitors the performance of the facilitators through the review of 
Transition GPS Participant Assessment results, regular site assessments 
by DOL federal field staff, and input from DoD and military services 
stakeholders.
    In FY 2017, the interagency partners collected and analyzed 
assessment results regarding participants' satisfaction with the TAP 
curriculum and delivery methods. Assessment results indicated that 96 
percent of participants reported that they would use what they had 
learned in their own transition planning. The data suggests that the 
DOL EW is meeting the expectations of its participants. But we 
recognize that isn't enough, so we work with our partners, and with 
industry experts, to continually refine the curriculum, the methods of 
delivery, and the electronic resources available to give transitioning 
service members the best opportunity for a successful career 
transition.
    VETS completed the implementation of the revised DOL EW curriculum 
in Fiscal Year (FY) 2016. This revision incorporated extensive input 
from TAP stakeholders, including military transition services 
personnel, transitioning service members, private sector employers, and 
Veterans Service Organizations (VSOs). The result is an employment 
workshop focused on the four competencies noted above. Additionally, in 
FY 2016, VETS conducted a technical review of the curriculum in 
accordance with the TAP Curriculum Working Group's two-year review 
cycle. The purpose of the technical review was to ensure that the 
content, data, and web sites used in the curriculum were accurate and 
up-to-date.
    DOL has awarded a contract for an independent evaluation of the TAP 
program. The evaluation will include a quasi-experimental design to 
analyze the impacts of the TAP DOL EW on employment-related outcomes 
for separating military service members. It will also involve a small 
pilot to evaluate differential impacts of behavioral intervention 
approaches for connecting separating service members to American Job 
Centers (AJCs).
    The interagency performance management working group is also 
reviewing long-term outcome measures that may be used to assess the 
impact of TAP. These include a variety of unemployment and labor force 
statistics. Many of these measures will require data sharing efforts, 
or possibly legislative changes, to allow access to information across 
agencies.
    Based on a data agreement between Defense Manpower Data Center 
(DMDC) and DOL, at this time last year, we began to receive E-form 
(i.e., DD Form 2648) data from DMDC on transitioning service members. 
Transitioning service members are given the opportunity to opt into 
receiving information from DOL. Since that time DOL has sent 
approximately 150,000 emails to transitioning service members to 
connect them with employment and training resources. DOL will continue 
to analyze the data and to work with stakeholders to leverage Veterans' 
Data Exchange Initiative in a manner that can positively impact 
employment outcomes.
 Veterans Employment Initiative Task Force for a Career-Ready Military
    In 2011, the Veterans Employment Initiative (VEI) Task Force was 
established to ensure the career readiness of transitioning service 
members. The Task Force consists of joint representation from DOL, DoD, 
VA, DHS (U.S. Coast Guard), the Department of Education, the Small 
Business Administration, and the Office of Personnel Management. The 
Task Force designed a plan to strengthen and build upon the existing 
TAP curriculum, which is now known as Transition GPS (Goals, Plans, 
Success). To continue this important collaboration, the TAP Memorandum 
of Understanding (MOU) provides an interagency governance framework. 
There are five interagency working groups (transition assistance, 
curriculum, IT/data sharing, performance management, and strategic 
communications) that report to the Senior Steering Group (SSG). The SSG 
meets monthly to ensure the program is operating as intended by 
statute. The SSG reports to the Executive Council (EC), which meets 
quarterly. The EC, SSG, and all of the working groups are represented 
by each interagency partner. The Office of the Secretary of Defense 
(OSD), DOL, and VA serve as co-chairs of each of the groups-with the 
lead chair rotating annually. In FY 2018, DOL is the host.
    Transition GPS: Under the current interagency MOU, the supporting 
agencies have a greater sense of their roles and responsibilities in 
support of Transition GPS, which now includes four basic components to 
help service members prepare for separation and meet their career 
readiness standards: (1) Pre-Separation/ Transition Counseling; (2) 
Transition GPS Core Curriculum; (3) additional Career Specific training 
tracks; and (4) Capstone.
    Pre-Separation/ Transition Counseling: Through the current 
transition program, transitioning service members receive individual 
counseling to discuss their career goals and start their transition 
process. Each service member is introduced to the programs and services 
available to them during their transition and begins to develop an 
Individual Transition Plan (ITP) that documents his or her personal 
transition, as well as the deliverables he or she must attain to meet 
the new transition program's Career Readiness Standards.
    Transition GPS Core Curriculum: The Transition GPS Core Curriculum 
includes a financial planning seminar, VA Benefits Briefings, the DOL 
Employment Workshop, and other modules. Transitioning service members 
also use a Military Occupational Code Crosswalk to translate their 
military skills, training, and experience into civilian occupations, 
credentials, and employment.
    Additional Career-Specific Training Tracks: Service members also 
have the opportunity to participate in a series of two-day tailored 
tracks within the Transition GPS curriculum: (1) an Accessing High 
Education Track (provided by DoD), for those pursuing a higher 
education degree; (2) a Career Technical Training Track (CTTT) 
(provided by DOL), for those interested in obtaining job-ready skills 
through apprenticeship or other industry-recognized credentials; and 
(3) the ``Boots to Business'' Entrepreneurship Track (provided by SBA), 
for those wanting to start a business.
    In April 2017, the Department assumed responsibility for the TAP 
CTTT. This is aligned with the Secretary's emphasis on apprenticeship, 
and the President's recent Executive Order 13801, Expanding 
Apprenticeships in America. CTTT is an additional two-day workshop 
focused on apprenticeships and industry-recognized credentials for 
transitioning service members and their spouses. The CTTT provides 
these service members with an opportunity to identify their relevant 
skills, increase their awareness of training and apprenticeship 
programs that can lead to industry-recognized credentials and 
meaningful careers, and develop an action plan to achieve their career 
goals. The Department is also undertaking a comprehensive review of the 
CTTT curriculum, and has reached out to employers, industry 
associations, and other stakeholders, asking for participation in the 
examination of both the DOL EW and the CTTT offerings. Their valuable 
input will help to ensure the curricula are up-to-date and relevant to 
the dynamic employer and industry standards. As with the TAP EW, DOL 
has sought input from a range of industry experts and expects to 
implement a revised CTTT curriculum in early 2018.
    Capstone: Before their separation from the military, service 
members participate in a Capstone event, which requires that the 
transitioning service member's chain-of-command verify that he or she 
has completed the VOW Act requirements and achieved Career Readiness 
Standards. Service members who require additional assistance will be 
referred to supplemental training opportunities. In addition, through 
the Capstone event, service members will be offered, as needed, a 
``warm handover'' to appropriate federal, state, and local government 
agencies, such as the AJCs.
    SkillBridge: The Department also works with our partners at DoD to 
support their SkillBridge initiative, which works to offer civilian job 
training to transitioning service members. Service members who meet 
certain qualifications can participate in civilian job and employment 
training, including pre-apprenticeships, on-the-job training, and 
internships in their last 180 days of active duty. Secretary Acosta is 
interested in increasing employer access to transitioning service 
members through SkillBridge and other employer sponsored programs. We 
will work with DoD and employers to increase these opportunities. 
Tremendous potential exists for service members, companies, trade 
unions, and others to leverage this DoD authority and facilitate a 
smooth transition from active duty to civilian employment.
                 DOL Support for Non-Optimal Transition
    When a service member is assessed as not meeting Career Readiness 
Standards during their Capstone event, their commander facilitates a 
``warm handover'' of the service member to the public workforce system 
for a review of the employment services available through AJCs and to 
facilitate access to individualized career services. This warm handover 
can be accomplished by introducing the service member to a local AJC 
staff member (on or near the military base), connecting them to the AJC 
nearest their eventual destination, or through a facilitated call from 
the service member to the DOL Toll-Free Help Line (1-877-US2-JOBS or 1-
877-872-5627). Service members that do not meet career readiness 
standards are allowed to receive services from a Disabled Veterans' 
Outreach Program (DVOP) specialists at the AJCs, regardless of 
disability status or other significant barriers to employment. DVOP 
specialists, authorized under 38 U.S.C. 4103A, are funded throughout 54 
states and territories through DOL's Jobs for Veterans State Grant 
(JVSG) program and provide intensive services to eligible veterans and 
eligible spouses. JVSG also provides funding for Local Veterans' 
Employment Representatives staff members who provide a wide range of 
services on behalf of our veterans specifically related to outreach to 
the employer community and facilitation within the state's employment 
service delivery system.
    American Job Centers: Most of the Department's employment programs 
and services are available through the nationwide network of nearly 
2,400 AJCs. The AJCs serve as the cornerstone for the Nation's 
workforce investment system and provide a range of services locally, 
including counseling, resume writing workshops, job skills assessments, 
occupational training, on-the-job training, apprenticeships, and job 
placement services. Last year, more than 13 million Americans, 
including almost one million veterans (including National Guard and 
Reserve), received employment assistance through AJCs. Additionally, 
Section 2 of the Jobs for Veterans Act of 2002, as codified at 38 
U.S.C. 4215, established ``Priority of Service'' for veterans, which 
allows veterans and their eligible spouses to receive priority access 
to workforce training programs directly funded, in whole or in part, by 
DOL. The Department is committed to providing Priority of Service for 
veterans and eligible spouses.
    Unemployment Compensation for Ex-service Members: The Department 
also oversees the UCX program, which provides benefits for eligible ex-
military personnel. The program is administered by the States as agents 
of the Federal government. To qualify for UCX, an individual must have 
been on active duty with a branch of the U.S. military and discharged 
under honorable conditions. There is no payroll deduction from service 
members' wages for unemployment insurance protection. Benefits are paid 
for by the various branches of the military, or the National Oceanic 
and Atmospheric Administration. The law of the State (under which the 
claim is filed) determines benefit amounts, number of weeks benefits 
can be paid, and other eligibility conditions. Transitioning service 
members that receive UCX are eligible to be enrolled in state 
Reemployment Services and Eligibility Assessment (RESEA) programs to 
assist them in gaining employment.
    To further support UCX beneficiaries during their transition to 
civilian employment, the Department has leveraged the RESEA grant 
program. RESEA grants provide states with additional funding for in-
person reemployment services at AJCs, such as career and labor market 
information, development or update of an individual reemployment plan, 
orientation to AJC services, referrals to additional resources, and a 
review of each participant's continued UCX or Unemployment Insurance 
(UI) eligibility. RESEA is an evidenced-based strategy targeted to 
individuals identified as likely to exhaust UI benefits. Since 2015, 
the Department has directed participating states to provide RESEA 
services to UCX beneficiaries to the greatest extent feasible. The 2018 
Budget includes a proposal that would expand RESEA to serve 50 percent 
of all UI beneficiaries most likely to exhaust benefits, as well as all 
UCX beneficiaries.
                       Priorities Moving Forward:
    DOL EW Participation Timeline and Curriculum Update: VETS has been 
working with our partners on the TAP SSG to better address 
transitioning service members' needs. For the past several years, the 
focus of the TAP SSG has been the requirements of the VOW Act. The TAP 
SSG has also begun focusing on the timing of the delivery of TAP. 
Although many transitioning service members are attending TAP within 90 
days of separation, and as early as two years out for retirees, we 
believe, in line with DoD's policy, that to the greatest extent 
possible, transitioning service members should attend TAP much earlier. 
In our view, TAP should be delivered as much as one year prior to 
scheduled separation for transitioning service members, and as early as 
two years prior to separations for retirees to allow for participation 
in supplemental courses, financial planning, resume development, 
networking, career research and access to other opportunities like 
DoD's SkillBridge.
    During FY 2017, the TAP Interagency Curriculum Working Group 
conducted an in-depth review of all the curricula modules, including 
the DOL EW and CTTT. As part of the in-depth review process, DOL 
distributed the DOL EW and CTTT curricula materials to over 40 internal 
and external stakeholders providing them an opportunity to review the 
material and respond with input. The stakeholder group included the TAP 
Interagency partners, employers, VSOs, the US Chamber of Commerce, 
Society of Human Resource Managers, and the National Association of 
State Workforce Agencies. Based on feedback received, DOL is updating 
the DOL EW curriculum to improve organization, remove some outdated 
practices, improve the LinkedIn Profile section, and to emphasize the 
importance of taking advantage of the additional Transition GPS tracks 
- Accessing Higher Education, Entrepreneurship track, and CTTT. The 
Department's intent is to highlight how it is in the interest of the 
transitioning service member to take a career approach by obtaining a 
degree, industry recognized credential(s), or an apprenticeship.
    CTTT Participation Increase and Curriculum Update: As the 
responsible agency for CTTT, the Department will work with interagency 
partners to increase CTTT participation. In addition, VETS, with the 
assistance of the Department's Employment and Training Administration's 
Office of Apprenticeship, is significantly revising the CTTT 
curriculum. The new curriculum will place increased emphasis on 
apprenticeships as a path to sustainable, high paying careers. The 
revised CTTT curriculum will cover four themes: (1) Personal Assessment 
using three assessment tools; (2) Research into specific career fields 
of interest; (3) Understanding training requirements and identifying 
training opportunities; and (4) Establishing goals and develop a 
detailed plan to achieve those goals.
    Veterans' Data Exchange Initiative, the TAP Mobile Application, and 
Evaluations: In November 2016, VETS began the data transfer process 
from the Defense Manpower Data Center for the Veterans' Data Exchange 
Initiative (VDEI). The overall intent of this initiative is to allow 
the Department to gain a better understanding of transitioning service 
members, which will allow VETS to better prepare the Department's 
services for individuals transitioning out of the military. VETS is 
tracking data elements such as race/ ethnicity, gender, military 
occupation, and other demographic information for approximately 200,000 
transitioning service members each year. Partnering with DOL's Chief 
Evaluation Office, VETS is examining the VDEI data to determine how the 
data can be used to analyze employment outcomes for transitioning 
service members and improve our service delivery. Currently, based on 
E-form data sent to DOL from DMDC, VETS sends emails to transitioning 
service members to highlight the importance of participating in the DOL 
EW as early as possible to provide employment tools that support the 
transition process.
    The Department has initiated development of a TAP mobile 
application (app). The purpose of this app is to provide online tools 
for transitioning service members in a format that is accessible from a 
smartphone. The app will provide access to a full suite of the 
CareerOneStop mobile tools, and will include DOL TAP course materials. 
Additionally, the app will provide transition checklists and automated 
notifications.
                               Conclusion
    In conclusion, our long-term goal continues to be for the nation as 
a whole to recognize military service as a path to high-quality 
civilian careers. The future of the country's All-Volunteer Force 
depends upon this recognition, as does our economy. The Department 
recognizes employment as possibly the most important element of a 
successful transition to civilian life. The Department thanks the 
Congress for addressing TAP participation through the VOW Act, and for 
your continued partnership in removing barriers to employment.
    Today, the Department remains committed to working with our 
interagency partners to continuously review and improve TAP curricula, 
including the DOL EW and CTTT, through our regular review cycle that 
incorporates input from employers and best practices across the nation.
    Moving ahead, we look forward to preparing transitioning service 
members and their spouses even more effectively by improving the 
timeliness of DOL EW participation and increasing participation rates 
in the supplementary career-related tracks.
    The Department looks forward to working with the Subcommittee to 
ensure that our separating service members have the resources and 
training they need to successfully transition to the civilian 
workforce. The improving employment situation for veterans is a 
resounding testament to the nationwide response from stakeholders, both 
public and private, at the national level and even within the local 
communities. Mr. Chairman, Ranking Member, distinguished Members of the 
Subcommittee, this concludes my written statement. Thank you for the 
opportunity to be a part of this hearing. I welcome your questions.

                                 <F-dash>
                  Prepared Statement of Judd H. Lyons
    Chairman Arrington, Ranking Member O'Rourke, distinguished members 
of the Subcommittee, thank you for the opportunity to appear before you 
this afternoon to discuss the Transition Assistance Program (TAP) and 
the findings and recommendations of the U.S. Government Accountability 
Office's (GAO) recent report entitled, ``Transitioning Veterans - DoD 
Needs to Improve Performance Reporting and Monitoring for the 
Transition Assistance Program.''
    On December 15, 2015, the Department testified before the Senate 
Veterans Affairs Committee on the TAP in response to the question ``Is 
transition assistance on track?'' Our response, then and now, is yes. 
In addition, TAP is an adaptive, evidence-based program. Accordingly, 
the Department is continuously improving the program to meet the needs 
our transitioning Service members.
    The Department reported, in our December 2015 witness statement, we 
have achieved the four core TAP redesign objectives identified in 2012. 
These four core objectives are: (1) Adopting ``career readiness'' 
standards (CRS) for transitioning Service members; (2) Implementing a 
revamped TAP curriculum with learning outcomes; (3) Implementing a 
Capstone event; and (4) Implementing a ``Military Life Cycle'' (MLC) 
transition model. In the 23 months since then, the TAP has continued to 
mature and align with a changing military environment and population. I 
will highlight some of the improvements we have made to the TAP since 
2015, building upon the original four core objectives, as well as 
additional efforts currently underway. Specifically, I will address 
improvements and work underway to program evaluation, curriculum 
revisions and other enhancements across the MLC, the Capstone event and 
assisting at-risk Service members, and private and public engagement to 
enhance Service members' military-to-civilian transition. I will also 
specifically address the recommendations made by the GAO for TAP 
improvements.

PROGRAM EVALUATION

TAP Interagency Evaluation Plan

    The first core objective achieved of the original TAP redesign was 
to adopt CRS for transitioning Service members for successful 
transition preparation. Building on the CRS as a key underlying 
foundation, the TAP interagency governance has been focused on TAP as a 
data-driven program. This is shaped by the interagency TAP Evaluation 
Plan, which presents a systematic and singular interagency approach to 
evaluating the performance of Service member transition assistance 
services. Both the FY2015-2016 and FY2017-2018 TAP Evaluation Plans 
were reviewed and approved by Office of Management and Budget. The 
interagency TAP Evaluation Plan supports three overarching goals: 1) 
provide accountability to ensure the program is effectively and 
efficiently executed in accordance with law, policy, and leadership 
intent; 2) measure and improve customer satisfaction; and 3) measure 
and improve program effectiveness. As part of this plan, methods and 
tools were developed to assess the processes for TAP delivery, 
immediate results of program delivery (e.g., whether separations comply 
with statute and policy), and the desired systemic impacts of the 
program (e.g., veterans successfully obtain employment, start new 
businesses, and/or seek additional education).

Site Visits and Transition GPS Participant Assessment

    The Service Inspectors General provide accountability that the 
program is delivered on military installations in accordance with law, 
policy, and leadership intent. We developed the web-based Transition 
GPS Participant Assessment to assess and improve customer satisfaction 
with the Transition GPS (Goals, Plans, Success) curriculum and the TAP. 
This assessment is used to gather voluntary feedback from transitioning 
Service members who participated in the TAP. Questions are designed to 
assess the quality of the course content and materials, facilitators, 
and facilities. Participants are asked about each module or track 
individually, as well as the overall TAP. Results consistently 
demonstrate that Service members perceive the TAP as valuable and high 
quality. For example, during Quarter 3 of FY2017: 91 percent of 
respondents said they gained valuable information and skills to plan 
their transition, 91 percent said the training enhanced their 
confidence in transition planning, 91 percent indicated that they 
intended to use what they learned, and 93 percent knew how to access 
appropriate resources to answer questions about transition. The TAP 
interagency governance consistently uses feedback from this assessment 
to inform future changes to policy, curriculum, facilitator training, 
and other program elements.

Veterans Opportunity to Work (VOW) Act and CRS Attainment

    The TAP governance monitors and examines a host of output measures 
and outcome indicators to gauge the effectiveness of the program, such 
as CRS compliance, veteran unemployment rate, new business formation 
rate, and education persistence/graduation rate for those using their 
GI Bill benefits. To measure initial TAP effectiveness, we rely on VOW 
Act and CRS compliance. The Department made the VOW Act and CRS 
compliance of Service members transitioning to civilian life an Agency 
Priority Goal (APG) in FY2014. The Department took this charge 
seriously and has refined the ways in which data is collected, 
examined, and reported. For example, at the beginning of FY2014, VOW 
Act compliance was tracked using only attendance data, and our APG 
combined the Active and Reserve Component into a single performance 
measure. In FY2015, DoD began relying on the DD Form 2958 to track both 
VOW Act and CRS compliance. The DD Form 2958 verified from the Service 
member's commander (or designee) that all VOW Act and CRS requirements 
were met prior to the Service member's separation, retirement, or 
release from active duty. At that time, the compliance rates also 
reflected only the known eligible Service members (i.e., those for whom 
a complete (or partially completed) DD Form 2958 was received by the 
Defense Manpower Data Center (DMDC)). In FY2015, separate performance 
measures were also created for the Active and the Reserve Component for 
both VOW Act and CRS compliance to allow more accurate and transparent 
tracking of the APG. The Department continues to work towards improving 
the quality of data on VOW Act and CRS compliance. On November 7, 2016, 
the Department deployed a new TAP-IT Enterprise System and electronic 
form (DD Form 2648), which further streamlined the data collection 
processes and precluded commanders (or their designees) from signing 
partially completed forms, increasing the completeness of information 
documented on each Service member.
    With more involved command and senior leadership support, improved 
data tracking, and accountability using known verified DD Form data 
received by DMDC, VOW Act and CRS compliance was more than 85% for both 
known eligible Active and Reserve Component Service members by the end 
of FY2015 and more than 90% by the end of FY2016. Even as data tracking 
methods have become more precise and sophisticated with the electronic 
form (i.e., the DD Form 2648), the verified DD Form data received by 
DMDC shows more than 90 percent for both known eligible Active and 
Reserve Component Service members continued VOW Act and CRS compliance 
for FY 2017. That is good news, but we have much work to do to improve 
our data capture of the electronic form, particularly for our Reserve 
Component Service members. As of August FY 2017 data indicates, 12.8% 
of Active Component Service members and 54.1% of Reserve Component 
service members have compliance information that remains unknown - that 
is, these Service members do not have a completed DD Form 2648 
documented in the TAP-IT Enterprise System. The Department continues 
collaboration with the Services and DMDC to identify and resolve any 
gaps in data collection and transmission to reduce the number of 
separations with `unknown' compliance and ensure data completeness and 
accuracy regarding compliance reporting. This is a key area of focus in 
FY2018.
    The TAP interagency governance is also better able to support 
Service members with the new TAP-IT Enterprise System and electronic 
form. With the launch of this new electronic form in November 2016, the 
TAP interagency partners are able to receive individual-level data on 
transitioning Service members who have `opted in' to be contacted for 
follow-on transition support. The Department of Labor (DOL) and 
Department of Veterans Affairs (VA) currently receive this `opt in' 
data from the DoD and are exploring ways to best utilize this data to 
enhance support. Additionally, data sharing among the Department and 
the TAP interagency partners will address the question of what 
additional services our transitioning Service members receive if they 
are provided a warm handover (e.g., due to failing to meet CRS), as 
well as the outcomes of these services.

Enhanced Long-Term Outcomes of TAP

    The TAP interagency governance is currently discussing planned 
enhancements to the TAP Evaluation Plan to capture the systemic, long-
term impacts of the program. Identifying new data collection mechanisms 
for these outcomes is challenging. For example, not all desired outcome 
data is owned by the TAP partner agencies (e.g., earnings data), and 
data must be shared or combined with other data which requires cross-
agency agreements. The TAP interagency governance is committed to 
developing a roadmap to enhance the TAP long-term outcomes by the end 
of FY2018 to ultimately improve our understanding of the efficacy of 
the TAP and where we need to improve.

CURRICULUM AND OTHER ENHANCEMENTS ACROSS THE MLC

    The second and fourth core objectives of the original TAP redesign 
were to implement a revamped TAP curriculum and implement a MLC 
transition model. While both original objectives were achieved, the 
Department has continued to make advancements.
    The Department and our partners continuously update and improve the 
TAP curriculum across the MLC. The TAP interagency governance has 
established a regular 2-year battle rhythm for reviewing, assessing, 
and updating the curriculum, alternating between an in-depth and 
technical review. Both reviews use feedback provided by Service members 
through the Transition GPS Participant Assessment, facilitators, 
subject matter experts, and other key stakeholders. This systematic 
review process is critical to stay ahead of the changing needs of our 
transitioning Service members, as well as the evolving global economic 
needs to provide qualified skilled talent to the industry and public 
sector pipeline.
    The TAP interagency governance is currently conducting an in-depth 
curriculum review, with revised curriculum to be implemented in CY 
2018. The Department identified improvements in all four DoD modules: 
Resilient Transitions, Financial Planning for Transition, Military 
Occupation Code (MOC) Crosswalk, and the Accessing Higher Education 
(AHE) track. Based on Service member feedback, recent legislative 
changes, and recent research on challenges transitioning Service 
members face in their first 12 months post-separation, more substantial 
revisions are planned for the Resilient Transitions and Financial 
Planning modules this year. The MOC Crosswalk and AHE curriculum were 
substantially revised during the last in-depth review in 2015.
    In terms of this year's in-depth review, the improved Resilient 
Transitions module will include a new interactive activity to promote 
participant discussion on transition challenges and available post-
transition resources, as well as a discussion on key differences 
between military and civilian workplace culture. In terms of the 
Financial Planning module, this module will be further tailored to 
transition in accordance with new financial literacy requirements 
specified in the FY2016 National Defense Authorization Act. With 
financial readiness training occurring across the MLC, Service members 
demonstrate a higher level of knowledge regarding financial readiness 
when they attend the TAP. As such, this TAP module can spend less time 
on basic financial information and more time on transition-specific 
information, such as civilian salary equivalency to military 
compensation, expectation of changes in tax burden, and understanding 
the basics of health insurance.
    These proposed DoD revisions were piloted at two military 
installations with participants from all Military Services in October 
2017, with planned deployment in January 2018 along with the revised 
U.S. Small Business Administration Entrepreneurship Track. Likewise, 
the DOL and VA planned improvements will be piloted early CY 2018, with 
planned deployment in April 2018.
    While the TAP interagency governance continues to improve the 
curriculum at the final touchpoint - Transition - within a Service 
member's MLC, we are also making advances across the MLC as well. 
Through implementation of the MLC transition model, Service members are 
engaging in career preparation and transition assistance planning much 
earlier in their careers - starting at their first permanent duty 
station, or home station for the National Guard and Reserves. This 
represents a significant, yet critical cultural shift for the 
Department. For example, at the first permanent duty station, Service 
members develop an Individual Development Plan (IDP) which documents 
professional and personal goals, as well as the training, 
certifications, and higher education needed to achieve those goals. 
Service members are also provided information on apprenticeships, 
instruction on resumes and financial preparedness, and they register 
for eBenefits. As their career progresses, their IDP is continuously 
updated with current certifications, technical training and 
documentation of higher education. At significant life events, such as 
promotion, military occupational change and/or marriage, Service 
members are provided updated information on impacts to financial 
readiness and career opportunities, among other key touchpoint 
activities. As another example, in October 2015, the Department began 
providing a new virtual curriculum earlier in the MLC - the Higher 
Education Preparation module. This module is designed to assist Service 
members in identifying their career goal, the educational path to 
achieve that goal, and utilizing tuition assistance (during military 
service) to fund their education. The Department is also currently 
collaborating with our TAP interagency partners to identify additional 
curriculum and/or other resources to provide Service members at earlier 
touchpoints across the MLC. The intent is to ensure thoughtful career 
planning and preparation across one's military career.

CAPSTONE EVENT AND ASSISTING AT-RISK SERVICE MEMBERS

    The third core objective of the original TAP redesign was to 
implement a Capstone event to ensure: Service members complete the VOW 
Act requirements; meet the CRS; and have a viable Individual Transition 
Plan (ITP), including a post-transition housing and transportation 
plan. For Service members who fail to meet one or more of these 
criteria, the Military Services provide a warm handover to appropriate 
partner agencies and other relevant resources. This core objective was 
achieved.
    However, while the warm handover process was robust for those 
failing to meet VOW/CRS, DoD and our interagency partners identified 
areas within the warm handover process in need of improvement. For 
example, since 2013, the Services identified transitioning Service 
members without a viable post-transition housing plan who are at an 
increased risk for homelessness. It was evident after reviewing warm 
handover data in late 2015, that more needed to be done to improve the 
execution and monitoring of the warm handover. The Department also 
recognized Service members separating without an honorable discharge 
face increased risks (e.g., for suicide). The Department sought to 
strengthen our support to these two vulnerable populations. 
Specifically, in April 2016, DoD issued two Memoranda to the Services 
to address these concerns. The first Memorandum, entitled ``Warm 
Handover Guidance for Transitioning Service Members Without a Post-
Military Housing Plan,'' requested the Services issue immediate 
guidance requiring commanders and their designees to ensure a warm 
handover to the VA and/or the DOL for those transitioning Service 
members without a viable post-military housing plan. The second 
Memorandum, entitled ``Warm Handover Guidance for Transitioning Service 
Members Who Do Not Separate with an Honorable Discharge,'' requested 
the Military Services issue guidance immediately to commanders or their 
designees directing them to execute a warm handover to the DOL for 
those transitioning Service members that do not separate with an 
honorable discharge. The Department continues to place emphasis on 
these at-risk populations to ensure they are receiving the additional 
support needed. For example, DoD, VA, and DOL are working in 
collaboration with the U.S. Interagency Council on Homelessness (USICH) 
to further prevent homelessness among our veterans.
    DoD and VA have also been recently collaborating to begin examining 
other `at risk' populations that may be better served during their 
military-to-civilian transition in FY 2018. This may have implications 
for future changes to the TAP curriculum and/or warm handover 
processes. For example, one of our more recent joint efforts is geared 
toward suicide prevention of Service members and veterans. Within this 
broader joint effort is the establishment of a DoD/VA Transition 
Working Group focused on identifying the population at risk for suicide 
following a military-to-civilian transition, and ways in which to 
better support this high risk population prior to separation. Another 
population at higher risk for suicide is women veterans. The Department 
and the VA are initiating a new ``Women's Health Initiative'' pilot 
study, to be implemented at several Air Force and Army installations. 
The pilot focusing on women veterans separating within 12 months, will 
provide supplementary information on VA services specifically available 
to women and track associated outcomes (e.g., enrollment in VA health 
care). Based on the pilot findings this supplementary curriculum may be 
implemented more broadly in the future to address needs of 
transitioning women Service members and veterans.
    Finally, while not an `at risk' population per se, the Department 
continues to review whether we are providing the National Guard (Air 
and Army National Guard) and the Reserves (Army, Navy, Air Force, and 
Marine Corps Reserve) the time, resources, and support unique to those 
populations. Specifically, the Department is leveraging the Status of 
Forces Survey (SOFS) to pulse Reserve Component (RC) members' 
perceptions of the TAP, and how perceptions are changing over time. The 
Department also recently commissioned a research study, entitled 
``Needs Assessment of Reserve Component Member Transitions,'' to more 
comprehensively investigate the needs of transitioning RC members and 
provide recommendations regarding updates needed to the TAP. Study 
findings are expected in FY 2019. The Department continues to conduct 
research, gather feedback from RC members, and consider potential 
changes to policy within current law to address unique needs of RC 
members.

PRIVATE AND PUBLIC ENGAGEMENT

    Another area Department has made improvements and continues to 
break new ground is through implementation of collaborative and 
informative private and public engagements between the Department, 
federal interagency partners, the Military Services, transitioning 
Service members, employers, and other stakeholders. First, the 
Department maintains robust private and public engagement operations to 
raise awareness of the value transitioning Service members and veterans 
bring to the civilian workforce. In fact, we disseminate to employers 
the findings from a recent RAND Corporation study, which enumerates the 
non-technical ``essential'' skills (e.g., leadership, decision-making, 
team building) our Service members obtain while in uniform. These 
essential skills represent the 21st century workforce skills that are 
highly sought after by civilian and public-sector employers.
    Second, the Department connects with, informs, and strengthens 
private and public efforts to better prepare transitioning Service 
members to become career-ready as they transition to civilian life. 
Since August 2016, the Department completed over 200 private and public 
engagements with Federal, State, industry, education, and community 
stakeholders. The Department established collaborative relationships 
and partnerships through participation in the DOL's Advisory Committee 
on Veterans' Employment, Training, and Employer Outreach and through 
interactions with over 25 federal Departments/Agencies. Best practices 
have been garnered and shared through engagements across the country 
with over 30 industries/corporations (e.g., Microsoft, Walmart, Amazon, 
J.P. Morgan Chase), over 20 two-year and four-year colleges and 
universities (e.g., Columbia University, Carnegie Mellon University, 
Duke, University of Houston, University of Washington-Tacoma), and 
numerous Service member/veteran-focused institution and coalitions 
(e.g., the Bush Institute, the Institute for Veterans and Military 
Families, the Veterans Jobs Mission Coalition).
    Two examples of key private and public engagements include 
collaboration with the U.S. Customs and Border Patrol and our 
partnership with the U.S. Chamber of Commerce Foundation's Hiring Our 
Heroes Program. The U.S. Customs and Border Patrol staff are now co-
located on several military installations to connect with interested 
and qualified transitioning Service members. In close collaboration 
with DoD and the Services, CBP has made significant changes to their 
recruitment requirements and business processes to streamline and 
reduce the amount of time it takes to process applications for 
employment. Another key engagement that has paid great dividends is our 
collaboration with the U.S. Chamber of Commerce Foundation's Hiring Our 
Heroes Transition Summits. Over the past two years, our partnership has 
grown from 17 annual transition summits at military installations 
around the world to over 40 transition summits scheduled for CY 2018, 
including Germany, Japan, and Korea. Each summit connects employers of 
every size and industry with, on average, more than 1,000 talented 
transitioning Service members, veterans, and military spouses on 
military installations in the U.S. and overseas. Attendees are invited 
to participate in a series of town hall-style panel discussions, 
networking receptions, employment workshops, and a job fair. Over 90% 
of Service member attendees who responded to a post-event survey 
identified they felt better prepared for transition after attending 
these events.
    The Department remains fully committed to collaboration with 
Federal, State, industry, education, and community stakeholders to 
ensure continuous coordination and information sharing. This ensures 
Service members receive access to education, training, and 
opportunities that best prepare them for their military-to-civilian 
transition. Private and public engagements directly support and enhance 
stakeholder commitments that support successful transition of our 
Service members.
    These are several improvements to the TAP since 2015. The 
Department, the Services, our interagency partners, transitioning 
Service members and their families recognize the tremendous 
enhancements to the TAP over the past two years. In addition, the 
Department appreciates the importance placed on the TAP by Congress and 
the GAO. We view the recent GAO study on the TAP as an opportunity to 
receive external feedback to further advance this important program.

GAO REPORT RECOMMENDATIONS

    Before addressing the recommendations from the GAO Report on 
``Transitioning Veterans - DoD Needs to Improve Performance Reporting 
and Monitoring for the Transition Assistance Program,'' DoD would like 
to acknowledge GAO's tremendous work in conducting this review of the 
TAP. The GAO team leading this effort was professional, thorough, and 
supportive of the unique needs of DoD, the Military Services and the 
installations they visited. There was a collaborative and cordial 
spirit among the GAO team and the various DoD stakeholders that allowed 
GAO to conduct their business in a timely and effective manner.
    In light of the redesigned TAP, Congress asked GAO to examine 
various aspects of the program implementation. This GAO report 
addresses four overarching questions: 1) To what extent does DoD 
publicly report TAP performance transparency; 2) How many Service 
members participated in TAP and what factors affected participation; 3) 
How many service members met CRS or received referrals to partner 
agencies for additional services; and 4) To what extent does DoD 
monitor key areas of the TAP implementation and how well do the TAP 
performance measures inform these monitoring efforts?
    In order to address these questions, GAO surveyed 181 Military 
installations; analyzed DoD participation data for FY 2016; reviewed 
and analyzed TAP data reports and performance measures; and interviewed 
officials at DoD, the Services, Service members, and our interagency 
partners. GAO also visited seven installations (two each from Army, 
Navy, and Air Force, and one Marine Corps). The audit was conducted 
from February 2016 to September 2017. As a result, GAO states in their 
report, ``GAO is making six recommendations, including that DoD improve 
transparency in reporting TAP participation and career readiness rates 
and monitor certain key areas of TAP implementation, including 
timeliness of participation and access to supplemental 2-day classes.''
    The Department acknowledges at the outset that, overall, we concur 
with GAO recommendations for the TAP. However, there is one 
recommendation, and sections of a few other recommendations, that the 
Department does not fully support. The Department's position on each 
GAO recommendation is as follows:

    RECOMMENDATION 1: GAO recommends the Secretary of Defense publicly 
report DoD's performance and career readiness attainment for all TAP-
eligible Service members and members of the National Guard and Reserve 
rather than exclude those for whom data are missing or clarify the 
extent of missing data. (DoD Partially Concur)

    DoD acknowledges the FY 2016 Agency Priority Goals (APG) 
performance measures provided to the public via performance.gov did not 
provide a clear explanation regarding missing data. However, in FY 2017 
DoD provided language in reporting the APG performance measures data 
that clearly addressed the extent of the missing data for the public. 
The following is an extract of DoD's Transition to Veterans Program 
Office FY 2017 third quarter ``Separation VOW Compliance Reserve 
Component'' performance measure language, as reported through DoD 
channels for publication to the public via performance.gov: 
``Compliance rate reflects only the known eligible Service members, 
that is - those for whom a completed DD Form 2648 (or legacy DD Form 
2958) was received by the Defense Manpower Data Center (DMDC). Through 
May FYTD 2017, DMDC received completed DD Forms for 41.0% (8,953) of 
the 21,861 Reserve Component VOW Act eligible separations.'' Similar 
language was used in reporting VOW Compliance for active duty service 
members.
    In addition to the currently reported VOW Act compliance and career 
readiness standards attainment for VOW Act eligible Service members, 
DoD will provide a more transparent description of the extent of the 
missing data along with the currently reported compliance rates to 
offer important insight as to the number of Service members for whom 
data is unknown. The Department feels strongly that compliance should 
only be computed based on data known and should include a description 
of the extent of the missing data to offer insight as to the number of 
Service members for who compliance data is unknown. This information 
will be included in the FY 2018 Q1 reporting and beyond. As stated 
above, an explanation of the extent of missing, unknown data has been 
included in the DoD Agency Priority Goal: Transition to Veterans 
reporting for FY 2017, which was outside the scope of GAO's analysis 
for this report. DoD will also continue working to reduce the extent of 
missing data, as it is critical to be able to track VOW Act compliance 
and CRS attainment of all of our transitioning Service members.

    RECOMMENDATION 2: GAO recommends the Secretary of Defense monitor 
and report on the extent to which Service members participate in TAP 
within prescribed timeframes. (DoD Concur)

    The Department acknowledges tracking when Service members 
participate in TAP is valuable for effective transition preparation. 
DoD currently has the capability to retrieve data documenting when a 
Service member begins the TAP process (i.e., with the Pre-Separation/
Transition Counseling signature date) and his/her separation date. 
Comparing these dates can determine the extent to which Service members 
participate in TAP within prescribed timeframes. Likewise, DoD can 
compare the Capstone event completion date to the Service member's 
separation date. However, the currently collected data will not allow 
for parsing out Service members who are short-notice separations; and, 
therefore, could not adhere to the prescribed timeframes. The 
capability to parse out such transition cases is critical for proper 
interpretation of the data and use of this data for future program 
improvements. In order to implement this recommendation, DoD will first 
need to identify the IT requirement and associated cost (for example, 
what new field(s) may need to be added to the electronic form (DD Form 
2648)), as well as any needed TAP staff training, to collect data 
denoting short-notice separations. Based on availability of funds for 
FY 2019, DoD anticipates the earliest this data can be collected will 
be FY 2019, and the earliest for monitoring and accurate reporting of 
the data will be FY 2020.

    RECOMMENDATION 3: GAO recommends that the Secretary of Defense 
monitor and report on the extent to which Service members who elect to 
receive supplementary 2-day classes are able to receive training. (DoD 
Non-concur)

    The Department does not concur with this recommendation. The focus 
of the current TAP is for transitioning Service members to meet CRS. 
Nine CRS are deemed common and applicable to all Service members. 
Moreover, for Service members interested in pursuing higher education 
and/or career technical training as part of their ITP, they must also 
meet four additional educational-oriented CRS. The 2-day tracks were 
developed and made available to help those who need assistance in 
meeting these additional CRS. While the additional 2-day tracks are 
voluntary, Service members are encouraged to take advantage of these 
tracks. All Service members are able to participate in the additional 
2-day tracks, as these tracks are available both via classroom setting 
and online through Joint Knowledge Online. While DoD does track the 
extent to which Service members attend the 2-day tracks, it is 
important to note that CRS attainment, not simply course participation, 
is the critical variable to monitor and report. DoD will research 
barriers to Service members accessing the additional 2-day tracks.

    RECOMMENDATION 4: GAO recommends that the Secretary of Defense 
monitor and report on the extent to which service members attend TAP in 
a classroom settings unless allowed by regulation to participate 
online. (DoD Concur)

    The Department acknowledges tracking whether Service members 
participated in TAP in a classroom setting or online is important. This 
is feasible with existing data. However, it is not uncommon for Service 
members to take TAP courses both in a classroom and online. DoD only 
tracks Service member participation for their most recent TAP courses. 
For example, if a Service member completed the Accessing Higher 
Education Track in the classroom first and then completed it again 
online for a refresher, this would be tracked as online participation. 
DoD anticipates the monitoring and reporting of the extent to which 
Service members participate in TAP via a classroom setting or online 
(using their most recently completed TAP course) will be by FY 2019. 
Currently, data collected by DoD does not capture the reason a Service 
member completes TAP online. The Department will need to identify 
whether this particular data point could be captured (and how). Upon 
completion of this research, DoD anticipates having the ability to 
determine whether this action will be feasible and its associated 
estimated funding requirements in FY 2019.

    RECOMMENDATION 5: GAO recommends that once DoD monitors and reports 
data on timeliness, 2-day classes, and the use of online TAP, DoD 
enable unit commanders and high-level commanders to access this 
information to help ensure the specific units they oversee are 
compliant with all TAP requirements. (DoD Partially Concur)

    The Department concurs once the capability to collect, track, and 
report data on TAP participation timeliness and the extent of online 
and classroom TAP participation has been accomplished, within 12 months 
the data will be provided to commanders when feasible. The intent of 
this recommendation should be met at the Service level. Each Service 
has transition staff who can make this information available to 
commanders. For example, the Air Force Airman and Family Readiness 
Centers are responsible for reporting/advising commanders on unit 
participation. Army Soldier-For-Life installation staff have the same 
capability, as do the other Services' transition staffs.

    RECOMMENDATION 6: GAO recommends that the Secretary of Defense seek 
ways to minimize the subjectivity involved in career readiness 
determinations, particularly when judgements are involved, such as the 
quality of the individual transition plan and the resume. This could 
include developing guidance on training that provides quality standards 
for assessing career readiness materials. (DoD Concur)

    The Department will work with the Services and DOL to minimize the 
subjectivity in judgments involving determining Service member 
attainment of particular CRS, such as the quality of the resume or job 
application package. This may include developing guidance on quality 
standards for assessing particular career readiness materials. The 
Services have personnel at the installation level who are trained in 
resume writing/review and career planning, and provide quality of life 
guidance to transitioning Service members and families. Installations 
may also call upon their local DOL partners for further support. If 
questions do arise, for example from a Commander about whether the 
quality of the resume is suitable for CRS attainment, Service members 
should be referred to their local transition personnel at the Fleet and 
Family Support Center, Airman and Family Readiness Center, Soldier-For-
Life Transition Assistance Center, or the Marine Corps Community 
Service Center, as well as DOL, for additional evaluation and support. 
Finally, Commanders must be allowed the ability to exercise their best 
judgement on CRS attainment for their Service members, with the full 
knowledge that they have experts available to assist them housed within 
their respective centers that provide transition assistance at their 
installation. DoD will work with the Services and DOL to examine and 
implement ways to minimize subjectivity in judgments involving 
determining Service member attainment of particular CRS, by the end of 
FY 2018.

CONCLUSION

    Career readiness and transition assistance preparation is paramount 
if Service members are going to successfully transition to civilian 
life. We recognize preparing Service members throughout their MLC to be 
career-ready upon transition is essential to sustaining the All-
Volunteer Force. In order for us to continue to attract dedicated, high 
quality volunteers to serve in our Armed Forces, the DoD must return 
this generation of Service members to the Nation with the ability to 
positively contribute to the national workforce and thrive within their 
civilian communities.
    The Department cannot successfully transition Service members to 
civilian careers alone. It must have continued strong collaboration 
with our interagency partners, the support and hard work of our 
Military Services, especially at the installation level, and 
collaboration with other external stakeholders. The TAP interagency 
governance is vibrant, effective, responsive, and committed, as 
evidenced by the 2016 signing of our updated national Memorandum of 
Understanding (MOU) regarding the ``Transition Assistance Program for 
Service Members Transitioning from Active Duty.'' As stated in the MOU, 
``The parties will support and advance the ongoing implementation, 
assessment, and enhancement of TAP. This collaboration will serve to 
support Service members in pursuing employment, higher education, 
skills and career training, credentialing, and entrepreneurship.''
    Again, let me thank the GAO for their comprehensive and insightful 
report and recommendations to further advance the TAP for the Nation. 
In closing, Mr. Chairman, I thank you, the Ranking Member, and the 
members of this Subcommittee for your outstanding and continued support 
of the men and women who proudly wear the uniform in defense of our 
great Nation.

                                 <F-dash>
         Prepared Statement of Brigadier General Robert Bennett
    Chairman Arrington, Ranking Member O'Rourke, members of the 
subcommittee, I would like to express my appreciation for the 
opportunity to appear before you to discuss the Army's Soldier for Life 
- Transition Assistance Program, or SFL-TAP. SFL-TAP is first and 
foremost a Commander's Program. SFL-TAP mandates several courses, based 
on the Veterans Opportunity to Work (VOW) Act, and also includes other 
required courses, or Career Readiness Standards (CRS), that help 
prepare Soldiers for their transition from active duty.

Soldier for Life - Transition Assistance Program VOW Requirements

    SFL-TAP requires all eligible transitioning Soldiers to complete 
the VOW to Hire Heroes Act requirements, which include Pre-separation 
Counseling, Department of Labor Employment Workshop, and VA Benefits 
Briefings I and II.
    In fall 2017, the Government Accountability Office (GAO) provided a 
draft review of Transitioning Veterans: DoD Needs to Improve 
Performance Reporting and Monitoring for the Transition Assistance 
Program. Army concurs with all six recommendations found in the draft 
report. Army's SFL-TAP XXI system currently captures most required data 
elements needed to implement report recommendation numbers 1 through 5. 
We will continue to work very closely with OSD Transition to Veterans 
Program Office (TVPO) in order to identify an optimal way ahead for 
synergistically leveraging and interfacing the data capturing and 
reporting capabilities of the DoD TAP Enterprise System with our own 
SFL-TAP XXI system.
    While the Army is very proud of the significant role it has played, 
along with our DoD, Sister Services, and Interagency Partners, in 
developing and implementing the myriad of major enhancements that have 
been made to TAP since the passage of the VOW Act (thereby benefiting 
hundreds of thousands of transitioning service members), Army believes 
that there is one important area in which TAP could and should continue 
to evolve, that is, with respect to the timely receipt of key ``post 
transition from active duty'' outcome data from our interagency 
partners. For example, Soldiers who are deemed by their Commander to 
have not met their CRS prior to transition from active duty are given a 
``Warm Handover'' to the VA or Department of Labor (DOL) for follow-on 
post transition assistance.
    Army strongly believes that receiving feedback from our interagency 
partners on both the type of assistance provided as well as the outcome 
(result) of such assistance is critical to our ability to accurately 
gauge and assess the overall long-term efficacy of our efforts. Such 
feedback, when timely, would greatly assist us in identifying what is 
working effectively as well as any TAP elements or processes in need of 
revision or improvement. Army currently does not receive any specific 
feedback (data) from our interagency partners on the results of warm 
handovers. We continue to closely collaborate with them (both at the 
TAP Governance Senior Leader level as well as at the action officer 
subject matter expert working group level) on developing a strategy to 
facilitate the flow of this key data.
    Army utilizes a multifaceted approach in disseminating the 
importance of TAP and additional resources throughout a Service 
member's military career. Under current Army policy, Soldiers are 
required to be counseled by their unit leadership within six months of 
arrival at their first permanent duty. This counseling on Army 
responsibilities and opportunities includes the requirement to create 
an Individual Development Plan. Newly arrived Soldiers are also 
referred to installation Army Education Centers where they meet with 
counselors and receive information on educational and credentialing 
opportunities available to them (e.g., Army COOL).
    Soldiers continue to receive other timely transition/career/
opportunity related information at key touchpoints (e.g., promotion) 
throughout their military career. The Soldier for Life - Transition 
Assistance Program makes both traditional and emerging strategic 
communication efforts a priority to communicate efforts to leaders, 
Soldiers, Family members, and stakeholders. The program continues to 
actively engage media, including frequent articles in Army magazines, 
installation papers, and national media outlets. SFL-TAP engages in 
other traditional marketing through posters, banners, flyers, Fact 
Sheets, Information Papers, briefings to commanders (such as the 
Company Commander/First Sergeant Course and the Pre-Command Course), 
and promotion of the program throughout the Soldier Life Cycle. Through 
a robust social media strategy, which includes Twitter, Facebook, 
LinkedIn, LinkedIn Groups, and YouTube, SFL-TAP reaches thousands of 
veterans, employers, and transitioning Soldiers every day. SFL-TAP 
Centers at the installation level often have active Facebook pages and 
other social media platforms as well.
    With respect to recommendation number 6, which focuses on seeking 
ways to minimize the subjectivity involved in making career readiness 
determinations, Army believes it will be essential to implement this 
recommendation in such a way so as to preserve the flexibility of TAP. 
The career readiness determination needs to be equipped with more 
objective standards, yet avoid establishing a ``one size fits all'' 
solution that is incapable of tailoring to the individual Service 
member.
    In addition to DoD's TAP reporting systems, the Army utilizes TAP-
XXI, which is the Army's ``system of record,'' in order to provide 
commanders at the lowest level, key information and reports to fulfil 
their responsibilities under SFL-TAP policy and law. TAP-XXI has two 
primary functions, client management and reporting. TAP-XXI reporting 
consolidates key transition data from several Army HR systems of record 
which allows company commanders to correctly identify Soldiers required 
to complete the TAP curriculum. The client management portal of TAP-XXI 
allows counselors and Soldiers to schedule attendance and track 
completion during the distributed timeline (i.e, over an extended 
period). Army strongly encourages Transitioning Soldiers to utilize the 
SFL-TAP resources early and often.
    These reports help ensure the Soldier is career ready and prepared 
for their civilian transition. Those that are successful in transition 
become advocates for recruiting future Soldiers. Fine-tuning TAP-XXI 
into the most comprehensive TAP management system has allowed Army 
civilian counselors to better track individual compliance and 
satisfaction with the program.
    The first full year of tracking compliance for the VOW Act was in 
fiscal year 2013. During that time, the Army received a compliance rate 
of 4.5 percent. However, SFL-TAP has seen improvement since then, 
reaching an 85 percent compliance rate in fiscal year 2016 (DoDTAP 
reported 76% for Army) and an 88 percent compliance rate in fiscal year 
2017 (DoDTAP reported 84% for Army). Those who do not meet VOW 
requirements are given a warm-handover to the Department of Labor and/
or Veterans Affairs, as appropriate.
    As our compliance rate and commander involvement have increased, 
the Army has seen a vast reduction in unemployment compensation 
expenses.

Army Improves Unemployment Compensation for Ex-Service Members (UCX)

    The Army closed out fiscal year 2016 with the lowest amount of 
Unemployment Compensation for Ex-Service members (UCX) in 13 years at 
$172.8 million, according to the Department of Labor.
    Fiscal year 2016 is the first time UCX has dipped below the $200 
million mark since 2003, where it closed out at $152 million. Army UCX 
expenditures peaked in 2011 at $515 million and have been decreasing 
since that time due to a combination of economic factors and Army 
efforts to better prepare Soldiers for the civilian sector.
    Integrating Soldiers back into the civilian world successfully 
depends on a number of determinants, including civilian industry 
knowledge of valuable Veteran skill sets, dispelling myths about 
Veterans, as well as local economic conditions.
    Army UCX numbers are on-track to break another all-time low in 
fiscal year 2017. We expect to receive final Fiscal Year 17 data by 
mid-November.

Program Funding

    All validated requirements are provided for and funded across the 
Future Years Defense Program (FYDP).
    In fiscal year 2017, the Army requested $87.7 million for Active 
Army, Army National Guard, and Army Reserve for the transition program. 
In fiscal year 2018, the Army has requested $86.3 million. The Army has 
received this funding and is using it to provide transition services at 
the validated requirements level.

Transition Pilot Program

    The SFL-TAP Transition Pilot started in November 2016 at six Army 
installations. The pilot is designed to evaluate tailored transition 
assistance for Soldiers, based on their assessed ``risk level'' for 
drawing unemployment. The objective is to better allocate resources to 
those that need additional support during the transition process. The 
pilot focuses primarily on transition requirements for eligible non-
retiring enlisted Soldiers.
    The goal of the pilot is to correlate the type and amount of 
mandated transition assistance services for a Soldier, with their 
likelihood of applying for unemployment compensation. Soldiers deemed 
to be at greater risk for being unemployed are required to participate 
in more mandated services than Soldiers less likely to apply for 
unemployment compensation. The ultimate objective of the pilot is to 
learn how to better tailor SFL-TAP requirements for all transitioning 
Soldiers, based on individual needs. The Army's Transition Pilot will 
last approximately two years from the start date and initial data from 
the pilot is expected in the spring of 2018. To date, approximately 
21,000 Soldiers are involved.

Army Career Skills Program

    The Department of Defense Skill Bridge program is implemented by 
the Army through the Career Skills Program, or CSP. CSPs include pre-
apprenticeships, on-the-job training, job-shadowing, employment skills 
training, and internships that transitioning Soldiers can attend during 
their last 180 days prior to transition from active duty. These first-
class programs afford Soldiers the opportunity to obtain industry-
recognized skills and move into high-demand and high-skilled jobs. In 
fiscal year 2016, 2,625 Soldiers enrolled in CSPs, with a 95 percent 
completion rate, which resulted in the job placement of approximately 
2,150 Soldiers. Fiscal year 2017 programs are on-target to exceed these 
milestones.
    The first Army CSP was established in April 2013 at Joint Base 
Lewis-McChord with United Association Veterans in Piping (UAVIP). UAVIP 
hosted 22 participants and since that time, the Army has approved over 
116 CSPs, hosted at 25 Army installations. The Army's CSP has resulted 
in over 4,600 employment opportunities for transitioning Soldiers. The 
program continues to grow each year.
    The Army works with the Office of the Secretary of Defense, as well 
as federal and non-federal entities, to determine potential programs to 
add to the Career Skills Program in order to increase civilian 
employment opportunities for transitioning Soldiers. The focus of CSP 
program offerings include ``no-cost'' opportunities with at least an 85 
percent graduation rate and of those graduates, an employment rate of 
at least 90 percent.

SFL-TAP Virtual Center

    The Army is the only Service that provides a virtual platform with 
transition services for Soldiers and other Service members. In addition 
to round-the-clock telephonic counseling, a virtual software interface 
provides a live forum for synchronous counselor-led transition services 
to clients all over the world all day, every day, with the exception of 
three holidays a year.
    The SFL-TAP Virtual Center is manned and trained to provide a full-
range of transition services. The Virtual Center provides transition 
services to deployed Soldiers and Service Members of all branches, as 
well as those that are remotely located stateside and unable to attend 
classes and counseling at a brick-and-mortar location. Though the 
Virtual Center is available to all Service Members, the preferred and 
recommended option for Service Members to receive transition services 
is through brick-and-mortar locations.
    The system provides clients and staff the ability to interact 
online through live classes and counseling sessions. The program allows 
clients to ask questions via a microphone or typed comments. Counselors 
and Soldiers have a full-range of communication and computer 
capabilities, including desktop sharing, document uploads/downloads, 
videos, webcams, and website links. Additionally, internal SFL-TAP 
program needs, such as meetings and training events, can be conducted 
inside the Virtual Center, saving both time and money.
    In fiscal year 2017, the SFL-TAP Virtual Center telephonically 
assisted over 43,000 Soldiers and provided transition counseling to 
over 15,000 Soldiers through the Virtual Center software. This is a 38% 
increase in the amount of calls received in fiscal year 2016. SFL-TAP 
has seen growth each year since the inception of the Virtual Center in 
October 2011. A service that originally received only 34 total calls in 
its first month, the Virtual Center in fiscal year 2018 is on track to 
set records for calls received, as the SFL-TAP Virtual Center has 
become a trusted resource for transitioning Soldiers.

Army Hosts Hire a Soldier Campaign

    The Army has increased our marketing efforts over the past fiscal 
year to include innovative online techniques. In the summer of 2017, 
SFL-TAP hosted their first social media campaign to encourage the 
hiring of transitioning Soldiers. The five-week campaign was supported 
by the Sergeant Major of the Army Daniel Dailey and featured a variety 
of events on Facebook and Twitter. The campaign brought together 
civilian employers and transitioning Soldiers, giving them the platform 
to discuss resume advice, job seeking tips, and transition 
opportunities.
    The main event of the campaign was a Twitter Chat on resume writing 
and job seeking skills. SFL-TAP partnered with Partnership for Youth 
Success (PaYS), Veterans Affairs (VA) Benefits Administration, Army 
Warrior Care and Transition (WCT), National Guard Citizen Soldier for 
Life (CSFL), Army Reserve Private Public Partnership (P3), and the 
Department of Labor Veterans Employment and Training Services (DOL 
VETS) for the Twitter Chat.
    The Twitter Chat used a hashtag (keyword categorization on Twitter) 
that the SFL-TAP Program Office created called #HireaSoldier. The 
hashtag gained so much interest and use that Twitter made it 
``trending'' on the platform, which lists the hashtag on the side of a 
user's home page as a popular topic. On the day of the Twitter Chat, 
the hashtag reached almost 4 million Twitter users, further spreading 
awareness of SFL-TAP and hiring Soldiers.
    The Twitter event and Facebook events provided the platform and 
conversation for companies to collect resumes from Soldiers that 
participated and initial reports showed that the interview process had 
started for Soldiers who had networked during the event. SFL-TAP plans 
to hold future events like this.

Conclusion

    The Army's SFL-TAP is committed to serve transitioning Soldiers 
throughout their transition process and help them become better 
prepared for the challenges and successes they will face in the 
civilian sector. To conclude, I thank you for your continued support. 
The Army is dedicated to being the leader of Department of Defense 
transition efforts by finding better ways to help our Soldiers and 
Veterans. Chairman Arrington, and members of the sub-committee, I thank 
you again for the opportunity to appear before you, and I look forward 
to your questions.

                                 <F-dash>
           Prepared Statement of Rear Admiral Karl O. Thomas
Introduction
    Chairman Arrington, Ranking Member O'Rourke, and distinguished 
members of this subcommittee, thank you for this opportunity to testify 
about the Navy Transition Assistance Program (TAP), and our efforts to 
seamlessly transition Sailors to civilian life, employment, further 
education, or entrepreneurship.
    In fiscal year 2017, approximately 32,000 Sailors transitioned out 
of the Navy, and these numbers are likely to be comparable over the 
next several years. Navy is an expeditionary force that routinely 
deploys. Our Sailors serve in diverse career fields, among them, Navy 
Special Warfare, air traffic control, health care, advanced 
electronics, and nuclear power. Civilian employers routinely pursue 
Sailors as potential employees because of the world-class training and 
skills they obtain in the Navy, even as we offer incentives to retain 
these Sailors who possess critical skills needed to ensure fleet 
readiness. For both active and reserve component Sailors who separate, 
demobilize, or retire from the Navy, we offer a robust TAP to help them 
make a seamless transition to life beyond the Navy.

Transition Assistance Program

    Navy delivers TAP in collaboration with the Office of the Secretary 
of Defense; the Departments of Labor, Education, Veterans Affairs, 
Homeland Security; the Small Business Administration and the Office of 
Personnel Management. TAP includes the following elements:

    1) Career Readiness Standards (CRS) - A set of common, discreet, 
and measurable, transition ``readiness'' standards for Sailors to meet 
prior to separation. The desired end-state is for each Sailor to meet 
CRS for his/her chosen civilian career path and to complete a viable 
Individual Transition Plan (ITP) prior to departure from active duty. 
These standards are designed to increase each Sailor's abilities to 
successfully overcome any challenges they may face in pursuit of 
choosing a career path.

    2) Transition GPS (Goals, Plans, Success) Core Workshop Curriculum 
- A series of training that includes the Department of Labor (DoL) 
Employment Workshop (DoLEW), Department of Veterans Affairs (VA) 
Benefits Briefings, Financial Education, Military Occupational Code 
Crosswalk, Family/Special Issues, and an ITP review. Additionally, 
participants may select to attend two-day training tracks in Accessing 
Higher Education, Entrepreneurship, or Technical Training.

    3) Military Life Cycle - Incorporates preparation for Sailors' 
career transition throughout their military service - from accession 
through transition from the Navy and reintegration into civilian life. 
Today's transitioning Sailors are better prepared to transition to 
civilian life because of the continuing integration of this model.

    4) Capstone Event - A forum provided for Service members to 
validate CRS are met, and to refer members, as needed, for additional 
training or assistance prior to separation or retirement.

    Navy officials continue to work with representatives from the 
Office of the Secretary of Defense (OSD), the other Uniformed Services, 
and interagency partners, to evaluate and improve TAP. Sailors are 
encouraged to begin the transition process approximately 24-months, but 
no later than, 12-months prior to separation. During this period, each 
transitioning Sailor participates in mandatory pre-separation 
counseling (10 U.S. Code Sec. 1142) that introduces them to the various 
programs and services available to assist them.
    Navy provides the five-day Transition GPS Workshop at installations 
world-wide via our Fleet and Family Support Centers. Transition GPS 
Workshops may be tailored to the installation population or 
demographics of the class (e.g., retirees, seniority). Additionally, 
Fleet and Family Support Centers provide both individual and group 
transition counseling, career planning, resume-writing and other 
transition-related workshops.
    Navy Fleet and Family Support Centers also conduct first-term and 
mid-career workshops through the Career Options and Navy Skills 
Evaluation Program (CONSEP). This modular two-day course is designed to 
assist active duty service members in achieving Navy, and future 
civilian, career goals. Training topics provide vital information 
across the Military Life Cycle on career-making decisions, upward 
mobility, Veterans benefits while on active duty, college and 
certification opportunities, apprenticeships, and financial management 
and investment strategies, which enhance the Sailor's ability to 
achieve personal and professional success.

Navy Transition Assistance Core Workshop Curriculum

    The mandatory Navy Transition GPS Core Workshop is a five-day 
curriculum. For the typical workshop, on day one, Navy transition staff 
covers the following topics:

    1) Transition Assistance Overview: Includes a Welcome Address / 
Workshop Schedule-of-Activities, Topics for Family Considerations/
Special Issues, the Value of a Mentor, and a review of available Fleet 
and Family Support Services.

    2) Military Occupational Code (MOC) Crosswalk: Upon completing the 
MOC Crosswalk module, Sailors are provided documentation of their 
military career experience and skills; translation of their military 
occupation experience to civilian sector skills; and identification of 
gaps in their training and/or experience that need to be filled to meet 
their personal career goals. The MOC Crosswalk enables Sailors to 
develop a clear line-of-sight between their military skills and 
training and career fields of their choice.

    3) Financial Planning: The financial planning module prepares 
Sailors to build an integrated 12-month budget that reflects post-
military employment, education, or training goals. Financial planning 
counselors are available for follow-up counseling, if requested by the 
Sailor.

    Typically, on days two through four, the Department of Labor (DoL) 
delivers the approved Employment Workshop, while, on day five, the 
Department of Veterans of Affairs (VA) conducts VA Benefits I and II 
briefings. Each installation has the discretion to present TAP 
briefings in a sequence that best suits transitioning Sailors on their 
installation. During the workshop, Sailors also review progress on 
their Individual Transition Plans. Navy continues to improve our 
classroom delivery experience. We provide Transition GPS computer 
software and enhanced WiFi capability, greatly improving the classroom 
experience. In fiscal year 2017, Navy began replacing all 2,493 
Transition GPS computers with updated models, which run faster and have 
extended battery life. Along with the computer refresh, all 
information-technology equipment is being updated as needed including 
WiFi capacity, routers, scanners, printers, and associated equipment. 
This upgrade, which is 90 percent complete, will ensure Sailors have a 
real-time resource in the classroom to research job, education, and 
other transition-related opportunities.
    We continue to expand and adjust our delivery approach to 
accommodate Sailors in isolated locations by providing, in 
collaboration with VA and DoL, in-person Transition GPS classes at 
Naval Support Activity, Souda Bay, Crete; and Naval Fleet Activities, 
Chinhae, Korea. For deployed units with limited bandwidth, we recently 
received approval to have the Joint Knowledge Online virtual curriculum 
available on the Navy eLearning shipboard servers.

Education, Technical Training, and Entrepreneur Workshops

    In addition to completing the Transition GPS Core Curriculum, 
transitioning Sailors may also participate in a series of two-day 
tailored workshops which address three alternative tracks available 
within the Transition GPS curriculum:

    (1) Accessing Higher Education track, for those pursuing an 
advanced education degree;

    (2) Technical Training track, for those seeking job-ready skills 
and industry-recognized credentials in shorter-term training programs; 
and

    (3) Entrepreneurship track, for those planning to start a business.

Navy Capstone Event

    At least 90 days before separating from the Navy, Sailors are 
required to participate in a Navy-hosted Capstone Event, to validate 
the process, and verify that they have completed the Transition GPS 
curriculum and achieved Career Readiness Standards (CRS). Staff also 
reviews potential challenges Sailors may face as veterans, and 
available tools and resources transitioning Sailors learned about in 
Transition GPS workshops. Sailors requiring additional assistance are 
referred to supplemental training opportunities.
    Additionally, through the Capstone Event, all Sailors are referred 
to appropriate government agencies and organizations that will provide 
them with continued benefits, services, and support in their new 
capacity as Navy veterans, including completion of CRS, if they are not 
fully accomplished prior to separation. While beneficial for all 
transitioning Sailors, this is particularly instrumental in supporting 
at-risk Sailors, such as those subject to rapid or involuntarily 
separation.

Commander Support and Accountability

    Using the Navy Retention Monitoring System (NRMS) Analytics, and 
the current Career Information Management System (CIMS), commanders can 
track and monitor their own transition assistance program compliance. 
These systems provide commanders the capability to report and analyze 
active and reserve, officer and enlisted, Transition GPS data via ad 
hoc and standardized reports down to the unit level. Most importantly, 
the fleet has included TAP compliance as a criterion for the annual 
``Golden Anchor'' retention award, which recognizes commands with 
exceptional Sailor retention programs.

Guidance and Training

    Navy leverages an extensive professional network to keep the fleet 
informed about new policy changes and Transition GPS implementation 
challenges. TAP staff work with fleet engagement teams to coordinate 
with, and provide training to, Command Career Counselors worldwide on 
procedures, policies, new aspects of Transition GPS, and TAP reporting 
requirements, to ensure Sailors are afforded a viable plan for 
transition to civilian life. Coordinating efforts with Fleet and Force 
Career Counselors, Navy also provides pertinent information to the 
fleet through a series of messages and emails, a transition webpage, 
and Plain Talk for Sailors bulletins.

Military Life Cycle Transition Model

    TAP incorporates career readiness and transition preparation into 
the entire continuum of a Sailor's career. In the past, transition and 
preparation for the civilian workforce occurred late in a Sailor's 
military service - just prior to separation. Under this enhanced 
program, these concepts are incorporated earlier to ensure that 
counseling, assessments, and access to resources that build skills or 
establish credentials, occur earlier in a Sailor's military career.
    Navy leverages the Navy Retention and Career Development program, 
designed to improve Sailors' ability to achieve their professional 
goals, to facilitate the military life cycle. Individual Career 
Development Plans are created, based upon Career Roadmaps for each 
enlisted rating, with assistance from Navy Command Career Counselors. 
Rating Roadmaps include information on skill training, job description, 
personal and professional development, Career Development Boards, Navy 
qualifications and certifications, civilian occupations, Navy 
Credentialing Opportunities On-line (Navy COOL), United Services 
Military Apprenticeship Program (USMAP), Professional Military 
Education (PME), and Voluntary Education.
    Navy incorporates aspects of the Transition GPS curriculum into our 
Career Development Boards, which are routinely held during key points 
in a Sailor's career. Aligning these key activities with pre-determined 
``touch points'' facilitates individualized attention, together with 
instruction, resources, and services to build the skills necessary for 
each Sailor to meet their professional goals throughout their military 
career and beyond. Additionally, embedding touch points across the 
military lifecycle is particularly helpful in addressing at-risk 
Sailors who may require a higher level of support in meeting their 
goals. For example, we ensure that Sailors:

    (1) are registered for, and know about, eBenefits, a joint VA/
Department of Defense (DoD) web portal that provides resources and 
self-service capabilities to veterans, Service members, and their 
families; to research, access, and manage their VA military benefits 
and personal information;

    (2) are informed about VA benefits for which they are eligible 
while serving on active duty, as well as after they depart the service 
as Navy veterans; and

    (3) understand the importance of maintaining their personnel 
records, and obtaining credentials and certifications they have earned 
for skills obtained while serving in the Navy.

    The Career Development Program is a key component of transition. 
Essentially, a Sailor's Individual Career Development plan becomes 
their Individual Career Transition Plan.

Education and Credentialing Opportunities

    While serving on active duty, Sailors are encouraged to take 
advantage of programs that acknowledge military training and 
experience. Navy COOL supports Navy's career development and transition 
programs by helping Sailors gain civilian certifications and licenses 
for skills or academic degrees acquired during their service. This 
helps translate each Sailor's military training and experience into 
concrete documentation that prospective employers can easily recognize, 
and which demonstrates that a Sailor's skills are commensurate with, or 
exceed, those of their civilian counterparts. At least one 
certification is currently available in each of the 81 Navy enlisted 
ratings, as well as collateral duty and leadership occupations, with 
over 1,900 credentialing opportunities. Since program inception in 
October 2007, Navy COOL has provided support on over 165,000 
certifications and licenses for over 55,000 Sailors in every enlisted 
rating and pay grade. Navy also participates in the USMAP, which is a 
formal military training program that provides Sailors the opportunity 
to improve their job skills and complete civilian apprenticeship 
requirements while on active duty.
    In addition to the aforementioned programs, Navy funds educational 
opportunities that enhance post-military job-ready skills, and 
encourages transitioning Sailors to take full advantage of their GI 
Bill, and other education benefits, while serving on active duty. Many 
Sailors are enrolled in college, and some have already earned college 
degrees. Those interested in pursuing their education goals are 
strongly encouraged to attend the specialized Accessing Higher 
Education or Career and Technical Training track. Specifically, Sailors 
are briefed on these tracks during Transition GPS workshop, and 
required Pre-separation Counseling.

Employment Skills Training

    Navy encourages commanders, commanding officers and officers-in-
charge, when operational commitments permit, to authorize eligible 
Sailors to pursue employment skills training during their final 180 
days of active duty service using the DoD SkillBridge initiative. Navy 
has 16 programs with eight additional programs in the planning stages 
for fiscal year 2018. As of June 2017, 158 Navy personnel have 
completed SkillBridge programs with a job placement rate of 65 percent.
    Programs such as Onward-to-Opportunity (O2O) provide up to eight 
weeks of training for in-demand fields such as cybersecurity and 
software engineering. The O2O program is hosted at three Navy locations 
(Norfolk, VA; Jacksonville, FL; and San Diego, CA) with plans to 
expand. Navy is partnering with Microsoft and Amazon to provide 
employment skills training programs for fiscal year 2018, at various 
locations throughout the Navy enterprise, such as Gulfport, MS; 
Pensacola, FL; and Ventura County, CA.
    Veterans-in-piping (VIP) Pre-Apprenticeship at Naval Station, 
Norfolk, is considered a best practice program for DoD SkillBridge. The 
VIP is designed to fill a critical workforce need for welders in the 
Norfolk and Hampton Roads, VA, area and involves 18 continuous weeks of 
full-time classroom and on-the-job training sessions.

Government Accountability Office (GAO) Report

    Navy largely concurs with recommendations included in the draft GAO 
Report: ``Transitioning Veterans - DoD Needs to Improve Performance 
Reporting and Monitoring for the Transition Assistance Program,'' and 
already has several programs in place to support them, such as TAP 
requirements compliance-reporting at the unit level. With regard to the 
specific GAO recommendations:

    GAO Recommendation 1: We recommend that the Secretary of Defense 
publicly report DoD's performance and career readiness attainment for 
all TAP-eligible service members and members of the National Guard and 
Reserve rather than exclude those for whom data are missing or clarify 
the extent of missing data.
    Navy monitors compliance for Sailors with complete transition data 
and those with missing data, and continues to work to reduce the 
prevalence of missing data. We continue to see improvement in our 
Sailors meeting Veterans Opportunity to Work to Hire Heroes (VOW) Act 
requirements compliance. In fiscal year 2017, from October to August, 
total VOW Act compliance for Navy active and reserve Sailors was 84 
percent. Naval Audit Service is conducting an audit of TAP reporting to 
assist us in our compliance efforts.

    GAO Recommendation 2: We recommend that the Secretary of Defense 
monitor and report on the extent to which service members participate 
in TAP within prescribed timeframes.
    Navy will work with OSD to monitor and report Sailor completion of 
TAP requirements with the goal of driving earlier completion of TAP 
requirements and capturing short-notice separation data. Additionally, 
with the electronic Pre-Separation Counseling Checklist (DD Form 2648) 
and the TAP tracking system that we recently introduced, commanders 
have new tools to ensure compliance.

    GAO Recommendation 3: We recommend that the Secretary of Defense 
monitor and report on the extent to which service members who elect to 
receive supplementary 2-day classes are able to receive training.
    Navy policy mandates Sailor participation in these 2-day classes if 
required for a Sailor to meet his or her specific career readiness 
standards.

    GAO Recommendation 4: We recommend that the Secretary of Defense 
monitor and report on the extent which service members attend TAP in a 
classroom setting unless allowed by regulation to participate online.
    Navy is committed to providing in-person, instructor-led, training 
as the primary means of delivery, as evidenced by the 1,300 classes 
attended by over 42,000 Sailors this fiscal year.

    GAO Recommendation 5: We recommend that once DoD monitors and 
reports data timeliness, 2-day classes, and the use of online TAP, 
enable unit commander and high-level commanders to access this 
information to help ensure the specific units they oversee and are 
compliant with all TAP requirements.
    Navy has an information system in place to allow commanders to 
monitor TAP requirements compliance, and will continue to enhance this 
capability as the means to collect and track any new requirements.

    GAO Recommendation 6: We recommend that the Secretary of Defense 
seek ways to minimize the subjectivity involved in career readiness 
determinations, particularly when judgements are involved, such as the 
quality of the individual transition plan and the resume. This could 
include developing guidance on training that provides quality standards 
for assessing readiness materials.
    Navy will work with partner agencies to minimize subjectivity, for 
instance, by developing guidance on quality standards. Our Fleet and 
Family Support Center staff is trained in career readiness standard 
items, such as resume-writing, and hosts the Capstone event to review 
career readiness standards. Agency partners also are available to 
assist Sailors and commanders.
    We recognize that there is more to be done, and look forward to 
working with the Office of the Secretary of Defense, the other 
Uniformed Services, and partner agencies, to refine and improve the DoD 
transition process.

Conclusion

    Thank you for the opportunity to discuss Navy TAP and our 
continuous efforts to improve support for transitioning Navy veterans, 
in close cooperation with interagency partners. Each Sailor who 
selflessly serves our Nation in the all-volunteer force has earned our 
unwavering commitment to ensuring they possess the tools that position 
them for success as they transition, and as they continue serving our 
Nation as honored and distinguished veterans.
    We appreciate your steadfast support for all Navy men and women - 
active, reserve and veteran - and for the programs you authorize that 
sustain them, and their families, during and following their 
distinguished careers of voluntary service to the Navy and our Nation.

                                 <F-dash>
        Prepared Statement of Brigadier General Kathleen A. Cook
    For the past 70 years, the Total Force Airmen of America's Air 
Force have been breaking barriers as members of the finest joint 
warfighting team in the world. America's Airmen are highly trained and 
ready to fly, fight and win our nation's wars; however, these 
remarkable warriors and their families are feeling the strain 
associated with 26 years of ongoing overseas contingency operations, 
disaster relief missions, and funding constraints. As we look to the 
future, we continue to focus on our primary goal of supporting Air 
Force and Joint missions, as well as preparing our Airmen for a 
successful civilian life after transitioning from military service. Air 
Force leadership remain fully engaged and firmly committed to 
accomplishing these aims.
    Since the Air Force last appeared before Congress to discuss the 
Program in 2015, we have steadfastly focused on continuously improving 
support to our transitioning Airmen and their families in accordance 
with the Veterans Opportunity to Work to Hire Heroes Act of 2011. Our 
redesigned curriculum directs completion of mandated TAP activities for 
all eligible service members. Compliance requires completion of a pre-
separation counseling that for retiring members can be scheduled 24 
months before retiring, and for separating Airmen can attend up to 12 
months beforehand. Additional mandated activities include the 
Department of Labor Employment Workshop, Veterans Administration 
Benefits Briefings I and II, and the commander or designee approved 
Capstone review that verifies Career Readiness Standards have been met.
    Furthermore, we instituted a waiver for National Guard and Reserve 
Airmen to relieve repeated Program attendance requirements following 
each 180-day tour of active duty if they are immediately returning to 
active duty (i.e. subsequent 180-day tour) or are guaranteed follow-on 
civilian employment. These actions illustrate our commitment to the 
readiness of our Airmen, as well as to continuously improving and 
refining our Transition Assistance Program.
    The 2017 Government Accountability Office study identified six 
recommendations to improve transparency in reporting Program 
participation rates and monitoring participation timeliness and access 
to supplemental 2-day tracks, among other items. We concur or partially 
concur with five of the six recommendations.
    Specifically, we did not concur with the recommendation for the 
Department to monitor and report on the extent to which Service Members 
who elect to participate in supplementary 2-day tracks are able to 
receive training. The Air Force focuses on ensuring transitioning 
Airmen meet Career Readiness Standards, and the additive 2-day tracks 
were developed and made available on a voluntary basis to assist Airmen 
and supplement the Standards.. The additional 2-day tracks are 
electives available for all Airmen via a classroom setting and online 
through Joint Knowledge Online. While the Department does track the 2-
day class attendance, we would like to highlight that Standards 
attainment is the overarching goal. That said, we will work with our 
partners to identify whether access or availability barriers exist to 
Airmen who desire to attend the optional 2-day tracks.
    Additionally, we partially-concurred with the study's 
recommendation that the Department publicly report performance and 
career readiness attainment for all Program-eligible Total Force Airmen 
rather than exclude those for whom data are missing, or clarify the 
extent of the missing data. We acknowledge our participation rate 
information collection system lacked the fidelity to account for all 
Program-related data, resulting in missing data on some Airmen who may 
or may not have completed requirements. Specifically, our FY16 Agency 
Priority Goals performance measures provided to the public did not 
provide a clear explanation regarding the exclusion of the missing 
separation data from the reported performance totals. It was never our 
intent to misrepresent the Act's reported performance measures. 
Therefore, in FY17, we addressed the missing and unknown information 
concern by submitting language with the Office of Secretary of 
Defense's Agency Priority Goals performance measures data. Our intent 
is to ensure a clear description of the extent of the missing and 
unknown data is included along with the reported compliance rates for 
appropriate context. We are also working to reduce the occurrence of 
missing and unknown information and to improve our ability to track 
critical data required to validate the Act's compliance for all 
transitioning Airmen.
    Lastly, we partially concurred with Government Accountability 
Office's recommendation that the Department provide commanders access 
to timeliness, 2-day tracks, and the use of online Transition 
Assistance Program data. We partially concurred because we agree this 
is useful information for installation command leadership; however, it 
is already provided to commanders regularly through our Airman and 
Family Readiness Centers.
    As we continue to look for every opportunity to improve transition 
assistance for our Total Force Airmen and their families, we 
acknowledge tracking participation in the Program is valuable for 
ensuring Airmen receive effective transition assistance. The Air Force 
currently has the ability to retrieve data documenting when an Airman 
begins the Program process (via the Pre-Separation/Transition 
Counseling signature date) and his or her separation date to validate 
timeframe compliance. However, currently collected information will not 
allow for parsing out Airmen with short-notice separations (i.e., 
medical evaluation board decisions, disciplinary reasons, etc.) who 
could not adhere to the prescribed timeframes. The capability to 
extract such information is critical for proper interpretation of the 
data and use of this data for future Program improvements. We will 
research the information technology requirements and associated costs 
to procure this capability as we continue to work to improve our 
Program compliance.
    In addition to improved data reporting, the Air Force continues to 
change its Transition Assistance Program culture by embracing a ``begin 
with the end in mind'' framework. We recognize some Airmen will 
transition to civilian life before retirement eligibility and we 
prepare our Airmen for civilian life from the start of their military 
careers. We do this by leveraging our existing professional development 
programs as touchpoints in the Military Life Cycle Transition model 
along with encouraging greater cooperation between the various offices 
collaborating on transition initiatives. For example, for years, 
enlisted Airmen have been required to attend the First Term Airmen's 
Center program at their first permanent duty station. During this 
multi-day program, Airmen are introduced to many topics--including 
professional development opportunities and a four-hour financial 
readiness lesson, which includes developing a personal budget to help 
foster financial success, and ultimately mission readiness. Airmen are 
also introduced to the Military Life Cycle, which showcases how 
transition assistance information will be addressed throughout their 
career. Our Transition Assistance Program's Military Life Cycle 
touchpoints also include reenlistment, deployment, and permanent change 
of station counselings as well as off-duty education briefings and 
professional development information sessions. All aspects are designed 
to help prepare Airmen for success in the civilian sector after 
transitioning from military service.

CONCLUSION

    Airmen and their families serve, dedicated to answering our 
nation's call, making sacrifices for the good of the mission. We do 
everything we can to foster their success while in uniform, as well as 
during their transition from the military. Investments in them are 
inextricably linked to the Air Force's ability to recruit, train, 
develop, support and retain a world-class, all-volunteer Force. The Air 
Force remains committed to ensuring Airmen are ready for the challenges 
and opportunities of civilian life and we extend a great deal of 
gratitude to our private sector partners in supporting the ease of 
transition. With continued Congressional backing and the collective 
commitment of our interagency partners and Air Force leadership, we 
will ensure America's Total Force Airmen are ready when they transition 
to the private sector.

                                 <F-dash>
         Prepared Statement of Brigadier General Kurt W. Stein
                              INTRODUCTION
    Chairman Arrington, Ranking Member O'Rourke, and distinguished 
Members of the Subcommittee, it is my privilege to appear before you 
today to provide an update on the Marine Corps' Transition Readiness 
efforts. Your Marine Corps is by far the smallest military service in 
the Department of Defense, yet, by design, separates a much higher 
percentage of its force each year. Therefore, it is imperative that we 
ensure our Marines have the right preparation to reach personal goals 
and effectively translate their military experiences to a successful 
civilian life.
                               BACKGROUND
    The Marine Corps' Transition Readiness Program is a comprehensive 
transition and employment assistance program for Marines and their 
families, emphasizing a proactive approach that enables Marines to 
formulate effective post-transition entrepreneurship, employment, and 
educational goals. It provides Marines and their families with the 
tools and resources needed to complete Department of Defense (DoD) 
directed Career Readiness Standards (CRS). Overall, our efforts help 
ensure that Marines are prepared for their transition from military to 
civilian life.
    The Marine Corps' Transition Readiness Program incorporates a life 
cycle approach, called the Marine For Life Cycle (M4LC). The M4LC 
allows Marines to proactively gain awareness of career readiness 
preparations through nine defined action points throughout their 
military career. These action points are: (1) First Permanent Duty 
Station, (2) Re-enlistment (3) Promotion, (4) Deployment/Redeployment, 
(5) Permanent Change of Station, (6) Mobilization/Demobilization, (7) 
Major Life Events, (8) Separation/Retirement/Deactivation, and (9) 
Veteran. In further support of the M4LC, there is a dedicated website 
featuring the M4LC infographic, with action point checklists containing 
``Things to Do'' and ``Things to Know'' to assist Marines in being 
proactive throughout their military career.
    In three of the nine action points, we ask Marines to devote 
significant time and energy to their transition readiness:

    <bullet>  Personal Readiness Seminar (PRS). Four-hour seminar for 
Marines upon arrival at their first permanent duty station. The 
curriculum provides an overview of Personal & Professional Development 
services, as well as financial topics such as banking and financial 
services, saving and investing, the Blended Retirement System (BRS), 
living expenses, understanding debt, and service members' rights.
    <bullet>  ``Your Readiness'' Training. Online training hosted 
through our MarineNet portal that provides an overview of Personal & 
Professional Development services, reenlistment process, transition 
process, and the Individual Transition Plan. As an element of ``Leading 
Marines,'' this training is required for promotion to Corporal. In 
FY17, 32,188 Marines completed this training.
    <bullet>  Transition Readiness Seminar (TRS). A week-long program 
consisting of a standardized core curriculum to include Resilient 
Transitions, Military Occupation Specialty Crosswalk, Department of 
Labor Employment Workshop, Department of Veterans Affairs Benefits I 
and II Briefs, and Financial Planning.

    Additionally, the Marine Corps provides Skillbridge programs to 
provide career skills that connect military talent to in-demand careers 
in fields such as Trade Skills, Information Technology, Project 
Management, and Commercial Driver's licensing opportunities. Service 
members may participate in these programs within 180 days of their 
transition.
    Lastly, Marines are introduced to the Marine For Life Network, 
which facilitates the reach back and support to Marines and Marine 
veterans by identifying opportunities and exposure through our virtual 
LinkedIn and Facebook online community. Overall, the Marine For Life 
Network's online presence has experienced a 70 percent increase in 
social media subscribers since April 2016.
                  VOW ACT COMPLIANCE AND IMPROVEMENTS
    The Marine Corps carefully monitors our ``VOW to Hire Heroes Act 
(VOW Act)'' compliance rate. In FY17, total VOW Act compliance from 
October 2016 to August 2017 for all Marines was 73 percent for Active 
Component and Reserve Component. The percentages are based on the 
number of Marines who completed Pre-separation Counseling, VA Benefits, 
and the Department of Labor Workshop. Missing information for all 
eligible separating Marines remains a concern, and the Marine Corps 
will continue to seek answers to the causes and develop solutions for 
the Total Force that will increase VOW Act compliance.

    <bullet>  DoDTAP eForm. Effective 7 November 2016, the Transition 
Assistance Program (TAP) Electronic (eForm) and Enterprise Database was 
deployed DoD-wide. This combined the DD Form 2648/-1 and DD Form 2958 
into a single electronic DD Form 2648 to ease the transition process 
and improve data collections efforts. This database currently serves as 
the single authoritative source for all transition data, streamlining 
the data collection process for measuring VOW Act and CRS compliance, 
while creating efficiencies throughout the transition process. This has 
contributed to the steady increase in compliance for the Marine Corps 
as a fully functioning electronic process versus the previous paper-
based system.
    <bullet>  Personal Readiness Seminar (PRS). Having conducted this 
course for the past two years, we are starting to get feedback on the 
efficacy of this program. We reach back to participants annually and 
have found that our Marines are using principles taught in PRS to take 
advantage of opportunities aboard installations (i.e. financial and 
education counseling, credentialing, tuition assistance, etc.) and 
maintain their personal financial wellness.
    <bullet>  Virtual Training Tools. The Marine Corps has established 
an online tool kit through the Transition Readiness Program Sharepoint 
portal to support Commander's, Unit Transition Coordinators, and 
installation service providers. Materials in this portal include 
training materials, policies, inspections guides, checklists, and links 
to other resources in order to aid Commanders efforts in supporting 
their Marines successful transition.
    <bullet>  Command Profile. Currently there are tracking mechanisms 
in place to identify completion and timeliness of PRS, TRS and Capstone 
for Marines. In addition to this capability, the Marine Corps is 
integrating a dashboard in the Command Profile system that will provide 
current VOW Act compliance rate to all commands.

                        GAO TAP RECOMMENDATIONS
    The Marine Corps currently provides DoD with all prescribed data 
and will continue to collaborate on the respective DoD working groups 
to improve metric performance and provide any additional metrics 
required. With the advent of the eForm, we expect to be able reduce our 
gap with regard to missing data, therefore increasing compliance rates.
    Tracking Marines participation in TAP is valuable for ensuring 
Marines are prepared for their transition. In order to improve the 
timeliness of Marines participation in TAP, the Marine Corps has made 
the Transition Readiness Program part of the Inspector General of the 
Marine Corps' 37 Critical or Requiring Evaluation programs. This 
process includes a checklist identifying key items as part of the 
formal inspection, to include timeliness for the achievement of TRS and 
Capstone. Additionally, a separate tracking system within the Marine 
Corps has been implemented to track these two milestones.
    Current Marine Corps policy directs Commanding Officers to allow 
Marines the opportunity to attend the voluntary 2-day track programs in 
addition to the TRS. Along with TRS, and programs like Skillbridge, the 
2-day track programs offer Marines the option to increase their 
knowledge in desired post transition subjects. For FY17, these post 
transition subjects included the Career Technical Training Track (158 
sessions with 334 participants), Boots to Business (130 sessions with 
642 participants), and Accessing Higher Education (248 sessions with 
1,354 participants).
    The Marine Corps requires Marines to attend TAP in a classroom 
setting unless the Marine's duty station is more than 100 miles away 
from a transition service provider's installation or if he or she is 
incarcerated. Commanders are authorized to utilize Operations and 
Maintenance funds to support travel to a transition service provider. 
In all cases, authorization of an alternative virtual curriculum has to 
be approved by local supporting transition staff prior to completion.
    In the Marine Corps the first stage of Capstone review is conducted 
by trained and credentialed civilian transition staff who use the 
electronic DD Form 2648 as the guide to conduct important transition 
conversations with transitioning Marines, as well as to capture the 
outcome of those conversations for use by Commanders during the final 
stage of the Capstone process. Upon completion of Capstone review, the 
Commander (or designee) conducts the final interview and, if necessary, 
handover to inter-agency partners or back to the transition readiness 
staff for further support. Additionally, for new staff, we provide a 
Capstone quality review guide to assist and supplement the review of 
CRS. For Marines who are in geographically isolated locations, virtual 
Capstone review is provided by Marine Corps transition readiness staff 
to complete the process.
                               CONCLUSION
    Overall, the Marine Corps is proud of our Transition Readiness 
Programs. Our efforts result in an innovative program that meets the 
needs of our Marines and their families as they progress through their 
military life cycle and helps them transition successfully to civilian 
life. By providing these tangible learning or experienced based 
opportunities throughout the Marine for Life Cycle, we enable Marines 
and their families to be more effective and more ready for a successful 
transition from the Marine Corps. Nevertheless, we are always working 
with DoD and our Sister Services to assess our programs and make 
improvements, including leveraging new IT systems to improve 
participation and compliance with the VOW Act.
    Marines are the foundation of our Corps and are our most precious 
asset. They are proud of what they do. They are proud of the ``Eagle, 
Globe, and Anchor'' and carry this ethos with them as they transition 
from the Corps. By ensuring that we take care of all Marines and their 
families, we fulfill our responsibility to keep faith with the honor, 
courage, and commitment they have so freely given.
    Thank you for the opportunity to present this testimony.

                                 <F-dash>
                       Statements For The Record

                     ACCELERON LEARNING ON DoD TAP
    To the Honorable Members of the Economic Opportunity Sub-Committee:

    We've been invited by Chairman Arrington and Ranking Member 
O'Rourke to provide feedback on potential improvements to DoD TAP.
    Our organization, Acceleron Learning, teaches life skills - career, 
financial, legal, and personal wellness - in over 350 organizations 
around the U.S. Our products are used by K-12, higher education, 
correctional institutions, and business organizations - and we 
specialize in helping people manage life transitions.
    Of particular note, we offer highly effective transition assistance 
curricula to around 50,000 offenders in state prisons annually 
(www.acceleronlearning.com/conduits/). While situational factors 
differ, the needs of offenders re-entering civilian life are quite like 
the needs of servicemembers in transition.
    After conversations with Rep. Arrington's and Rep. O'Rourke's 
staffs, we were encouraged to offer feedback on DoD TAP, given our 
particular expertise.
    The feedback points below make reference to our Re-Entry Roadmap 
product, which is used by offenders. Attached to this letter is a 
supporting slide presentation about the Re-Entry Roadmap. This product 
is very user friendly, portable, and consumable. We believe it serves 
as a helpful illustration.
    Our feedback is based upon review of publicly available information 
about DoD TAP. We see opportunities for improvement in three distinct 
areas:

    1. Specificity of Guidance - While the Individual Transition Plan 
provides reasonably good detail on the ``whats'' of transition (family 
needs, benefits, financial needs etc.) it does not provide specificity 
of guidance on the ``hows''. For example, a prompt in Section I A reads 
``Assess impact of individual/family requirements on relocation options 
(e.g. quality of schools, availability of medical care, spouse 
employment etc.).'' To this end:

    <bullet>  How does one assess the quality of schools? Or 
availability of medical care? Or the sufficiency of spouse employment?
    <bullet>  What is a step-by-step process to remediate these kinds 
of issues?
    <bullet>  What specific personal information will be required to 
bring closure to these issues?
    <bullet>  Finally, what resources are available (likely web-based) 
to aid in research?

    Across a wide variety of audiences (college students, offenders 
etc.) we have found that most people fail in transition because they 
lack very specific guidance on the ``hows.'' Oftentimes, far too many 
assumptions are made about a person's critical thinking skills, ability 
to parse issues, ability to understand process/sequencing, and ability 
to conduct research.
    The DoD TAP would benefit greatly from a significant investment in 
unpacking the ``hows'' for the various ITP elements, especially those 
not directly related to one's career. It would also benefit from a 
systematic inventory of the ``whats'' to ensure the right items are 
included at the proper level of detail.
    The format of our Re-Entry Roadmap activity cards and timeline 
offers a concise, yet thorough inventory of the ``whats'' and the 
``hows'' for offenders. Further, our reentryhelp.com resource portal 
offers an example of topically organized research tools.

    2. Whole-Family Adjustment - While the DoD TAP references spousal 
participation in its career path programming, it does not seem to 
address the highly likely shift in roles between the spouses when the 
servicemember begins a civilian job. In fact, the entire family - 
spouse, children, extended family/supporters - may take on new roles 
and responsibilities following the transition.
    Educating the whole family on the dynamics of the transition, as 
well as equipping them with specific skills related to the transition, 
will help them to better support and encourage one another. A 
servicemember is likely to feel overwhelmed by the (seemingly) 
individual burden of managing the many moving pieces, but it doesn't 
have to be this way.
    For example, we offer video lectures on over 120 topics in career, 
financial, legal, and personal wellness education which are relevant to 
enabling success of the whole family. The DoD TAP would benefit from 
similar content, or at least, from content that speaks directly to the 
needs of the spouse and family.

    Servicemember Workforce Integration - The March 28, 2017 Wall 
Street Journal included an article titled: ``Hiring Veterans Is Easy, 
Keeping Them Is Hard,'' which unpacked the need for cultural 
acclimation to civilian work environments.
    This kind of cultural literacy is akin to our work with 
postdoctoral students who have spent years in the lab, away from the 
day-to-day of workplace environments. Key to their success is 
simulating the kinds of teamwork, personality, leadership, and work 
styles that they will eventually encounter in a professional setting. 
The WSJ article reports that private industry is designing specific 
training to address this issue for veterans, and DoD TAP would do well 
to incorporate more of the same.
    If we can be of any assistance in the future development of DoD 
TAP, please let us know.
    We commend the good work of DoD TAP to date, and thank you for 
reviewing this statement.

    Best,

    Ryan Jackson
    CEO - Acceleron Learning
    <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="67150d06040c14080927060404020b021508090b020615090e09004904080a">[email&#160;protected]</a>
    (915) 203-2362

                                 <F-dash>
                    VETERANS EDUCATION SUCCESS (VES)
    Chairman Arrington, Ranking Member O'Rourke, and Members of the 
Subcommittee:
    Veterans Education Success (VES) appreciates the opportunity to 
share its perspective on the Review of the Interagency Transition 
Assistance Program and the Need for Enhanced Outcome Measurements.
    VES is a non-profit organization focused on protecting the 
integrity and promise of the GI Bill and other federal educational 
programs for veterans and servicemembers.
    We appreciate the committee's desire to look at the Transition 
Assistance Program (TAP) and the need for outcome measures. Ensuring a 
seamless transition from military service into the civilian workforce 
is paramount to the long-term success of the veteran. While much has 
been accomplished in this area, much is still left to be done. We 
believe the TAP program should be viewed as a way to improve veteran 
outcomes by enhancing its ability to help transitioning service members 
make the best use of their GI Bill benefits. With that goal in mind, we 
recommend the following five improvements:

    1. Start the Transition Assistance Program earlier on in the 
military lifecycle. As service members prepare to transition out of the 
military, their focus is on their basic necessities, such as 
identifying a place of residence and addressing the reality of a 
significant change in their day-to-day living. The current timing of 
TAP classes, as servicemembers are trying to walk out the door, is not 
scheduled well to capture their attention. In addition, because many 
servicemembers start to use their benefits while still in the service 
(such as using GI Bill ``top up'' or selecting a college for Defense 
Department Tuition Assistance and then staying with that college for 
the GI Bill), VES believes that starting the discussion earlier in the 
military life cycle will help the service member better retain the 
information and provides opportunity for them to take the time needed 
to identify institutions and degree programs that will help them make 
best use of their benefits. As one former officer told the previous 
Education Secretary, much of the content in the TAP curriculum should 
really start during boot camp.

    2. Improve Consumer Fraud Warnings.
    The TAP curriculum needs stronger consumer fraud warnings. 
Servicemembers and veterans are frequently targets of consumer fraud, 
from pay day lenders and used car dealers located outside military 
bases, to financial companies that violate military families' legal 
rights, to bad actor colleges that prey on veterans for their GI Bill.

    3. Ensure Those Providing Academic Advisement are from Neutral 
Parties.
    It is imperative that the trainers and instructors leading TAP 
classes provide transitioning veterans with neutral, objective 
information, and with no vested interest in where the service members 
choose to pursue higher education. For example, some non-profit 
organizations sponsored by or representing for-profit college are 
reportedly trying to secure roles leading TAP classes with the goal of 
pushing veterans to use their benefits at these schools. Having neutral 
advisors ensures the advisement is focused on what is in the best 
interest of the student. Only government representatives or veterans 
service organizations taking no funding from colleges should lead these 
classes.

    4. Remove Pay-to-Play Lists from TAP.
    Currently, pay-to-play lists such as the ``Military Friendly 
Schools'' list and GI Jobs magazine from Victory Media Corporation are 
being distributed in TAP classes. FTC recently settled a lawsuit with 
Victory Media over their deceptive promotion of schools that made the 
list because they paid to be on it. Distribution of these lists in TAP 
classes instills a false sense of endorsement by the federal government 
and consequently can cause a transitioning service member to choose a 
school that leaves them with a useless degree that wasted their GI Bill 
benefits.

    5. Align TAP Curriculum to the Real-Life Experiences of Service 
Members
    The current TAP curriculum gives service members a laundry list of 
available resources, but those ``death by power point'' presentations 
do not always resonate with real life experiences. For example, VA 
briefings focus on health care, then benefits, and then cemeteries but 
don't answer why these benefits are important to the service member. 
Courses should incorporate questions service members are asking 
themselves, such as ``how will I support myself'' or ``what do I do if 
I get sick'' or ``how do I choose a school and degree program that will 
best meet my needs?'' VES believes TAP should be more ``servicemember-
focused'' and less about the organizational hierarchy of each agency 
giving the briefings.

                                 <F-dash>
                        Questions For The Record

   U.S. DEPARTMENT OF LABOR VETERANS' EMPLOYMENT AND TRAINING SERVICE
    1. What does DOL consider a successful transition for a service 
member leaving the Department of Defense (DoD)?

    Response: DOL agrees with the DoD perspective that attainment of 
the Career Readiness Standards (CRS) is one of the key objectives of 
TAP. Additionally, in line with the TAP Evaluation Framework DOL 
considers the transition a success if the veteran obtains employment, 
starts a business, or ispursuing education/training to secure a 
credential. As part of the 60-day taskfrom the HVAC EO Subcommittee, 
the interagency partners are working collaboratively to refine the 
definition of success.

    1a. What metrics does DOL use to measure this success?

    Response: As part of the OMB approved Interagency TAP Evaluation 
Plan, DOL tracks thefollowing outcome measures/indicators: amount of 
Unemployment Compensation/or Ex-service members' (UCX) benefit payments 
by service branch; percentage of unemployed post-9 111 veterans ages 
18-24; and percentage of unemployed post-9111 veterans ages 25-34. DOL 
collects data on three additional performance metrics gathered at the 
2,400 American Job Centers nationwide. These three measures align with 
theperformance indicators prescribed in the Workforce Innovation and 
Opportunity Act (WIOA) and are: the employment rate in the second 
quarter after program exit; employment rate in the fourth quarter after 
program exit; and median earnings in the second quarter after program 
exit. In partnership with the Employment and Training Administration, 
DOL VETS collects data on all WIOA- funded activities and canfilter out 
resultsfor those veterans or transitioning service members who have 
gone through TAP. Theperformance measures above will be calculated for 
only those WIOA participants who have gone through TAP.

    2. Has DOL identified certain groups that are at higher risk for 
homelessness, unemployment, or mental health issues during or after 
transition?

    Response: In 2014, VETS defined Significant Barriers to Employment 
(SBE) as an eligible veteran or eligible spouse who meets at least one 
of thefollowing criteria: disabled or special disabled; homeless; long-
term unemployed (at least 27 weeks in the past year); ex-offender 
released in the past 12 months; lacking a high school diploma or 
equivalent; or considered to be /ow-income. These categories were 
established based on evidence-driven decisions sourced from Workforce 
Investment Act data. The criterion of having at least one SBE is what 
allows a veteran to be served by a Disabled Veterans' Outreach Program 
(DVOP) specialist under the Jobsfor Veterans State Grantsprogram.

    Additionally, VETSfunds roughly 150 Homeless Veterans' 
Reintegration Program (HVRP) grantees per year. From the SBE 
definition, all of the participants served under the HVRP are 
considered to have a significant barrier to employment.

    2a. If so, is DOL tracking any specific statistics or metrics for 
those at risk groups, and what are those statistics?

    Response: The metrics collected for these at risk populations are 
the same as the ones VETS collectsfor all veterans receiving services: 
employment in the second quarter after exit; employment in thefourth 
quarter after exit; and median earnings in the second quarter after 
exit. Collecting uniform peiformance metrics allowsfor standardized 
comparisons across different programs. Thesepeiformance metrics are 
publicly reported via the VETSAnnual Report to Congress; the latest 
version of the report (FY 2016) can befound here: https://www.dol.gov/
vets/media/VETS FY16 Annual Re port to Congress.pd(

    2b. Does DOL consider service members receiving a discharge other 
than ``Honorable'' to be at higher risk for homelessness, unemployment, 
or mental health issue when compared to the general transitioning 
population?

    Response: DOL provides the DOL Employment Workshopfor all 
transitioning service members regardless of type of discharge. DOL 
regularly provides the DOL Employment Workshop to transitioning service 
members in military correctionalfacilities. Additionally, those 
transitioning service members are referred to the American Job Center 
(AJC) system for further assistance. This referral, or warm handover, 
can beperson-to-person if the local AJC has a presence on or near the 
installation, or by connecting the service members with the AJC nearest 
their eventual transition destination. All transitioning service 
members who separated under ``honorable, `` or other than ``honorable, 
`` conditions also receive Priority of Service in all DOL-fimded 
orpartially-fimded programs at American Job Centers.

    3. In her testimony, Ms. Margarita Devlin, Executive Director of 
Benefits Assistance Service, Veterans Benefits Administration, the 
Department of Veterans Affairs, spoke about collecting information on 
post- separation outcomes. Does DOL plan to participate in crafting 
this survey?

    Response: As a member of the interagency TAP Peiformance Management 
Working Group, DOL provided input to the VA on the post-separation TAP 
assessment survey, and looksforward to seeing the results.

    3a. What outcomes and metrics will DOL be focusing on and measuring 
in this survey?

    Response: DOL willfocus on the survey results associated with the 
veterans' employment status, nature of their employment, and the value/
quality of assistance received from DOL resources.

    4. How does DOL evaluate the programs taught at TAP?

    Response: DOL uses the resultsfrom the Transition GPS Participant 
Assessment provided by DoD. The assessment collects demographic data 
and includes questions to assess the quality of the course curriculum, 
course materials, facilitators, andfacilities. The DOL Employment 
Workshop consistently receives high evaluation scoresfrom participants, 
averaging 96 percent satisfaction on information learned, 98 percent on 
effectiveness of thefacilitators, and 95 percent on confidence gained 
from the workshop. DOL uses theparticipant narrative comments to 
resolve issues encountered at specific installations, and as inputfor 
the regular review and revision of the workshop curriculum.
    DOL VETS Federal field staff conducts regular site visits to the 
military installations in their respective states to evaluate the 
workshopfacilitators and meet with the installation transition services 
personnel to address any site specific issues.

                                 <F-dash>
   From Full Committee Ranking Member Tim Walz to U.S. Department of 
                                Defense
    Questions

Department of Defense (DoD)

    1. With the increase utilization of the National Guard and Reserve 
forces, which seems to be only increasing going forward, has DoD spent 
any time looking beyond TAP and looking at the larger picture of 
employment for these soldiers, sailors, marines, and airmen when they 
return?

    a. The Army is talking about 60+ days a year of collective training 
for some units, with service members being required to do additional 
days for military schools necessary for career advancement. That's 
approaching a quarter of the year that these service members will be in 
uniform. How is that affecting their employers and how can the TAP 
program help with efforts to keep these service members employed?

    b. We are hearing anecdotal evidence, as well as articles in the 
press, that employers are avoiding hiring Guardsmen and Reservists, or 
deciding against retaining them. Does DoD see addressing this issue as 
an extension of DoD's commitment to help service members successfully 
transition off of active duty? Ifso, has DoD done any data collection 
in this area?

    c. Does DoD view unemployment of National Guardsmen and Reservists 
as a readiness issue?

    d. Has the Secretary taken any steps to mitigate the decrease in 
hiring and retention rates of National Guardsmen and Reservists in 
their civilian employment due to the increased utilization of the Guard 
and Reserves - especially for those units that will be doing 60+ unit 
collective training days a year?

    e.Has the Secretary tailored transition policies specifically for 
National Guardsmen and Reservists? For instance, as any thought been 
given to allowing Guardsmen and Reservists to return home, get their 
feet under them and assess their situation during their terminal leave, 
and then take the TAPS classes during their yellow ribbon events?

    2.Does DoD collect data on service member's educational backgrounds 
before they enter military service?

    a.If so, how is that data used?

    b. Does the DoD use data on service member's educational background 
to identify shortcomings that could hinder their transition to the 
private sector or to higher education? Ifthese shortcomings are 
identified, how are they remedied?

    3. How is Office of the Secretary of Defense (OSD) addressing the 
varied rates of compliance among the services? In other words, is there 
a larger effort within OSD to address the lower rates of compliance 
among the Navy and Marine Corps to bring them up to the 85% goal or is 
it left up to the individual services to deal with?

    4. Does the Secretary see it as a future recruitment issue if 
service members are not successfully transitioned into civilian life?

    5. The Government Accountability Office (GAO) study found very low 
rates of attendance for the supplemental TAP courses on accessing 
higher education, career and technical training, and entrepreneurship. 
There is concern that because these courses are seen as optional, unit 
commanders are not allowing attendance of interested service members. 
Has OSD thought about mandating that service members attend at least 
one of these currently supplemental programs to ensure their ability to 
attend if they are interested?

    a.From visits to military bases and asking service members about 
their transition process, the Committee has heard that commanders are 
often unwilling to let service members attend additional supplemental 
classes or repeat classes that service members might feel like they 
need to repeat. Often the reason given is that the unit is short-
staffed and that the commander is unable to get a replacement for that 
service member until they are out-processed from the military, so they 
need them to continue training to hit readiness numbers. Have the 
services considered changing policy to allow the unit to request a fill 
for a service member they know is or will be transitioning out?

    b.Have the services considered manning units to be over 100% 
strength?

    c.We have also heard troubling anecdotes of commanders telling 
their units to sign in to their TAP classes so that their attendance is 
recorded but then to leave and return to work without actually sitting 
through the class. And GAO reported that unit commanders sometimes 
require their service members to work a full shift after attending TAP 
class to make up for having attended TAP class. Have the services 
looked at how DoD can better monitor and address deliberate subversion 
of the rules?

    d.How are commanders at the lower echelons being educated about the 
importance of preparation and TAP courses for a successful transition?

    e.Have the services considered including transition numbers and 
metrics in commanders' evaluations, similar to how they are evaluated 
on readiness?

    6.The Army has focused on building Career Skills Programs (CSP) for 
transitioning service members. Are similar programs being implemented 
in other services through the SkillBridge program?

    a.What is the current participation rate in CSPs (or CSP like 
programs) across the services?

    b.How is DoD measuring success in CSPs?

    7.Has DoD identified certain groups that are at higher risk for 
homelessness, unemployment, or mental health issues during or after 
transition?

    a.Ifso, is DoD tracking any specific statistics or metrics for 
those at risk groups, and what are those statistics?

    b.Does DoD consider service members receiving a discharge other 
than ``Honorable'' to be at higher risk for homelessness, unemployment, 
or mental health issue when compared to the general transitioning 
population?

    8.Has DoD considered moving TAPs classes from the final year (or 18 
months in the case of a retiring service member) to a model that 
focuses on continual learning within a service member's military 
career?

    9.From DoD's perspective, what does a successful transition look 
like and what metrics should be used to evaluate for that?

    a.What follow-up does DoD conduct with service members after their 
transition?

    b.What data does DoD need from Department of Labor and VA to 
improve transition programs?

    10.When flag officers testify to Congressional Committees or 
conduct office calls, are they encouraged or directed to attend with 
their senior enlisted advisor?

    a.Would it be beneficial for Congressional Committees to hear 
testimony directly from senior enlisted advisors?

                                 <F-dash>
                     Requestors Rep Timothy J. Walz

QFR Title: Supplemental TAP Courses and Backfilling Transitioning 
    Service Members

Requestors: Rep Timothy J. Walz
Witness: Cook, Kathleen A
QFR ID: HVAC-01-005 QFR

Question Number: 5

Question: The Government Accountability Office (GAO) study found very 
    low rates of attendance for the supplemental TAP courses on 
    accessing higher education, career and technical training, and 
    entrepreneurship. There is concern that because these courses are 
    seen as optional, unit commanders are not allowing attendance of 
    interested service members. Has OSD thought about mandating that 
    service members attend at lease one of these currently supplemental 
    programs to ensure their ability to attend if they are interested? 
    a. From visits to military bases and asking service members about 
    their transition process, the Committee has heard that commanders 
    are often unwilling to let service members attend additional 
    supplemental classes or repeat classes that service members might 
    feel they need to repeat. Often the reason given is that the unit 
    is short-staffed and that the commander is unable to get a 
    replacement for that service member until they are out-processed 
    from the military, so they need them to continue training to hit 
    readiness numbers. Have the services considered changing policy to 
    allow the unit to request a fill for a sercie member they know is 
    or will be transitioning out? b. Have the services considered 
    manning units to be over 100% strength? c. We have also heard 
    troubling anecdotes of commanders telling their units to sign in to 
    their TAP classes so that their attendance is recorded but the to 
    leave and return to work without actually sitting through the 
    class. And GAO reported that after attending TAP class to make up 
    for having attended TAP class. Have the services looked at how DoD 
    can better monitor and address deliberate subversion of the rules? 
    d. How are commanders at the lower echelons being educated about 
    the importance of preparation and TAP courses for a successful 
    transition? e. Have the services considered including transition 
    numbers and metrics in commanders' evaluations, similar to how they 
    are evaluated on readiness?

Answer: a. Members are assigned to their unit until they separate or 
    retire. The AF Personnel Center fills positions once the member is 
    no longer assigned to the unit. Commanders may authorize permissive 
    temporary duty up to 20 days for CONUS based members and 30 days 
    for members stationed overseas within 180 days of separation/
    retirement for job or residence search. Additionally, members may 
    request terminal leave, so determining when a member will have 
    their final day at work is not trackable across the enterprise. 
    Finally, for officers, Services must manage to the Congressionally-
    mandated grade ceilings. b. The AF is unable to man units over 100% 
    and maintain Congressionally-mandated end-strength. Students and 
    transients are counted against Congressionally-mandated end 
    strength so we could not overman. Therefore, most Air Force 
    Specialty Codes do not have the inventory to support 100% manning 
    across the enterprise. c. Air Force installation level Transition 
    Assistance Program Counselors monitor workshop participation to 
    ensure service members' full attendance through initial attendance 
    sign-in and course completion by signing sections III and IV of 
    eForm DD 2486 certifying compliance. For Service member who do not 
    return to complete all elements of the program, counselors inform 
    the unit commander or his/her representative for action and 
    rescheduling as required. d. Understanding the Air Force will 
    implement 2017 GAO recommendations as directed by the Department of 
    Defense, we're currently performing comprehensive upgrades to our 
    TAP processes based on the challenges with VOW compliance. 
    Commanders at all levels are being educated about the importance of 
    preparation and TAP courses for a successful transition through a 
    variety of efforts. From providing annual training sessions for all 
    readiness NCOs, to working with the Defense Manpower Data Center to 
    validate eligibility data and database accuracy, and seeking IT 
    solutions to add a ``flag notification'' to the system; all the way 
    to changing out processing checklists, messaging our AD and Guard/
    Reserve Force Support Squadrons, briefing commanders, first 
    sergeants and chiefs at our professional military education and 
    leadership courses and mandating Airman and Family Readiness Center 
    Directors brief incoming commanders on VOW compliance within 30 
    days. We are also adding text to Airmen monthly leave and earning 
    pay statements to highlight TAP requirements. Our commanders are 
    being inspected in both the AD and Guard/Reserve for compliance, 
    and we've updated our AF instruction to stress commander 
    responsibility and accountability. And specifically to the Reserve 
    component, should all this still result in someone missing the 
    opportunity to complete TAP, AF Reserve Command is tracking every 
    member and will bring members back on active status to complete the 
    training as needed. Across the board, we're focused on attaining 
    100% compliance and ensuring commanders at all levels are being 
    educated on the importance of service members full participation in 
    transition assistance program. e. Air Force commanders are 
    evaluated annually on the performance of their day-to-day 
    operations, readiness, compliance requirements (to include TAP), 
    exercises and audits. With this evaluation capability in place, the 
    Air Force does not see a need to specifically identify TAP 
    compliance in commanders' annual evaluations.

QFR Title: Career Skills Programs

Requestors: Rep Timothy J. Walz
Witness: Cook, Kathleen A
QFR ID: HVAC-01-006 QFR

Question Number: 6

Question: The Army has focused on building Career Skills Programs (CSP) 
    for transitioning service members. Are similar programs being 
    implemented in other services through the Skillbridge program? a. 
    What is the current participation rate in CSPs (or CSP like 
    programs) across the services? b. How is DoD measuring success in 
    CSPs?

Answer: a. The Air Force developed policy and implemented a number of 
    unified outreach initiatives to create a streamlined program 
    process, and ensure Airmen are informed of SkillBridge programs. 
    These outreach efforts include:

    <bullet>  An automated application to expedite and streamline the 
process.
    <bullet>  A marketing strategy to ensure program awareness among 
installations and Service members.
    <bullet>  Targeted messages to Airmen within one year of separation 
and outreach to commanders via e-mail messages and briefings.
    <bullet>  A standardized Vetting Checklist for Airmen, to ensure 
all training providers and the program align with SkillBridge training 
policies.
    <bullet>  Partnerships at the local level, between installations 
and training providers.
    <bullet>  A comprehensive training program explaining SkillBridge 
policy and programs for installation education counselors. Since the 
inception of the program in August 2016, over 240 Airmen from 39 
installations have enrolled in 43 different Career Skills Programs.

    The Air Force has three job skills training initiatives and is 
committed to expanding these programs over the next year:

    <bullet>  Solar Ready Vets, conducted in partnership with 
Department of Energy, which prepares Airmen for positons in the growing 
solar power industry;
    <bullet>  Hiring Our Heroes Corporate Fellowship Program, which 
provides transitioning Service members with management training and 
hands-on experience in the civilian workforce; and,
    <bullet>  South Seattle College apprenticeship program, which 
combines on-the-job training with classroom work in skills supporting 
aircraft and construction industries. b. The Air Force measures success 
by the number of programs, the number of installations participating, 
the number of Airmen receiving and completing training. The Air Force 
also tracks placements when reported.

QFR Title: Flag and General Officers and Senior Enlisted Advsiors

Requestors: Rep Timothy J. Walz
Witness: Cook, Kathleen A
QFR ID: HVAC-01-010 QFR

Question Number: 10

    Question: When flag officers testify to congressional committees or 
conduct office calls, are they encourage or directed to attend with 
their senior enlisted advisor? a. Would be beneficial for congressional 
committees to hear testimony directly from senior enlisted advisors?

Answer: General Goldfein, our Chief of Staff, and Chief Master Sergeant 
    Wright our Chief Master Sergeant of the Air Force are keenly 
    focused on revitalizing squadrons. Gen Goldfein believes squadrons 
    are the heartbeat of our Air Force and we succeed or fail in our 
    mission based on that squadron experience. And as you know, at the 
    center of that squadron experience is the commander. Translated, 
    the well-being, resiliency and effectiveness of our Airmen and 
    their families is directly tied to the squadron and its leadership 
    team. Successfully transitioning our Airmen also depends on 
    informed and engaged leadership. In my opinion, the primary 
    solution to improving VOW compliance is two-fold; first, it 
    requires fully educating our Total Force members on the requirement 
    for TAP and second, Commanders and their Senior Enlisted leaders 
    who support them are held accountable for compliance as they are 
    the critical links to ensure Airmen complete TAP. The Air Force is 
    always open to Senior Enlisted leaders' participation in 
    congressional testimony and will take advantage of opportunities to 
    include them in the future.
QFR Title: TAP for National Guard and Reserve

Requestors: Rep Timothy J. Walz
Witness: Lyons, Judd
QFR ID: HVAC-01-001 QFR

Question Number: 1

    Question: With the increased utilization of the National Guard and 
Reserve forces, which seems to be only increasing going forward, has 
DoD spent any time looking beyond TAP and looking at the larger picture 
of employment for these soldiers, sailors, marines, and airmen when 
they return? a. The Army is talking about 60+ day aa year of collective 
training for some units, with service members being required to do 
additional days for military schools necessary for career advancement. 
That's approaching a quarter of the year that these service members 
will be in uniform. How is that affecting their employers and how can 
the TAP program help with efforts to keep these service members 
employed? b. We are hearing anecdotal evidence, as well as articles in 
the press, that employers are avoiding hiring Guardsmen and Reservists, 
or deciding against retaining them. Does DoD see addressing this issue 
as an extension of DoD's commitment to help service members 
successfully transition off of active duty? if so, has DoD done any 
data collection in this area? c. Does DoD view unemployment of National 
Guardsmen and Reservists as a readiness issue? d. Has the Secretary 
taken any steps to mitigate the decrease in hiring and retention rates 
of National Guardsmen and Reservists in their civilian employment due 
to increased utilization of the Guard and Reserves - especially for 
thos units that will be doing 60+ collective training days a year? e. 
Has the Secretary tailored transition policies specifically for 
National Guardsmen and Reservists? For instance, has any thought been 
give to allowing Guardsmen and Reservists to return home, get their 
feet under them and assess their situation during their terminal leave, 
and then take the TAPS classes during their yellow ribbon events?

Answer: 1. Yes; DoD looks beyond the Transition Assistance Program 
    (TAP) at the larger picture of employment for members of the 
    National Guard and Reserve when they return to home station. For 
    example, DoD's Employer Support of the Guard and Reserve (ESGR) 
    program is supported by a network of more than 3,750 volunteers 
    located across 50 states, U.S. Territories and the District of 
    Columbia. Volunteers from small business, industry, government, 
    education, and prior military service bring a vast wealth of 
    experience to supporting employers, Service members, and their 
    families. The ESGR staff and a small cadre of contracted full-time 
    support staff work to promote and enhance employer support for 
    military service in the National Guard and Reserve. The four ESGR 
    missions executed through 54 committees are:

    <bullet>   Employer Outreach: Promote a culture where all employers 
support and value military service through education, recognition, and 
mediation.
    <bullet>   Military Outreach: Make Service members aware of their 
rights and responsibilities under the law and the value of employer 
support and recognition.
    <bullet>   Employment: Increase career opportunities through 
strategic relationships with employers, state and federal government 
partners, and professional associations.
    <bullet>   Ombudsman Services: Provide mediation for issues or 
conflicts between employers and Service members before they escalate. 
Another DoD program that goes beyond TAP is the Department's Yellow 
Ribbon Reintegration Program (YRRP). This DoD-wide effort promotes the 
well-being of National Guard and Reserve members and their families, by 
connecting them with resources throughout the deployment cycle. 
Commanders and leaders play a critical role in ensuring that National 
Guard and Reserve Service members and their families attend YRRP events 
where they can access information on healthcare, education, employment, 
and financial and legal benefits. YRRP:
    <bullet>   Provides education and supports the readiness of Service 
members of the unit and their families for the rigors of deployment.
    <bullet>   Implements reintegration curriculum throughout the 
deployment cycle that builds resilience for current and future 
deployments.
    <bullet>   Educates Service members and their families about 
resources available and connects them to service providers who can 
assist them in overcoming the challenges of reintegration. ESGR and 
YRRP provide Service members information about and referrals to 
programs, services, and employment assistance. The Department is also 
part of a broader interagency effort to support transitioning Service 
members. Service members attending TAP receive employment assistance 
during the Department of Labor Employment Workshop (DOLEW), which 
includes information on topics such as resume writing, networking, and 
job search skills, to name a few. During the DOLEW Service members are 
also informed about and strongly encouraged to register at one of the 
2,500 Department of Labor American Job Centers (AJC) located throughout 
the United States. The AJCs provide resources for veterans and 
transitioning Service members (including National Guard and Reserve 
members) after TAP. The AJCs provide priority of service for veterans 
and eligible spouses in all qualified job training programs. The 
Department of Labor Veterans' Employment and Training Service provides 
funding for state and local Workforce Investment Boards, public 
agencies, non-profit organizations (including faith-based and 
community-based) and neighborhood partnerships to serve specific areas 
and populations with proven effective and timely programs. The Jobs for 
Veterans State Grants program provides Federal funding, through a 
formula grant, to 54 state workforce agencies to hire dedicated staff 
to provide individualized career and training-related services to 
veterans and eligible persons with significant barriers to employment 
and to help employers fill their workforce needs with job-seeking 
veterans. 1a. Any time a member of the National Guard or Reserve spends 
time away from their civilian job to perform their military duty, 
stress can result to the employer, the Service member, and their 
family. DoD helps to mitigate that stress through advance notification 
of military duty to the employer, encouraging continuous communication 
between the employer and Service member through the ESGR and TAP. ESGR 
educates both employers and Service members about their rights and 
responsibilities under the Uniformed Services Employment and 
Reemployment Rights Act (USERRA). It also provides information and 
resources that mitigate the challenges employers and Service members 
face during transitions to and from periods of military duty. ESGR will 
continue to work closely with the Army National Guard and Army Reserve 
to identify those employers who may be affected by any proposed Army 
National Guard and Army Reserve enhanced readiness initiatives. ESGR 
staff actively supports all Reserve Components (RC) to develop 
strategies and communication tools that prepare employers for potential 
changes in training tempos. More than 3,750 ESGR volunteers located 
across the Nation stand by to conduct targeted outreach to those 
industries and specific employers affected by units in any proposed new 
training paradigm. Outreach efforts continue to focus on the value RC 
members bring to the workforce, how the additional training may benefit 
employers, and incentives available to employers for hiring and 
retaining RC employees. In 2017, ESGR engaged more than 81,000 
employers nationwide. 1b. While anecdotal evidence and press coverage 
serve as important reminders of the need to continue TAP and ESGR's 
outreach and education efforts, the Department's data collected via the 
Status of Forces Survey-Reserve Component shows a downward trend in 
overall employment issues. The 2016 survey reports 69 percent of RC 
members' employers favor their RC member's continued participation in 
RC service, up from a baseline of 56 percent in 2000 and a post-9/11 
low of 59 percent in 2005. When asked about their co-workers' view of 
their RC service, members reported a 73 percent rate of support, up 
from a baseline of 59 percent in 2000 and a post-9/11 low of 67 percent 
in 2005. The 2017 Status of Forces Survey-Reserve Component is being 
prepared for distribution and will contain the same series of 
employment-related questions from previous iterations. 1c. Yes. The 
Department views civilian employment as one of the pillars of RC 
members' readiness. DoD cannot retain RC Service members and maintain 
the level of readiness required in the current operational environment 
without them having stable and fulfilling civilian employment. The 
latest numbers from the Bureau of Labor Statistics (BLS) show a 
downward trend in post-9/11 veteran unemployment. The November 2017 BLS 
report shows an unemployment rate of 3.6 percent among that population, 
down from 4.7 percent in November 2016. 1d. Through ESGR and YRRP, the 
Department provides employment information and resources to RC members 
and their families, leveraging partnerships inside and outside of 
government. Working with government agencies (e.g., the Department of 
Labor Veterans' Employment and Training Service) and private sector 
organizations (e.g., the Society for Human Resource Management), these 
programs help connect potential employees with employers and mentors. 
ESGR works directly with the Army National Guard and Army Reserve 
employment programs such as the Employment Support Program and Public-
Private Partnership, to support their efforts. YRRP receives 
Congressional funding which is disbursed by the Department to fund 
state-based RC employment programs under the Department's ``Beyond the 
Yellow Ribbon'' initiative. DoD informs these initiatives by ongoing 
communication with RC leaders at the national and state level, and 
places special emphasis on units impacted by increased training 
requirements. ESGR conducts numerous employer-oriented events such as 
`bosslifts' on military aircraft or ships that increase employer 
understanding of Service member/employee requirements. `bosslifts' 
bring employers to military duty locations around the nation to show 
them the training their employees receive. For example, ESGR is 
planning a `bosslift' in support of the Tennessee Army National Guard's 
278th Armored Cavalry Regiment rotation to the National Training Center 
in May 2018. Employers from Tennessee will travel via military aircraft 
to Fort Irwin, CA, to see their employees in action, learn about their 
mission, and understand the importance of the role they play in our 
national security. Additionally, ESGR helps facilitate communication 
between employers and the appropriate military authority for the 
Service member in order to discuss any concerns over the timing, 
frequency or duration of military duty. 1e. Title 10, United States 
Code (U.S. Code) mandates transition requirements be completed while in 
a full-time Title 10 active duty status. Conducting TAP during Yellow 
Ribbon Reintegration Program events would not be in compliance with 
Title 10, U.S. Code, as these events occur after a Service member 
leaves full-time Title 10 active duty status. Apart from noncompliance 
with current statute, the Yellow Ribbon events as currently programmed 
(approximately 2 + days in length over a weekend) simply do not provide 
sufficient time for RC Service members to complete all TAP 
requirements. To expand Yellow Ribbon events to include TAP would also 
keep RC Service members away from work or school even longer after 
their return from deployment or activation. However, DoD has tailored 
transition policy to better meet the needs of the Reserve Components 
while remaining in compliance with Title 10, U.S. Code. To avoid RC 
members having to repeat pre-separation counseling, they may decline 
pre-separation or transition counseling for each successive period of 
full-time active duty in Title 10 status consisting of 180 days or more 
of continuous active duty. Other transition policies for members of the 
RC include exemption from the 3-day DOLEW if they are retiring with 20 
or more years of qualifying military service; can document civilian 
employment post-demobilization or deactivation; can provide documented 
acceptance into an accredited career technical training, undergraduate 
or graduate degree program; or have previously participated in the 
DOLEW. All exemptions are documented. Members of the RC may be exempted 
from the requirement to begin pre-separation or transition counseling 
no less than 90 days from separation if being demobilized or 
deactivated from active duty under circumstances in which operational 
requirements, as determined by the Secretary concerned, make the 90-day 
requirement unfeasible. Similarly, for RC members being released from 
active duty, in which operational requirements as determined by the 
Secretary concerned make the timeline to complete Capstone unfeasible, 
Capstone must begin no later than the date of release from active duty 
as reflected on the DD Form 214.

QFR Title: Service Members Educational Background

Requestors: Rep Timothy J. Walz
Witness: Lyons, Judd
QFR ID: HVAC-01-002 QFR

Question Number: 2

Question: Does DoD collect data on service member's educational 
    backgrounds before they enter military service? a. If so, how is 
    that data used? b. Does the DoD use data on service member's 
    educational background to identify shortcomings that could hinder 
    their transition to the private sector or to higher education? If 
    these shortcomings are identified, how are they remedied?

Answer: Yes, DoD does collect data on Service member's educational 
    background before they enter the military. 2.a. These data are used 
    for a number of purposes. For officer candidates, education 
    attainment and the source of the education credential may be used 
    as a factor in determining a person's competitiveness for a given 
    program. For example, an individual with an advanced technical 
    degree from a well-known university would likely be more 
    competitive than an individual with a non-technical degree from a 
    lesser known school. In the enlistment process, these data are used 
    to classify new recruits and to project attrition rates. Data show 
    that individuals with high school diplomas are more likely to 
    complete their first-term of enlistment than individuals with other 
    education credentials. In Fiscal Year 2017, nearly 96 percent of 
    all new enlisted accessions had at least a high school diploma. 
    2.b. No, DoD does not use data on Service member's educational 
    background at accession to identify shortcomings that could hinder 
    their transition to the private sector or to higher education. 
    Generally, the dramatic change in experience and education gained 
    during service would make such an accession evaluation moot. As 
    mentioned above, these data are used for classifying new recruits 
    and for projecting attrition.

QFR Title: Rates of Compliance

Requestors: Rep Timothy J. Walz
Witness: Lyons, Judd
QFR ID: HVAC-01-003 QFR

Question Number: 3

Question: How is the Office of the Secretary of Defense (OSD) 
    addressing the varied rates of compliance among the Services? In 
    other words, is there a larger effort within OSD to addrest the 
    lower rates of compliance among the Navy and the Marine Corps to 
    bring them up to the 85% goal or is it left up to the individual 
    services to deal with?

Answer: It is important to note that DoD relies on compliance 
    information based on completed records in our IT system of record 
    for computing Veterans Opportunity to Work (VOW) Act and Career 
    Readiness Standards compliance. Based on known information 
    reflecting only the Service members for whom a completed DD Form 
    2958 was received by the Department for Fiscal Year 2016, all 
    Services (including Navy and Marine Corps) met the 85% threshold. 
    The Department is working with the Military Services and the 
    Defense Manpower Data Center to reduce the amount of missing data 
    for compliance reporting. For example, in Fiscal Year 2017, we 
    launched a department-wide, TAP-IT Enterprise System that 
    streamlined the data collection process and will enhance the 
    Department's ability to maintain accountability. The Department 
    will continue to improve data tracking and work with the Services 
    to reduce the extent of missing data.

QFR Title: Successful Transitions

Requestors: Rep Timothy J. Walz
Witness: Lyons, Judd
QFR ID: HVAC-01-004 QFR

Question Number: 4

Question: Does the Secretary see it as a future recruitment issue if 
    service members are not successfully transitioned into civilian 
    life?

Answer: Yes, the successful transition of Service members is important 
    for future recruiting efforts. Both potential recruits and the 
    influencers that help those recruits make their decision about 
    serving in today's military look at how the individuals that served 
    before them have fared. Today, more than ever, youth believe the 
    risks associated with serving far outweighs the benefits. It is 
    important that potential recruits and influencers see service in 
    today's military as an opportunity to better prepare themselves for 
    a career after the military. The Department believes our strongest 
    recruiting tool is a successfully transitioned Service member 
    contributing to the Nation and their community in a meaningful way. 
    Conversely, unprepared transitioning Service members are a risk to 
    the recruiting pool for the All-Volunteer Force by lowering the 
    propensity for Service members to serve as ambassadors and not 
    recommend military service to others. The Nation must see, 
    consistently, that those who serve also thrive in civilian life. 
    The Department is changing its culture from an end-of-service 
    transition planning to a Military Life Cycle approach, emphasizing 
    career readiness planning throughout a Service member's career. In 
    doing so, we ensure mission readiness is maintained, while also 
    sustaining the All-Volunteer Force for both the Active and Reserve 
    Component.

QFR Title: Supplemental TAP Courses and Backfilling Transitioning 
    Service Members

Requestors: Rep Timothy J. Walz
Witness: Lyons, Judd
QFR ID: HVAC-01-005 QFR

Question Number: 5

Question: The Government Accountability Office (GAO) study found very 
    low rates of attendance for the supplemental TAP courses on 
    accessing higher education, career and technical training, and 
    entrepreneurship. There is concern that because these courses are 
    seen as optional, unit commanders are not allowing attendance of 
    interested service members. Has OSD thought about mandating that 
    service members attend at lease one of these currently supplemental 
    programs to ensure their ability to attend if they are interested? 
    a. From visits to military bases and asking service members about 
    their transition process, the Committee has heard that commanders 
    are often unwilling to let service members attend additional 
    supplemental classes or repeat classes that service members might 
    feel they need to repeat. Often the reason given is that the unit 
    is short-staffed and that the commander is unable to get a 
    replacement for that service member until they are out-processed 
    from the military, so they need them to continue training to hit 
    readiness numbers. Have the services considered changing policy to 
    allow the unit to request a fill for a sercie member they know is 
    or will be transitioning out? b. Have the services considered 
    manning units to be over 100% strength? c. We have also heard 
    troubling anecdotes of commanders telling their units to sign in to 
    their TAP classes so that their attendance is recorded but the to 
    leave and return to work without actually sitting through the 
    class. And GAO reported that after attending TAP class to make up 
    for having attended TAP class. Have the services looked at how DoD 
    can better monitor and address deliberate subversion of the rules? 
    d. How are commanders at the lower echelons being educated about 
    the importance of preparation and TAP courses for a successful 
    transition? e. Have the services considered including transition 
    numbers and metrics in commanders' evaluations, similar to how they 
    are evaluated on readiness?

Answer: TAP interagency partners have previously discussed making the 
    additional tracks mandatory; however, not all Service members' 
    transition plans include topics covered in those tracks. 
    Participant assessment feedback on the TAP has also emphasized 
    Service members' preference for flexibility and not pursuing a one-
    size-fits-all approach. The Department's focus is for transitioning 
    Service members to meet Career Readiness Standards (CRS). There are 
    nine common CRSs applicable to all Service members. Service members 
    interested in pursuing higher education and/or career technical 
    training must also meet four additional education-oriented CRS. The 
    2-day tracks were developed and made available to help those who 
    require assistance in meeting these additional CRS. Transitioning 
    Services members are encouraged to take advantage of these 
    additional tracks. All curriculum, both core and additional, are 
    offered frequently, and advertised through multiple means and 
    platforms. All Service members are able to participate in the 
    additional 2-day tracks, as these tracks are available both via 
    classroom setting and virtually through Joint Knowledge Online. 
    Once the Service member begins pre-separation counseling, they 
    register for the mandatory curriculum and are made aware of the 
    benefits of additional tracks to support their long-term goals and 
    encouraged to attend.

QFR Title: Homelessness, Unemployment or Mental Health Issues

Requestors: Rep Timothy J. Walz
Witness: Lyons, Judd
QFR ID: HVAC-01-007 QFR

Question Number: 7

Question: Has DoD identified certain groups that are at higher risk for 
    homelessness, unemployment, or mental health issues during or after 
    transition? a. If so, is DoD tracking any specific statistics or 
    metrics for those at risk groups, and what are those statistics? b. 
    Does DoD consider service members receiving a discharge other than 
    ``Honorable'' to be at higher risk for homelessness, unemployment, 
    or mental health issues when compared to the general transitioning 
    population?
Answer: The Department has identified that eligible transitioning 
    Service members who have not met all applicable career readiness 
    standards (CRS), do not have a viable post-transition 
    transportation or post-transition housing plan that meets their 
    personal/family needs, and/or those with an `other than honorable' 
    discharge may be at greater risk, for example, for homelessness or 
    unemployment challenges. These individuals are provided with a 
    `warm handover' referral by the Military Services to appropriate 
    partner agencies and other relevant resources, with referrals made 
    to specific program sites based upon the expected geographic 
    location of theService member following transition. For example, 
    for those failing to meet an employment-related CRS, a warm 
    handover is provided to an on-site Department of Labor (DOL) 
    representative, if available at the site, or a designated POC at 
    the appropriate DOL American Job Center (AJC). As another example, 
    for those without a viable post-transition transportation or 
    housing plan, the expectation is that Service members transitioning 
    with an honorable discharge status will be referred to a Department 
    of Veterans Affairs (VA) Capstone Liaison who will connect the 
    Service member to the appropriate VA Homeless Program contact or 
    Healthcare Liaison based on the installation and Service member's 
    post-transition address. The expectation is that Service members 
    transitioning with an other than honorable discharge status will be 
    referred to an on-site DOL representative, if available at the 
    site, or a designated POC at the appropriate DOL AJC. Further, 
    there are occasions when transitioning Service members may be 
    referred to both VA and DOL. Twenty-one (21) DoD locations have an 
    on-site Veterans Health Administration Liaison who manages these 
    referrals. At approximately 300 other sites, these referrals are 
    facilitated through contracted Veterans Benefits Administration 
    Benefits Advisors or by DoD personnel. 7a. Yes, the Department 
    tracks eligible transitioning Service members who do not meet all 
    applicable career readiness standards (CRS) or do not have a viable 
    post-transition transportation or post-transition housing plan, and 
    whether these individuals receive a `warm handover' by the Military 
    Services to appropriate partner agencies. The Department also 
    tracks eligible transitioning Service members that are separating 
    with an `other than honorable' discharge and receive a warm 
    handover to Department of Labor. Through August Fiscal Year to Date 
    (FYTD) 2017, the Department received 138,671 completed DD Form 2648 
    (or legacy DD Form 2958). Of this, 135,096 (97.4 percent) either 
    met CRS or received a warm handover to a partner agency (e.g., VA 
    or DOL). Specifically, 132,063 Service members met CRS, while 3,033 
    members received a warm handover. The remaining 3,575 Service 
    members (2.6 percent) did not meet CRS and did not receive a warm 
    handover in FYTD 2017. The Department is working to close this 
    remaining gap, so that all Service members either meet CRS or 
    receive a warm handover for additional support. Note that this CRS 
    compliance rate reflects only the Service members for whom a 
    completed DD Form 2648 (or legacy DD Form 2958) was received by the 
    Department. The Department is working with the Military Services 
    and the Defense Manpower Data Center to reduce the amount of 
    missing data for compliance reporting. In FY 2017, we launched a 
    department-wide, TAP-IT Enterprise System that streamlined the data 
    collection process and will enhance the Department's ability to 
    maintain accountability. The Department will continue to improve 
    data tracking and work with the Services to reduce the extent of 
    missing data. The Department also tracked eligible transitioning 
    Service members at risk of homelessness. 197,307 Service members 
    transitioned from active duty during the period between October 
    2015 and September 2016. The Department received more than 143,000 
    DD Form 2958's from the Military Services. Of the more than 143,000 
    forms received, 4,504 Service members (3.1 percent) had not 
    evaluated their post-military housing requirements and developed a 
    plan to meet personal and family needs prior to their separation, 
    retirement, or release from active duty. Of those 4,504 Service 
    members, 1,671 (37.1 percent) received a warm handover to at least 
    one partner agency (VA, DOL, or other agency). Specifically for VA, 
    1,628 members (36.2 percent of those 4,504 Service members) were 
    documented as having received a warm handover to the VA for 
    additional assistance. This is an improvement as compared to the 
    year prior (October 2014 - August 2015), where 483 Service members 
    (8.0 percent of 6,044 Service members) without a post-military 
    housing plan received a warm handover to the VA. FY 2017 data will 
    be available in FY 2018. 7b. Yes, based on studies, survey data and 
    anecdotal comments, DoD believes Service members receiving a 
    discharge other than ``Honorable'' are at a higher risk when 
    compared to the general transitioning Service member population. 
    However, it should be noted that the Department does not have 
    available post-transition data on these Service members; the 
    Department must rely on data from our TAP interagency partner 
    agencies and other stakeholders. The Department is also aware of 
    reports that Service members with discharge characterizations other 
    than Honorable or uncharacterized may be at higher risk of suicide. 
    In April 2016, the Department issued the memo `Warm Handover 
    Guidance for Transitioning Service Members Who Do Not Separate with 
    an Honorable Discharge' for commanders or their designee to execute 
    warm handovers during the Capstone event and document those 
    handovers on DD Form 2958. The Department expects that Service 
    members transitioning with an other than honorable discharge will 
    be referred to an on-site DOL representative, if available at the 
    site, or a designated POC at the appropriate DOL American Job 
    Center (AJC). There are occasions when transitioning Service 
    members may be referred to both VA and DOL.

QFR Title: TAP Classes

Requestors: Rep Timothy J. Walz
Witness: Lyons, Judd
QFR ID: HVAC-01-008 QFR

Question Number: 8

Question: Has DoD considered moving TAPs classes from the final year 
    (or 18 months in the case of a retiring service member) to a model 
    that focuses on continual learning within a service member's 
    military career?

Answer: The Department expanded career preparation and transition 
    activities through development and implementation of the Transition 
    Preparation Military Life Cycle (MLC) model. The MLC model provides 
    Service members the time and resources to plan for their inevitable 
    transition from Active Duty; reduces mission impact as many 
    transition-related actions are completed during the normal course 
    of business instead of at the end of a Service member's time on 
    Active Duty; and allows increased flexibility for transition 
    service delivery. The MLC model provides Service members, at 
    various key touch points throughout their MLC, with opportunities 
    to align their military career with their civilian goals. They are 
    made aware of the Career Readiness Standards they must meet before 
    their intended retirement, separation, or release from active duty, 
    and they remain engaged throughout their military careers in 
    mapping and refining their individual development plan to achieve 
    their military goals and their post-military goals for employment, 
    education, career technical training, and/or starting their own 
    business. This will enable transition to become a well-planned, 
    organized process that empowers Service members to make informed 
    career decisions and take responsibility for advancing their 
    personal goals. While implementation varies for each Service, 
    career preparation and transition assistance activities occur at 
    key touch points throughout a Service member's career, to include: 
    accessions/initial drilling weekends; first permanent duty station; 
    reenlistment; promotion; change of duty station; deployment and 
    redeployment; mobilization, demobilization, and deactivation; and 
    separation, retirement, or release from active duty. Such 
    activities include development/update of an Individual Development 
    Plan, financial planning, eBenefits registration, personal skills/
    aptitude/interests assessment, review of Military Occupational Code 
    alignment to civilian occupations, the five day TAP curriculum, and 
    the training tracks for accessing higher education, 
    entrepreneurship, and career technical training.

QFR Title: Successful Transition

Requestors: Rep Timothy J. Walz
Witness: Lyons, Judd
QFR ID: HVAC-01-009 QFR

Question Number: 9

Question: From DoD's perspective, what does a successful transition 
    look like and what metrics should be used to evaluate for that? a. 
    What follow-up does DoD conduct with service members after their 
    transition? b. What data does DoD need from the Department of Labor 
    and VA to improve transition programs?

Answer: Currently, the Department believes a successful transition is 
    one in which a Service member is career-ready when he or she 
    separates, retires, or is released from active duty; whether they 
    are pursuing additional education, finding a job in the public or 
    private sector, or starting their own business. Career readiness is 
    assessed by the Department as attainment of Career Readiness 
    Standards (CRS). The provision of a warm handover by the Military 
    Services to appropriate partner agencies for those Service members 
    needing additional transition support is also critical. The 
    Interagency TAP Evaluation Plan for FY 2017-2018, approved by the 
    Office of Management and Budget, includes attainment of CRS or a 
    warm handover as one of the examined program output measures. In 
    addition, the plan includes a set of assessment methods and tools 
    to assess the processes for TAP delivery, immediate results of 
    program delivery (e.g., whether separations comply with statute and 
    policy), and the desired systematic impacts (e.g., whether veterans 
    successfully obtain employment, start new business, and/or seek 
    addition education). Further, as part of the 60-day request from 
    the HVAC EO Subcommittee, the TAP interagency partners are further 
    working together to collaboratively define success (including 
    desired outcomes and success metrics of the TAP). 9a. The 
    Department coordinates with our TAP interagency partners (e.g., VA, 
    DOL, and the Small Business Administration) on their follow-up 
    assessments and evaluations of Service members after they 
    transition. The TAP interagency partners collaborate together to 
    develop post-separation assessments and evaluations (such as the 
    planned VA Post-Separation Assessment). The TAP interagency 
    partners have shared (or will share) their findings with the 
    Department. Such coordination with the interagency partners allows 
    the Department to learn about Service members after their 
    transition. 9b. The Department is currently working with DOL and VA 
    to address the question of what additional services our 
    transitioning Service members receive if they are provided a warm 
    handover to DOL or VA (e.g., due to failing to meet CRS or failing 
    to have a viable post-transition housing plan), as well as the 
    outcomes of these additional services. The Department needs this 
    data to determine if our existing warm handover processes are 
    successful and to inform any needed improvements. The Department is 
    also coordinating with our TAP interagency partners on their post-
    transition assessments, evaluations, and outcome measures/
    indicators. The TAP interagency partners have shared (or will 
    share) their findings and data with the Department. This 
    information is needed to inform the effectiveness of the program 
    post-transition

QFR Title: Supplemental TAP Courses and Backfilling Transitioning 
    Service Members

Requestors: Rep Timothy J. Walz
Witness: Stein, Kurt W
QFR ID: HVAC-01-005 QFR

Question Number: 5

Question: The Government Accountability Office (GAO) study found very 
    low rates of attendance for the supplemental TAP courses on 
    accessing higher education, career and technical training, and 
    entrepreneurship. There is concern that because these courses are 
    seen as optional, unit commanders are not allowing attendance of 
    interested service members. Has OSD thought about mandating that 
    service members attend at lease one of these currently supplemental 
    programs to ensure their ability to attend if they are interested? 
    a. From visits to military bases and asking service members about 
    their transition process, the Committee has heard that commanders 
    are often unwilling to let service members attend additional 
    supplemental classes or repeat classes that service members might 
    feel they need to repeat. Often the reason given is that the unit 
    is short-staffed and that the commander is unable to get a 
    replacement for that service member until they are out-processed 
    from the military, so they need them to continue training to hit 
    readiness numbers. Have the services considered changing policy to 
    allow the unit to request a fill for a sercie member they know is 
    or will be transitioning out? b. Have the services considered 
    manning units to be over 100% strength? c. We have also heard 
    troubling anecdotes of commanders telling their units to sign in to 
    their TAP classes so that their attendance is recorded but the to 
    leave and return to work without actually sitting through the 
    class. And GAO reported that after attending TAP class to make up 
    for having attended TAP class. Have the services looked at how DoD 
    can better monitor and address deliberate subversion of the rules? 
    d. How are commanders at the lower echelons being educated about 
    the importance of preparation and TAP courses for a successful 
    transition? e. Have the services considered including transition 
    numbers and metrics in commanders' evaluations, similar to how they 
    are evaluated on readiness?

Answer: 5.a Currently, the Marine Corps does not mandate or has 
    considered mandating the attendance of supplemental courses, but 
    does support the attendance of Marines through Marine Corps Order 
    1700.31. Specific guidance to Commanders is to allow all Marines 
    necessary time off to attend the 2-day Track options. Additionally, 
    Commanding Officer support for attendance at 2-day tracks is 
    validated as part of the current Inspector General command 
    inspection process. 5.b. It would be beneficial to have additional 
    manning. However, funding, end strength limitations, and training 
    cycles are limiting factors in manning all units at or above 100%. 
    5.c. The Marine Corps monitors attendance to TRS through morning 
    and afternoon check in procedures. Policy prohibits any Marine from 
    being pulled out of class as TRS is considered their place of duty. 
    Additionally, Unit Transition Coordinators, who are liaisons in the 
    unit that facilitate transition activities, are required by policy 
    to ensure that Marines assigned to TRS do not have any scheduled 
    appointments or commitments during TRS. Any Marine that does not 
    complete an entire day must reschedule to complete that portion of 
    the class before credit is provided. 5.d Commanders are educated on 
    the TRP in several different ways: Commander's courses, through the 
    Unit Transition Coordinators who liaise with the transition 
    offices, and regularly scheduled briefs through installation 
    Transition Managers. Information dissemination is further supported 
    via Transition Readiness Training materials toolkit online and 
    MARADMINS. The Marine Corps is currently implementing a CO's 
    dashboard specifically for the TRP which will provide compliance 
    status for Marines scheduled to transition. 5.e As part of the 
    Inspector General's Critical or Requiring Evaluation program, 
    inspection results are part of a ``Commander's Report Card'' that 
    is reported to the CMC. Any findings are to be resolved and 
    confirmed with the IG's office within 30 days of inspection.

QFR Title: Supplemental TAP Courses and Backfilling Transitioning 
    Service Members

Requestors: Rep Timothy J. Walz
Witness: Bennett, Robert
QFR ID: HVAC-01-005 QFR

Question Number: 5

Question: The Government Accountability Office (GAO) study found very 
    low rates of attendance for the supplemental TAP courses on 
    accessing higher education, career and technical training, and 
    entrepreneurship. There is concern that because these courses are 
    seen as optional, unit commanders are not allowing attendance of 
    interested service members. Has OSD thought about mandating that 
    service members attend at lease one of these currently supplemental 
    programs to ensure their ability to attend if they are interested? 
    a. From visits to military bases and asking service members about 
    their transition process, the Committee has heard that commanders 
    are often unwilling to let service members attend additional 
    supplemental classes or repeat classes that service members might 
    feel they need to repeat. Often the reason given is that the unit 
    is short-staffed and that the commander is unable to get a 
    replacement for that service member until they are out-processed 
    from the military, so they need them to continue training to hit 
    readiness numbers. Have the services considered changing policy to 
    allow the unit to request a fill for a sercie member they know is 
    or will be transitioning out? b. Have the services considered 
    manning units to be over 100% strength? c. We have also heard 
    troubling anecdotes of commanders telling their units to sign in to 
    their TAP classes so that their attendance is recorded but the to 
    leave and return to work without actually sitting through the 
    class. And GAO reported that after attending TAP class to make up 
    for having attended TAP class. Have the services looked at how DoD 
    can better monitor and address deliberate subversion of the rules? 
    d. How are commanders at the lower echelons being educated about 
    the importance of preparation and TAP courses for a successful 
    transition? e. Have the services considered including transition 
    numbers and metrics in commanders' evaluations, similar to how they 
    are evaluated on readiness?

Answer: The Army does not believe DoD has mandated Service members 
    attend supplemental programs. Career Tracks are optional, 
    supplemental TAP courses that are offered to Soldiers looking for 
    specialized training during pre-separation, initial counseling, and 
    in the developmental stage of their Individual Transition Plan 
    (ITP). a. No. The Army's inventory of Soldiers is not sufficient to 
    offset losses any earlier than at separation date. b. No. The 
    Army's inventory of Soldiers is not sufficient to man all units at 
    over 100% strength. c. Yes. The Army requires transitioning 
    Soldiers to sign in on rosters at all installations to ensure a 
    Soldier's attendance is captured and recorded into the system of 
    record. The Army has assigned Transition NCOs in each unit who 
    monitor and report Soldiers not in attendance. Rosters are 
    validated by roll call at least twice during the morning and 
    afternoon sessions. If a Soldier is not present, they receive a 
    ``no-show'' on the roster, which is followed by a report to the 
    commander from the Transition Services Manager at the center. d. 
    Each installation conducts professional development for commanders 
    and leaders at lower echelons. Transition requirements are also 
    taught at the commander and first sergeant courses, pre-command 
    courses, the general officer transition course, and the command 
    sergeant major transition course. In addition, Army Regulation 600-
    81, Soldier for Life - Transition Assistance Program (SFL-TAP) 
    directs leaders to send their Soldiers to SFL-TAP. To encourage 
    additional education, the Army provides contact avenues on the SFL-
    TAP website and in the regulation that allow leaders to get 
    questions answered by subject matter experts. The Army educates 
    leaders and Soldiers on the 24/7 SFL-TAP Virtual Center and phone 
    line, which offers Commanders flexibility in helping Soldiers 
    complete SFL-TAP CRS requirements during non-duty hours and without 
    interfering with mission duties. e. Yes. Currently commanders are 
    authorized to include SFL-TAP percentages in personnel evaluations.

QFR Title: Career Skills Programs

Requestors: Rep Timothy J. Walz
Witness: Bennett, Robert
QFR ID: HVAC-01-006 QFR

Question Number: 6

Question: The Army has focused on building Career Skills Programs (CSP) 
    for transitioning service members. Are similar programs being 
    implemented in other services through the Skillbridge program? a. 
    What is the current participation rate in CSPs (or CSP like 
    programs) across the services? b. How is DoD measuring success in 
    CSPs?

Answer: Yes, The Army collaborates with the Navy, Air Force, and Marine 
    Corps in order to share best practices, grow the enterprise of 
    programs, and to make programs available to transitioning service 
    members from all Services. For example, there is currently one Air 
    Force member attending the Microsoft Software & Systems Academy 
    (MSSA) CSP being held at Fort Benning, GA. a. Army CSP data/metrics 
    are tracked with the Installation Management Command Common 
    Operating Picture (COP) (as of 27NOV17). In FY16, 2,436 Soldiers 
    enrolled, with 2,271 Soldiers completing a CSP (93%). As a result, 
    2,013 Soldiers received job placement (89%). In FY17, 4,251 
    Soldiers enrolled, with 3,930 Soldiers completing a CSP (92%) and 
    to date, 3,722 Soldiers have received job placement (95%). b. For 
    the Army, success is measured by achieving a 90% job placement rate 
    upon transition from active duty for Soldiers completing a CSP. For 
    the past two years, the Army has exceeded this goal and is on track 
    to continue this standard of excellence in FY18.

QFR Title: Career Skills Programs

Requestors: Rep Timothy J. Walz
Witness: Stein, Kurt W
QFR ID: HVAC-01-006 QFR

Question Number: 6

Question: The Army has focused on building Career Skills Programs (CSP) 
    for transitioning service members. Are similar programs being 
    implemented in other services through the Skillbridge program? a. 
    What is the current participation rate in CSPs (or CSP like 
    programs) across the services? b. How is DoD measuring success in 
    CSPs?

Answer: The Marine Corps has nine SkillBridge programs that include 
    welding, cyber security, emergency medical services, and commercial 
    driving training across various installations, bases, and stations. 
    In FY17, 755 Marines participated in these Skillbridge programs.

QFR Title: Flag and General Officers and Senior Enlisted Advsiors

Requestors: Rep Timothy J. Walz
Witness: Stein, Kurt W
QFR ID: HVAC-01-010 QFR

Question Number: 10

Question: When flag officers testify to congressional committees or 
    conduct office calls, are they encourage or directed to attend with 
    their senior enlisted advisor? a. Would be beneficial for 
    congressional committees to hear testimony directly from senior 
    enlisted advisors?

Answer: The senior enlisted advisor provides important feedback and 
    guidance to general officers. They may choose to consult with their 
    senior enlisted advisor prior to testifying before Congress, 
    however, each congressional engagement is unique and may not 
    require their attendance. Congressional committees do hear 
    testimony directly from senior enlisted advisors. The Sergeant 
    Major of the Marine Corps typically testifies each year on quality 
    of life issues affecting Marines and their families.

QFR Title: Flag and General Officers and Senior Enlisted Advsiors

Requestors: Rep Timothy J. Walz
Witness: Bennett, Robert
QFR ID: HVAC-01-010 QFR

Question Number: 10

Question: When flag officers testify to congressional committees or 
    conduct office calls, are they encourage or directed to attend with 
    their senior enlisted advisor? a. Would be beneficial for 
    congressional committees to hear testimony directly from senior 
    enlisted advisors?

Answer: Flag officers are not directed to attend with their Senior 
    Enlisted Leaders (SEL). a. Yes. Also, the Sergeant Major of the 
    Army, SMA Dailey, often encourages Army SELs to engage with Members 
    and their staffs in an open dialogue when the voice of the enlisted 
    force can offer an additional perspective unique to their 
    respective formations.

QFR Title: Supplemental TAP Courses and Backfilling Transitioning 
    Service Members

Requestors: Rep Timothy J. Walz
Witness: Thomas, Karl O
QFR ID: HVAC-01-005 QFR

Question Number: 5

Question: The Government Accountability Office (GAO) study found very 
    low rates of attendance for the supplemental TAP courses on 
    accessing higher education, career and technical training, and 
    entrepreneurship. There is concern that because these courses are 
    seen as optional, unit commanders are not allowing attendance of 
    interested service members. Has OSD thought about mandating that 
    service members attend at lease one of these currently supplemental 
    programs to ensure their ability to attend if they are interested? 
    a. From visits to military bases and asking service members about 
    their transition process, the Committee has heard that commanders 
    are often unwilling to let service members attend additional 
    supplemental classes or repeat classes that service members might 
    feel they need to repeat. Often the reason given is that the unit 
    is short-staffed and that the commander is unable to get a 
    replacement for that service member until they are out-processed 
    from the military, so they need them to continue training to hit 
    readiness numbers. Have the services considered changing policy to 
    allow the unit to request a fill for a sercie member they know is 
    or will be transitioning out? b. Have the services considered 
    manning units to be over 100% strength? c. We have also heard 
    troubling anecdotes of commanders telling their units to sign in to 
    their TAP classes so that their attendance is recorded but the to 
    leave and return to work without actually sitting through the 
    class. And GAO reported that after attending TAP class to make up 
    for having attended TAP class. Have the services looked at how DoD 
    can better monitor and address deliberate subversion of the rules? 
    d. How are commanders at the lower echelons being educated about 
    the importance of preparation and TAP courses for a successful 
    transition? e. Have the services considered including transition 
    numbers and metrics in commanders' evaluations, similar to how they 
    are evaluated on readiness?

Answer: The supplemental transition courses generally receive positive 
    comments from Service members who attend across the Services. 
    Consideration was given to mandate attendance, however, as an 
    alternative it is Navy policy for the Sailor to participate if both 
    the Sailor and command transition officer determine participation 
    is required to achieve career readiness standards, which are based 
    on Service member-defined objectives that must be achieved in order 
    to meet their post-military service goals. The majority of Sailors 
    look to reenter the civilian workforce after separation and many 
    are already accessing higher education through our Navy Voluntary 
    Education Program, which does not require them to attend the 
    supplemental courses on accessing higher education, career and 
    technical training or entrepreneurship to meet their career 
    readiness standards. Commanders currently have the ability to 
    request fills for transitioning Sailors, however, they are not 
    always provided in time to help the separating Sailor prepare full-
    time for transition. While each unit's needs and capacity differ, 
    transitioning Sailors are afforded time to prepare beginning at the 
    start of their career and through their entire military life cycle 
    and are provided information and guidance at career development 
    boards for enlisted and mid-term counseling for officers. The 
    military life cycle model provides Service members the time and 
    resources to plan for their inevitable transition from Active Duty; 
    reduces mission impact as many transition-related actions are 
    completed during the normal course of business instead of at the 
    end of a Service member's time on Active Duty; and allows increased 
    flexibility for transition service delivery. Manning units above 
    100 percent is not feasible within existing funded and authorized 
    end strength. Manpower requirements are based on Navy's force 
    structure and manning units above 100 percent within existing 
    funded end strength would create gaps in other valid manpower 
    requirements ultimately degrading readiness. Our focus instead is 
    on the military life cycle and ensuring preparations for 
    transitioning out of the Navy commence at the beginning of a 
    Sailor's military career, and continue throughout. Navy does not 
    give credit for attendance if Sailors do not attend all modules of 
    the transition assistance program curriculum. If members are called 
    out of class by their command then they must reschedule to attend 
    missed modules. However, in an effort to better capture and 
    evaluate Sailor participation, the Navy has been working with 
    Department of Defense and other Services to change the participant 
    assessment to include questions on command support, timeliness of 
    participation and reasons for virtual course participation vice 
    brick and mortar. We leverage an extensive personal and 
    professional Navy network to keep the Fleet informed of new policy 
    changes and transition assistance program implementation 
    challenges. We work with Fleet engagement teams to coordinate and 
    provide training to commanders worldwide on procedures, policies, 
    new aspects of the transition assistance program and reporting 
    requirements. We also coordinate efforts with our Fleet and Force 
    Career Counselors to provide timely and pertinent information 
    through release of instructions, Navy Administrative Messages, 
    emails, the transition webpage, and Plain Talk for Sailors 
    bulletins. The addition of Transition Assistance Program compliance 
    to the annual ``Golden Anchor'' retention award since 2016 
    increased self-awareness and provided motivation to improve 
    transition performance at the Commander level. Navy provides 
    transition assistance program metrics to Commanders and Commanding 
    Officers. With this tool in place, my team worked with Fleet 
    Commanders to add transition assistance program compliance as a 
    criterion for the annual ``Golden Anchor'' retention award, which 
    recognizes commands with exceptional Sailor retention programs. We 
    also include Transition Assistance Program metrics in our Chief of 
    Naval Operations Health of the Force report, which provides 
    comprehensive information on personnel readiness issues.

QFR Title: Career Skills Programs

Requestors: Rep Timothy J. Walz
Witness: Thomas, Karl O
QFR ID: HVAC-01-006 QFR

Question Number: 6

Question: The Army has focused on building Career Skills Programs (CSP) 
    for transitioning service members. Are similar programs being 
    implemented in other services through the Skillbridge program? a. 
    What is the current participation rate in CSPs (or CSP like 
    programs) across the services? b. How is DoD measuring success in 
    CSPs?

Answer: Yes, Navy has 16 employment skills programs with 8 additional 
    programs in the planning stages for fiscal year (FY) 2018. As of 
    June 2017, 158 Navy personnel have completed SkillBridge programs 
    with a job placement rate of 65 percent. Programs such as Onward-
    to-Opportunity (O2O) provide up to six to eight weeks of training 
    for in-demand fields such as cybersecurity and software 
    engineering. The O2O program is currently hosted at three Navy 
    locations including Norfolk, VA, Jacksonville, FL, and San Diego, 
    CA. Navy is also partnering with Microsoft and Amazon to provide 
    employment skills training programs for FY2018 at various locations 
    throughout the Navy enterprise including Gulfport, MS, Pensacola, 
    FL, and Ventura County, CA. The Veterans-in-piping (VIP) pre-
    apprenticeship training at Naval Station Norfolk is considered a 
    best practice program for Department of Defense SkillBridge. The 
    VIP is designed to fill a critical workforce need for welders in 
    Norfolk and Hampton Roads, VA, and involves 18 continuous weeks of 
    full-time classroom and on-the-job training sessions. Navy actively 
    seeks to collaborate with companies and training providers to 
    establish more SkillBridge training programs on, or near, Navy 
    installations.

QFR Title: Flag and General Officers and Senior Enlisted Advsiors

Requestors: Rep Timothy J. Walz
Witness: Thomas, Karl O
QFR ID: HVAC-01-010 QFR

Question Number: 10

Question: When flag officers testify to congressional committees or 
    conduct office calls, are they encourage or directed to attend with 
    their senior enlisted advisor? a. Would be beneficial for 
    congressional committees to hear testimony directly from senior 
    enlisted advisors?

Answer: The senior enlisted advisor provides important feedback and 
    guidance to flag officers. They may choose to consult with their 
    senior enlisted advisor prior to testifying before Congress, 
    however, each congressional engagement is unique and may not 
    require their attendance. Congressional committees do hear 
    testimony directly from senior enlisted advisors. The Master Chief 
    Petty Officer of the Navy typically testifies each year on quality 
    of life issues affecting Sailors and their families.

                                 <F-dash>
       Ranking Member Tim Walz, House Veterans Affairs Committee
Questions

    1. In any of GAO's studies, has GAO collect data on service 
member's educational backgrounds before they enter military service? 
Ifso, please provide a copy of the study (or studies) that occurred in.

    a.If GAO has collected such data:

    i. What variation did GAO see in the level of education of services 
members upon entering the service?

    ii. How many service members entering the service are not prepared 
to pursue higher education?

    iii. How effectively is the Department of Defense addressing this 
issue? (What is the percentage of service members not prepared to 
pursue higher education upon leaving the service, as compared to the 
number in subsection ii?)

II.GAO response

    GAO has not collected or analyzed data on servicemembers' 
educational backgrounds before entering military service. As a result, 
GAO cannot describe the extent to which new servicemembers' education 
levels vary or assess how prepared they are to pursue higher education 
when they leave military service. The Defense Manpower Data Center 
within the Department of Defense may be able to provide such data.

                                 <F-dash>
 Full Committee Ranking Member Tim Walz to U.S. Department of Veterans 
                                Affairs

    Question 1: What does VA consider a successful transition for a 
service member leaving the Department of Defense (DoD)?

    VA Response: One of the key objectives of the Transition Assistance 
Program (TAP) is attainment of career-readiness skills that meet the 
standards as defined and measured by the Services. As part of the 60-
day tasking from the HVAC EO Subcommittee, the interagency partners are 
working together to refine the definition of success, to include 
desired outcomes and success metrics.

    Question 1a. What metrics does VA use to measure this success?

    VA Response: VA uses the Transition Goals, Plans, Success (GPS) 
Participant Assessment performance metrics provided by DoD. The 
Participant assessment collects Servicemembers demographic data and 
includes questions to assess the quality of the course curriculum, 
materials, facilitators, and facilities. Participants also answer 
questions that gauge their intent to apply the information learned, 
confidence derived by completing the various modules/tracks, and self-
assessed knowledge gain. VA consistently receives high evaluations from 
Servicemembers who attend VA Benefits Briefings I and II, averaging 96 
percent satisfaction on information learned, 96 percent on facilitator 
effectiveness, and 94 percent on confidence gained from the material.

    Question 2: Has VA identified certain groups that are at higher 
risk for homelessness, unemployment or mental health issues during or 
after transition?

    VA Response: Not yet, but we are working to do so. Currently, for 
those identified by DoD who do not have a post-transition housing plan 
or do not meet Career Readiness Standards, VA facilitates warm 
handovers.

    Question 2a: If so, is VA tracking any specific statistics or 
metrics for those at risk groups, and what are those statistics?

    VA Response: VA currently does not have specific statistics or 
metrics for Servicemembers deemed at risk for homelessness, 
unemployment or mental health issues during or after transition. To 
begin collecting baseline data and examining trends around this group, 
we recently updated the TAP Memorandum of Understanding to aggregate 
the data and track Servicemembers requiring warm handovers because they 
lack a post-transition housing plan and/or do not meet Career Readiness 
Standards. VA aggregates the above data by Service, Component and 
Grade. This information will provide us with statistics that will be 
useful in better assisting high risk individuals.

    Question 2b: Does VA consider service members receiving a discharge 
other than ``Honorable'' to be a higher risk for homelessness, 
unemployment or mental health issues when compared to the general 
transitioning population?

    VA Response: Through an interagency work group with representation 
from VA, DoD, DoL, OPM, ED, DHS and SBA, VA is in the process of 
collecting and analyzing data to determine the impact of other-than-
honorable separations on the associated level of risk for 
Servicemembers/Veterans.

    Question 3: In her testimony, Ms. Margarita Devlin, Executive 
Director of Benefits Assistance Service, Veterans Benefits 
Administration, spoke about collecting information on post separation 
outcomes. Does VA plan to make this survey longitudinal?

    VA Response: Yes, the current post separation assessment asks 
Veterans about their willingness to participate in a longer term study. 
The intention is to track the cohorts over time during their transition 
journey.

    Question 3a: What outcomes and metrics will VA be measuring in this 
Survey?

    VA Response: Objective and subjective measures will be gathered in 
the following domains: mental/physical health, social relationships, 
financial situation, employment, entrepreneurship, education and 
housing.

    Question 4: Has VA considered evaluating the Benefits I and II 
programs using metrics measuring information retained by the service 
member?

    VA Response: VA currently tracks Transitioning Servicemember 
knowledge through Direct Knowledge Questions administered in the 
Transition GPS Participant Assessment during the TAP GPS modules. 
Participants answer questions to gauge their retention of the 
information learned. The results are used to inform question revision 
and curriculum content. VA receives the quarterly Transition GPS 
Participant Assessment data from DoD and consistently receives high 
evaluations from Servicemembers who attend Benefits Briefings I and II, 
averaging 96 percent satisfaction on information learned.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
